<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________

    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES

                ALAN B. MOLLOHAN, West Virginia, Chairman
 PATRICK J. KENNEDY, Rhode Island   FRANK R. WOLF, Virginia
 CHAKA FATTAH, Pennsylvania         JOHN ABNEY CULBERSON, Texas
 ADAM SCHIFF, California            ROBERT B. ADERHOLT, Alabama
 MICHAEL HONDA, California          JO BONNER, Alabama         
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 PETER J. VISCLOSKY, Indiana        
 JOSE E. SERRANO, New York          

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              John Blazey, Dixon Butler, Adrienne Simonson,
             Tracey LaTurner, Diana Simpson, and Darek Newby
                           Subcommittee Staff
                                ________
                                 PART 8

               STATEMENTS OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                                   S

                                ________
         Printed for the use of the Committee on Appropriations
PART 8--COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS 
                                FOR 2010
                                                                      ?
?
                                                                      ?

  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                ALAN B. MOLLOHAN, West Virginia, Chairman
 PATRICK J. KENNEDY, Rhode Island   FRANK R. WOLF, Virginia
 CHAKA FATTAH, Pennsylvania         JOHN ABNEY CULBERSON, Texas
 ADAM SCHIFF, California            ROBERT B. ADERHOLT, Alabama
 MICHAEL HONDA, California          JO BONNER, Alabama         
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 PETER J. VISCLOSKY, Indiana        
 JOSE E. SERRANO, New York          

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              John Blazey, Dixon Butler, Adrienne Simonson,
             Tracey LaTurner, Diana Simpson, and Darek Newby
                           Subcommittee Staff
                                ________
                                 PART 8

               STATEMENTS OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                                   S

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 48-765                     WASHINGTON : 2009

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                 FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana        JACK KINGSTON, Georgia
 NITA M. LOWEY, New York            RODNEY P. FRELINGHUYSEN, New Jersey
 JOSE E. SERRANO, New York          TODD TIAHRT, Kansas
 ROSA L. DeLAURO, Connecticut       ZACH WAMP, Tennessee
 JAMES P. MORAN, Virginia           TOM LATHAM, Iowa
 JOHN W. OLVER, Massachusetts       ROBERT B. ADERHOLT, Alabama
 ED PASTOR, Arizona                 JO ANN EMERSON, Missouri
 DAVID E. PRICE, North Carolina     KAY GRANGER, Texas
 CHET EDWARDS, Texas                MICHAEL K. SIMPSON, Idaho
 PATRICK J. KENNEDY, Rhode Island   JOHN ABNEY CULBERSON, Texas
 MAURICE D. HINCHEY, New York       MARK STEVEN KIRK, Illinois
 LUCILLE ROYBAL-ALLARD, California  ANDER CRENSHAW, Florida
 SAM FARR, California               DENNIS R. REHBERG, Montana
 JESSE L. JACKSON, Jr., Illinois    JOHN R. CARTER, Texas
 CAROLYN C. KILPATRICK, Michigan    RODNEY ALEXANDER, Louisiana
 ALLEN BOYD, Florida                KEN CALVERT, California
 CHAKA FATTAH, Pennsylvania         JO BONNER, Alabama
 STEVEN R. ROTHMAN, New Jersey      STEVEN C. LaTOURETTE, Ohio
 SANFORD D. BISHOP, Jr., Georgia    TOM COLE, Oklahoma                 
 MARION BERRY, Arkansas             
 BARBARA LEE, California            
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          
                                    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2010

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                           Thursday, April 2, 2009.

 NATIONAL INSTANT CRIMINAL BACKGROUND CHECK SYSTEM AND TIAHRT AMENDMENT

                                WITNESS

HON. CAROLYN McCARTHY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK

                           Opening Statement

    Mr. Mollohan. The hearing will come to order.
    This morning we have outside witnesses and we welcome each 
and every one of you. And we welcome first our colleague, 
Carolyn McCarthy.
    Carolyn, thank you for appearing here today. You continue 
your tradition of representing your constituency well by 
appearing everywhere and being involved and active in every 
issue. And we welcome you here this morning for your testimony.
    Mrs. McCarthy. Thank you, Mr. Chairman.
    And I also thank Ranking Member Wolf and the members of the 
Commerce, Justice Appropriations Subcommittee.
    I appreciate you allowing me to testify today in support of 
including full funding for the fiscal year 2010 Commerce, 
Justice, Science appropriations bill under the Department of 
Justice's community-oriented policing service to implement H.R. 
2640, ``The NICS Improvement Act,'' Public Law number 10-180.
    I thank the Committee for including ten million for NICS 
improvements in 2009. This is a good start, but there is more 
needed to make a difference.
    H.R. 2640 was signed into law on January 8th, 2008 after 
having passed both the House and the Senate unanimously. I know 
the budget is tight, Mr. Chairman, but fully funding this 
program is so important because currently the National Instant 
Criminal Background Check System or NICS is deeply flawed.
    NICS is a national database system that flags individuals 
precluded under current law from purchasing and possessing 
firearms. Millions of criminal records are currently missing 
from the databases that make up the NICS due to funding 
restrictions and technology issues at the state level. Many 
states have not automated individual records concerning mental 
illness, restraining orders, or misdemeanor convictions for 
domestic violence.
    Simply put, NICS must be updated on the state level so that 
it can properly function on the federal level. This point is 
underscored by the circumstances surrounding the shootings of 
Virginia Tech in 2007 and also with what occurred in the First 
Baptist Church in Maryville, Illinois this year.
    Both of these shootings remind me of the similar shootings 
that took place in my district at Our Lady of Lord's Peace 
Church in Lynbrook, New York in 2002.
    Peter Troy purchased a 22 caliber semiautomatic rifle. He 
had a history of mental health illnesses and his own mother had 
a restraining order against him as a result of his violent 
background.
    Four days later, Mr. Troy walked into Our Lady of Peace 
Church in Lynbrook, New York and opened firing, killing two 
people. It was illegal for him to purchase a gun, but for many 
reasons, he was able to slip through the NICS system.
    Similarly, in the Virginia Tech shooting, the NICS system 
allowed the shooter's record to slip through the cracks and he 
was able to purchase two handguns and used them to brutally 
murder 32 individuals.
    He passed a Brady background check because NICS did not 
have the necessary information. Sadly this scenario happens too 
frequently.
    ``The NICS Improvement Amendments Act'' requires all states 
to provide NICS with the relevant records needed to conduct 
efficient background checks. It is the state's responsibility 
to ensure this information is current and accurate. They must 
update their records to ensure violent criminals do not have 
access to firearms and then they must share the information 
with NICS.
    However, I recognize many state budgets are already 
overburdened. This law provides grants to states to update 
their records while providing those records to NICS.
    States will receive the funds they need to make sure 
relevant records are up to date. ``The NICS Improvement Act of 
2007'' corrects the primary flaws and will prevent thousands of 
individuals precluded from purchasing firearms.
    Approximately 916,000 individuals were precluded from 
purchasing a firearm for failing a background check between 
November 30, 1998 and NICS began operating on December 31, 
2004.
    During this same period, nearly 49 million Brady background 
checks were processed through NICS. These numbers provide that 
NICS works and will continue to work. However, since NICS is 
only as good as the information it contains, we must ensure 
that NICS has the most up-to-date records to stop criminals, 
those adjudicated as mentally ill and those under restraining 
order from purchasing firearms.
    It has been estimated that approximately 40 million records 
are missing from the various databases that makes up NICS. By 
providing this funding, we will move one step closer to 
bringing the records of millions of barred individuals into 
NICS. This law imposes no new restrictions on gun owners and 
does not infringe on 2nd Amendment rights of law-abiding 
citizens. It simply makes improvements to a program to save 
lives.
    The NRA, the Brady Campaign, Mayors Against Illegal Guns, 
and a number of towns and cities have supported full funding 
for NICS. I respectfully request that you include 375 million 
in fiscal year 2010 Commerce, Justice, Science bill under the 
Department of Justice's community-oriented policing services in 
order to fully fund ``The NICS Improvement Act.''
    On another matter, I want to express my continued strong 
opposition to the provision in the bill known as the Tiahrt 
Amendment. I fully support eliminating the Tiahrt language. 
Short of this, I support efforts to continue to improve the 
language so that law enforcement can have the tools it needs to 
fully investigate and prosecute gun crimes.
    Trace data is how you find the store purchases and 
problematic gun dealers. It is time that the ATF was able to 
fully share crime gun trace data to work hand in hand with 
state and local law enforcement. That full partnership could 
help stem the flow of illegal guns into Mexico and it could 
deter illegal guns trafficking into American cities as well.
    I thank you for your time and I would be happy to answer 
any questions.
    [Written statement by Congresswoman Carolyn McCarthy 
follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.001

[GRAPHIC] [TIFF OMITTED] T8765A.002

[GRAPHIC] [TIFF OMITTED] T8765A.003

[GRAPHIC] [TIFF OMITTED] T8765A.004

    Mr. Mollohan. Thank you, Carolyn. I have no questions, but 
thank you very much for your testimony, Carolyn.
    Mrs. McCarthy. Thank you.
    Mr. Mollohan. Thank you.
    Next the Committee would like to welcome Elbridge Coochise, 
Independent Tribal Courts Review Team, testifying on their 
behalf.
    The Committee is going to ask the witnesses to keep their 
oral testimony to five minutes because we have a lot of 
witnesses and, you know, one day. We appreciate very much your 
respecting that request. And we will maybe give you, if some 
folks get carried away and that is understandable because you 
are passionate about your testimony, we will give you a little 
reminder maybe.
    Welcome, Mr. Coochise.
                              ----------                              

                                           Thursday, April 2, 2009.

                 INDEPENDENT TRIBAL COURTS REVIEW TEAM


                                WITNESS

ELBRIDGE COOCHISE
    Mr. Coochise. Thank you, Mr. Chairman. Thank you for 
allowing me to appear before you----
    Mr. Mollohan. Thank you for being here.
    Mr. Coochise [continuing]. To address the serious issue of 
funding of tribal judicial systems in Indian Country.
    I represent the Independent Review Team that was formed 
about three years ago, and we have 156 tribes with courts that 
we are going to review. We have done about 50.
    And so our request is from our findings that the Committee 
appropriate 58.4 million as was authorized twice now in ``The 
Indian Tribal Justice Act.''
    In our findings, we have noted that tribal judicial systems 
out there are really hampered and hindered with the limitation 
of funding in dealing with like even hiring and training and 
the salaries of the court staff, including judges.
    Even appellate judges, since we reviewed a court a couple 
weeks ago, they have an appellate court, but they are limited 
to four hours per month and they are backlogged 29 cases. And 
they are law trained judges. They get paid $25.00 an hour to 
hear appeals.
    And so that is what we have. On the other hand, there are 
court systems that are operating in condemned buildings. And an 
example, like I said, two weeks ago, two of my team members 
went in to talk to the clerk and get the information on it 
because of the speedy trial issue. In 40 minutes, they came 
out. Both of them were sick and they could not function until 
the next day when they got some of that cleared.
    And there are a number of courts that are operating in 
condemned buildings or buildings that are not useable because 
they are infested with rats or other issues and the electricity 
does not hold up.
    There is really a need for state-of-the-art such as 
computers and software at these tribes and in order to maintain 
a record system, many of them are still doing it manually.
    And we appreciate the money, that 25 million that was put 
in Department of Justice to help with the facilities, but part 
of the problem with that is that they are grants. And many of 
the poorest tribes and courts that are operating do not have 
grants writers. So they are really not in a position to compete 
for those grants. And then because the grants end after a year 
or three years, they are back in the same boat when those 
grants run out.
    One of the courts we reviewed in South Dakota, they were 
operating until the grants ended and then they were back to one 
judge and one and a half clerks to operate the system. But they 
did not have the software to maintain their record system.
    There is a total of 11.9 million that the 156 tribes share 
and we found that only 26 percent of those courts being funded 
are federal dollars. The others are from the tribes themselves 
where they can fund them.
    And so two things came out in our review in the past two, 
three years is there is no written fiscal policy manuals for 
the court systems because they do handle different money flow 
coming through the system. And the second is written court 
procedures that is geared to the tribe's own court system. Many 
of them are trying to use procedures in training materials that 
they attended in how the courts operate, but none of those are 
in place.
    And so in the three years that we have been reviewing 
courts, they are still in pretty dire need of funds just to 
operate. And as I said, facilities are not the best 
accommodations.
    And our concern is that if the justice system is going to 
work, several things have to happen. Of course, certainly 
funding, but the personnel. The salaries are so low that most 
of them cannot even attract any qualified people to sit in 
those positions.
    And so in looking at the system, our reviews have been 
systemic and we are finding because of our directive from OMB 
to look at what federal funds they get, how are they spending. 
We have only found one of the fifty tribes where it was 
questionable that they were spending money elsewhere.
    And then toward the end of last year, we also got a 
directive to look at the speedy trial issues because that 
article in either Wall Street or New York Times about no 
justice because it was not allowed. Well, we reviewed fifteen 
and only one was there a violation at the tribal court.
    So those that do not have any criteria or measurement, we 
relied on the federal standard of the speedy trial and found 
that 14 of the 15 were in compliance with that issue.
    So even with the limited funding, they are still doing it. 
And certainly with only 70 jails in Indian Country and five or 
six are condemned or no longer operable, that for the courts, 
we do not have a resource once it goes through the system.
    So we are requesting that money to be appropriated so the 
justice systems have sufficient resources to operate.
    [Written statement by Elbridge Coochise, Chief Justice, 
Retired follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.005

[GRAPHIC] [TIFF OMITTED] T8765A.006

[GRAPHIC] [TIFF OMITTED] T8765A.007

[GRAPHIC] [TIFF OMITTED] T8765A.008

    Mr. Mollohan. We will follow-up with you on these issues.
    Mr. Coochise. Huh?
    Mr. Mollohan. We will follow-up with you on these issues.
    Mr. Coochise. Okay. And I appreciate it. If you have any 
questions, I would be glad to answer.
    Mr. Mollohan. Thank you, Justice Coochise.
    Mr. Coochise. And here is a copy, I will leave it, our 
final fiscal year report on the reviews----
    Mr. Mollohan. Okay.
    Mr. Coochise [continuing]. That we have done. And it covers 
some of the areas that I mentioned.
    Mr. Mollohan. All right. Thank you very much for your 
testimony.
    Mr. Coochise. Thank you very much for your time.
    Mr. Mollohan. Thank you for your appearance. Thank you, 
Justice.
    Next the Committee would like to welcome David Bean 
testifying on behalf--I am not going to do it justice, so you 
tell me how you pronounce it, please.
    Mr. Bean. Puyallup, Puyallup Tribe, Puyallup Tribe.
    Mr. Mollohan. Puyallup Tribe of Washington.
    Mr. Bean. Good job.
    Mr. Mollohan. Thank you for your appearance here today, 
Councilman Bean. You may proceed.
                              ----------                              

                                           Thursday, April 2, 2009.

                      PUYALLUP TRIBE OF WASHINGTON


                                WITNESS

DAVID BEAN, COUNCILMAN
    Mr. Bean. Good morning, Mr. Chairman.
    Mr. Mollohan. Good morning.
    Mr. Bean. My name is David Bean. I am a member of the 
Puyallup Tribal Council. And with me today is fellow council 
member Nancy Gaines, Nancy Shipenpower Gaines in the back here.
    Mr. Mollohan. Welcome.
    Mr. Bean. On behalf of the Puyallup Tribe, we would like to 
thank you and Ranking Member Wolf for your continued support to 
tribal issues.
    We have some detailed written testimony to the Subcommittee 
and we look forward to working with the 111th Congress to 
ensure that adequate funding for important Department of 
Justice programs are included in the fiscal year 2010 budget.
    We come from the Puyallup Reservation which is located in a 
major metropolitan area. Our reservation is 18,000 acres. It 
encompasses the cities of Tacoma, Fife, Milton, Puyallup, 
Edgewood, and Federal Way. We provide services to our 4,000 
members and 25,000 plus Native Americans and Alaskan Natives 
from over 355 federally recognized tribes.
    While there are many Department of Justice programs that 
are in need of increased funding such as tribal courts, 
community-oriented policing services, tribal youth programs, 
meth hotspot program, and ``The Violence Against Woman Act'' 
programs, we would like to talk to you today about the 
condition of the tribe's detention facility.
    We currently operate a law enforcement division, has a 
Chief of Police, 26 commissioned officers, and two reserve 
officers. We have nine detention officers due to limited 
federal funding for law enforcement in Indian Country. Only two 
officers are funded through our BIA 638 contract. The remaining 
personnel, facility operations, and maintenance are funded 
through tribal monies earned within our tribal economy totaling 
$5.7 million per year.
    The Puyallup Tribe works closely with the state and local 
law enforcement authorities and has been engaged in 
intergovernmental agreements with Fircrest County and the City 
of Tacoma for many years.
    Our tribal police officers are cross-deputized so that 
arrests can be made under city and county jurisdictions. The 
offenders are then turned over to the local authorities.
    The importance of cross-deputization is highlighted by the 
impact of gangs on the Puyallup Reservation. Currently there 
are 28 active gangs on our reservation. Gang activities include 
drug trafficking, weapon sales, turf wars which result in 
drive-by shootings.
    Interstate 5 runs through the middle of our reservation and 
it is known as a major drug corridor. With continuing increase 
in population, gang-related activities and the impact of 
manufacturing of methamphetamines in the region that services 
the Puyallup Nation law enforcement division are exceeding 
maximum levels.
    The tribe successfully operated a regional detention 
facility for many years, but was forced to close the facility, 
resulting from damages from the 2001 Nisqually earthquake.
    This required us to relocate our detention services to 
temporary modular facilities. Over time, our ability to 
effectively and safely incarcerate inmates due to the 
deteriorated condition of the temporary facilities has been 
severely impacted.
    A recent inspection by the BIA Office of Professional 
Standards has verified these conditions and included a 
recommendation that no further funds should be allocated to 
bring the facility up to any standard.
    To address this issue, we have initiated design and 
construction of a 28,000 square foot justice center at an 
estimated cost of $15 million. The justice center will provide 
necessary facilities for the delivery of judiciary services, 
including a tribal court, a court clerk, prosecution, 
probation, a public defender, emergency preparedness, and law 
enforcement services. It includes a police headquarters and a 
7,000 square foot, 28-cell adult detention facility.
    The pro-rated cost of a detention facility is $5.25 
million. The justice center will not just be a facility to lock 
up Indians.
    In addition to being designed to DOJ and BIA standards, the 
justice center will provide holistic healing towards 
rehabilitation of our inmates. Counseling services will be 
provided in the areas of drug and alcohol addiction, mental 
health wellness, and domestic violence.
    Regional support has been provided by Mayor Bill Baarsma of 
the City of Tacoma; Fircrest County Executive Pat McCarthy; 
Paul Pastor, the Fircrest County Sheriff. Support has also been 
positive with the Washington State Congressional Delegation. We 
have met with Senator Murray, Senator Cantwell, Congressman 
Smith, and Congressman Dicks. And their staff at all offices 
were encouraged by the tribe's project and cooperation with the 
local jurisdictions.
    The Department of Justice programs established to address 
detention facilities in Indian Country have been historically 
underfunded and proposed for elimination by the past 
Administration.
    It has been estimated in an Interior Department report 
entitled Master Plan for Justice Services in Indian Country 
that 8.4 billion is needed over the next ten years to bring 
tribal and BIA detention centers up to current standards and 
relieve overcrowding.
    The Puyallup Tribe is requesting the Committee's support 
for special appropriations funding for the detention facility 
component of the new justice center in the amount of $5.25 
million.
    We would like to thank the Committee for your support and 
we look forward to working with you on the tribe's request.
    [Written testimony by Puyallup Tribe of Indians follows:]

    [GRAPHIC] [TIFF OMITTED] T8765A.009
    
    [GRAPHIC] [TIFF OMITTED] T8765A.010
    
    [GRAPHIC] [TIFF OMITTED] T8765A.011
    
    [GRAPHIC] [TIFF OMITTED] T8765A.012
    
    Mr. Mollohan. Thank you, Councilman Bean. Thank you very 
much for your testimony here today.
    Mr. Bean. Thank you.
    And I would just like to close with saying we fully support 
the efforts of Mr. Bill Frank of the Northwest Indian Fish 
Commission who will be offering testimony here in a few short 
moments.
    So thank you.
    Mr. Wolf. Mr. Chairman, could I just ask one question?
    Mr. Mollohan. Sure.
    Mr. Wolf. Have you asked the FBI to come in with regard to 
the gangs? The FBI is a gang intelligence operation. Have you 
asked them to come in and look at it?
    Mr. Bean. We have not, but I will take that under 
advisement and bring that back to our law enforcement agency.
    Mr. Wolf. Thank you.
    Mr. Mollohan. Thank you, Councilman Bean.
    Mr. Bean. Thank you.
    Mr. Mollohan. Thank you very much.
    Next the Committee would like to welcome Ron Hawley 
testifying on behalf of SEARCH.
    Welcome, Mr. Hawley. Your written statement will be made a 
part of the record and if you can summarize orally.
                              ----------                              

                                           Thursday, April 2, 2009.

                                 SEARCH


                                WITNESS

RON HAWLEY, EXECUTIVE DIRECTOR
    Mr. Hawley. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to appear here today. I am Ron 
Hawley, Executive Director of SEARCH.
    SEARCH is a criminal justice organization organized by the 
states and compromised of members appointed by each of the 
states' governors. Our mission is to promote the effective use 
of information and identification technology by criminal 
justice agencies nationwide. We have requested a $2 million 
earmark for the SEARCH National Technical Assistance and 
Training Program.
    For many years, the SEARCH National Technical Assistance 
and Training Program has been the only no-cost service for 
small- and medium-sized justice agencies to assist them in 
building, enhancing, upgrading, and integrating information 
systems.
    We have assisted with making sure that these systems are 
compatible with local systems, state systems, regional systems, 
national systems, and we have even done work in the tribal 
nations. We have developed and delivered high-tech anti-crime 
training and we have provided computer forensics technical 
assistance support.
    The program has reached directly and personally over 27,000 
criminal justice officials and many, many more, countless more 
in terms of the teams that we have supported over the years. 
The program is authorized under `` The Department of Justice 
Reauthorization Act.'' The need for funding is more critical 
than ever.
    Since September 11th, the need to share information has 
grown exponentially. Given current recent congressional 
activities, large amounts of money will be expended over the 
next few years to implement and improve these sorts of systems. 
It is our concern that the stimulus and the fiscal year 2009 
funds for these purposes will reach criminal justice agencies 
who are ill equipped and ill prepared to effectively and 
efficiently use this money. It is the technical assistance 
program that supports these folks in making good decisions in 
the expenditure of those dollars.
    We provide agencies with the knowledge, skills to 
effectively plan, organize, and implement such initiatives. 
However, as we do that, we also think about things like privacy 
and the importance of our civil liberties.
    And so I certainly encourage you to recognize that as this 
money gets spent from the stimulus and from fiscal year 2009, 
these local law enforcement entities need support, need an 
entity they can turn to to answer the questions they have about 
how to effectively and efficiently do that.
    Let me share with you a couple areas in which we have done 
specific support that illustrates my point. In Cherry Hill, New 
Jersey, a small rural department, they were sort of overwhelmed 
with the need to change their automation system and we know how 
important it is that every single department ship this 
information nationwide, make it available, make it 
interoperable.
    We went in and helped them from the ground up, helped them 
understand what it was they needed to do, helped them 
understand the national standards, and helped them implement in 
such a way that they could effectively meet their needs. They 
did not have anyone on staff capable of doing that.
    These are law enforcement officers, law enforcement 
agencies. That is their mission. Our mission is to help them in 
these support sorts of things.
    Another example. In Virginia, we assisted through our 
training in cyber technology efforts officers who were 
struggling with bringing forensic evidence off of a running 
computer. So we actually assisted them and stepped them through 
the process of recovering that information that became very 
valuable for them from an evidentiary standpoint.
    In Ohio, they were trying to do a statewide integration 
effort and we helped them from the ground up create the 
governance mechanism, understand what the objectives, the right 
outcomes should be in terms of their information sharing 
initiative, and bring together the wherewithal to make sure 
that as they moved forward, they had the foundation necessary 
to be successful.
    And finally I would mention to you that in the area of 
social networking, it was actually our trainers who suggested 
that law enforcement make themselves available in the My Space 
arena by allowing their agencies to become an individual 
member's number one friend. Within days of getting that 
established in Dade County, a pedofile was taken off the street 
as a result of that service.
    The funding is absolutely essential to us. As a result of 
cutbacks over the last several years, we have had to lay off 
people and reduce hours of the others. Our training has been 
impacted by the inability to ship the necessary technical 
equipment and now with this economic crisis, it is even more 
difficult for officers to attend our courses.
    Before I close, I would like to take a minute to speak to 
the Byrne Competitive Grant Program. We certainly support that 
program. It is laudable to competitively compete these funds, 
but we encourage you to think about making the money level 
necessary to make it worthwhile for the agencies that apply for 
it.
    And in conclusion, the use of this money will make sure 
that the other dollars that are absolutely going to be spent 
will, in fact, be spent more effectively and more efficiently. 
And I would be glad to answer any questions you have.
    [Written statement by Ronald Hawley, Executive Director of 
SEARCH, The National Consortium for Justice Information and 
Statistics follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.013

[GRAPHIC] [TIFF OMITTED] T8765A.014

[GRAPHIC] [TIFF OMITTED] T8765A.015

[GRAPHIC] [TIFF OMITTED] T8765A.016

[GRAPHIC] [TIFF OMITTED] T8765A.017

    Mr. Mollohan. Thank you, Mr. Hawley, for your testimony 
here today. We appreciate very much your appearance.
    Next the Committee would like to welcome a colleague, 
Congressman Vern Ehlers.
    Vern, welcome to the Committee. We appreciate your coming 
here to testify again today.
    Why don't you just fold these name tags over, if you would, 
please. Just fold them over. Thank you.
    Welcome.
                              ----------                              

                                           Thursday, April 2, 2009.

   NATIONAL SCIENCE FOUNDATION, NATIONAL INSTITUTE OF STANDARDS AND 
      TECHNOLOGY, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION


                                WITNESS

HON. VERNON J. EHLERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Ehlers. Thank you very much and thank you for allowing 
me to testify once again. This has become an annual event, but 
I also appreciate the efforts that all of you in this 
Subcommittee have put in over the years to satisfy my requests.
    The core of our technological innovation capacity in the 
United States depends on basic research. And as far as I know, 
everyone on this Subcommittee agrees with that. To that end, I 
ask you to give high priority to scientific research and 
development and math and science education in fiscal year 2010 
by funding the National Science Foundation at $7.0 billion, 
National Institute of Standards and Technology at $907 million, 
and the National Oceanic and Atmospheric Administration at $5 
billion. These are large numbers, but I think they are 
reasonable numbers if you look at the history of it.
    Since 2006, the Administration and many members of Congress 
have sought to put the scientific research agencies on a budget 
doubling path and, in fact, we passed ``The American Competes 
Act,'' which was intended to put these agencies on a doubling 
path.
    I appreciate the House and Senate strongly endorsing 
fundamental research in education in the fiscal year 2009 
appropriation bills and the stimulus bill added to those funds. 
Shovel-ready science afforded by the stimulus will help 
immensely with long-deferred infrastructure projects, but we 
cannot expect it to produce immediate discoveries.
    Long-term, stable funding which builds on the fiscal year 
2009 Omnibus levels is necessary to ensure that the investments 
being made today will result in transformational technologies 
needed in the future.
    Let me just mention each of the institutions in turn. The 
National Science Foundation is a national treasure. We set a 
standard for the world when we established NSF some 50 years 
ago and it has continued to lead the world.
    The National Institute of Standards and Technology which, 
as you know, primarily deals with standards, measurements, and 
certification services, but interestingly enough, this little 
institution which we call NIST has contributed tremendously to 
basic research.
    They have won three Nobel Prizes in the last just a bit 
more than a decade. I do not know of any other institution with 
that low a budget which has won three Nobel Prizes anywhere in 
the world. And that shows the quality of the work they do. They 
have become the international standard and they affect our 
lives in so many ways.
    I always find it amusing because people often ask me when I 
did my thesis research, I was doing very, very precise 
measurements and using the time standard that NIST had 
developed, the Cesium clock standard, and really depended on 
it, and people want to ask me why do we need to know time to 
millions of a nanosecond.
    And I said, well, do you enjoy watching color TV. Oh, sure. 
I said do you remember when color TV first came out, you would 
sit there, you would adjust the set, you would set the hue, the 
tint and everything, sit down, and ten seconds later, you had 
to jump up and set the tint and the hue again. Oh, yeah, yeah. 
We do not have to do that anymore. I said it is because of 
NIST.
    The time standard allowed establishment of frequency 
accuracy in the TV system, broadcast system so that they could 
put aside that which ultimately controlled the color. If we had 
not done research at NIST, you know, and people never imagine a 
connection between NIST and color TV----
    Mr. Mollohan. We would still be jumping up and adjusting 
our TV.
    Mr. Ehlers. We would still be jumping up and----
    Mr. Mollohan. That makes it relevant to everybody.
    Mr. Ehlers [continuing]. And adjusting the TV. But that is 
just one minor example, you know. Basic research established 
this great time standard which the world uses, but it has very 
direct applications, particularly, of course, when going into 
space, that they are very dependent on accurate time standards 
too.
    So NIST, I think we get a lot for our money from NIST. And 
I hope you can provide the 907 million that I am recommending. 
I did not pick these numbers out of the sky. I think they are 
reasonable based on the historical funding and I would 
certainly appreciate your support of that.
    NOAA, similarly, five billion. NOAA has peculiar problems 
because they have what in many ways you would regard as a 
normal, not terribly expensive budget, and then they have the 
satellites which cost billions of dollars.
    But these other weather satellites which we depend heavily 
on, but they provide a lot of data about the earth, and just 
the money we save on hurricane preparation as a result of those 
satellites pays for itself. But, yet, it is a big, big chunk on 
their budget and far bigger than anything else. But we have to 
keep those satellites up there. We need a new generation up 
there and they are getting them up there.
    So the budget is sort of lopsided, a lot of it on 
satellites, but you cannot neglect the wet part of it, all the 
fisheries and everything else they do.
    So I have just sort of run through this quickly because I 
know I do not have much time here. But NSF is key for basic 
research, absolutely key. They have been for years. They do a 
fantastic job with the money. They are a model for every other 
nation on this planet. And I do not know of any members of 
Congress who are critical of NSF or the work they do, but also 
NIST and NOAA as well.
    So I would very much appreciate whatever you can do.
    [Written statement by Congressman Vernon J. Ehlers 
follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.018

[GRAPHIC] [TIFF OMITTED] T8765A.019

    Mr. Mollohan. Well, we all recognize your expertise and 
your advocacy for science and science funding. We appreciate 
very much your testimony here today, Vern.
    Mr. Ehlers. Thank you.
    Mr. Mollohan. Thank you.
    Mr. Ehlers. I appreciate it very much. Thank you.
    Mr. Mollohan. Thank you. Thanks for being here again.
    Next the Committee would like to welcome another colleague, 
Congressman Sam Farr from California.
    Sam.
                              ----------                              --
--------

                                           Thursday, April 2, 2009.

            NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION


                                WITNESS

HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Farr. Hope you did not mind me taking off my coat.
    Mr. Mollohan. Welcome.
    Mr. Farr. I am warm in here.
    Mr. Mollohan. It is too warm in here and we have tried to 
make it cooler unsuccessfully. And it is not even that hot a 
hearing.
    Mr. Farr. That speaks a lot for people that control the 
atmosphere budget.
    Mr. Mollohan. Well, so much for your testimony.
    Mr. Farr. Mr. Chairman, thank you very much in allowing us 
to come before your Committee. And I do this annually because I 
am so impressed by the responsibility that your Committee has 
for sort of the map behind you in both land and with the 
responsibilities of State and Commerce.
    And lots of people do not realize that in Commerce is NOAA, 
kind of an awkward organizational chart place to be. And most 
of the Commerce budget, I think a little over half of it goes 
to NOAA.
    I mean, it seems to me that is the area where if America is 
going to be a world leader, we have to have the ability to have 
the world information on the environment. And we kind of break 
it up between the, you know, the air side, the atmosphere, the 
weather issues, which is a very expensive part because you are 
dealing with a lot of satellite technology and costs for that. 
And I know in the President's budget, he has asked for a big 
increase on that.
    But the other side of it is if you understand weather, you 
have got to also understand the oceans because that is where 
weather is born. And so these big storms and things that 
happen, global warming obviously has the--affect the oceans 
which cover 71 percent of the--so I have always come in and you 
have been very good at it. Just to remind people that let us 
not drop the O out of NOAA. I mean, that is the ocean part. And 
in past Administrations, that happened.
    We have a lot to do. I mean, exploration, we know more 
about the planets and the back side of the moon than we know 
about the floor of the ocean. And just recently Google did 
their Google--Tivvy Earl was great telling Google that, look, 
you cannot call it Google.earth because you do not know 
anything about the oceans. So you have got to call it 
Google.dirt.
    And Google came out with their ocean mapping, but because 
we do not know most of the ocean, we do not know about it. So I 
asked them, well, how do you do that. And they said, well, we 
just made it flat. We cannot show you any canyons and mountains 
in most of the ocean.
    So we have a lot of ocean exploration to do because in that 
is where I think a lot of these energy issues of the future are 
going to be of how you use wave motion and tidal motion and 
things like that that are just, you know, constant acts of 
nature like wind and sun, that we have alternative energies to 
pull out of the ocean. But we have got to do it in the right 
place and all of that. We will not know that without doing the 
research.
    We have implemented an incredibly good strategy in fishing 
and it has now got to be funded. And in essence what we are 
trying to do, and we are a long way from it, is get a 
sustainable fishery out there. You know, it is very hard to 
even know what that means because--but if we do not do it, the 
ocean, because we have been dumping everything around the world 
that we do not like, just dump it in the oceans, including our 
country having a history of dumping nuclear waste in the ocean, 
and at the same time, we are feeding a lot of the world.
    And when you get to the fact that a tuna will sell, as 90 
Minutes pointed out, for $250,000 for one fish in the Tokyo 
fish market and the struggling economies of the agrarian 
countries and coastal countries around the world where every 
small fisherman has the dream of catching that, you know, gold 
mine of a catch, and so we are going to have to spend a lot 
more time on essentially trying to educate and understand how 
we kind of farm the ocean constructively as we have done on our 
land. And that is going to take a lot of effort and it is 
absolutely essential because if the ocean dies, we die. Mankind 
cannot survive without the ocean, not just from feeding, but 
just from what the ocean does with carbon and so on.
    So I am here, and I was very pleased. I always listen to 
Dr. Ehlers speak and he is one of the co-signors of the letter 
that we sent to you along with 69 other members from the House 
Oceans Caucus asking for a five--I think we were asking for 
five million or billion, what is it, for the NOAA's--five 
billion for the NOAA budget and then in that, that the oceans 
get treated equally with the atmosphere.
    So I would be glad to answer any questions you might have, 
but I really appreciate it and I think you have got a lot of 
members of this House on both sides of the aisle, some who are 
not even from coastal states, who realize the importance of 
oceans and the health of oceans is important to their 
constituency because so many people could have taken vacation 
on the coast and eat products that come out of the ocean.
    [Written statement by Congressman Sam Farr follows:]

    [GRAPHIC] [TIFF OMITTED] T8765A.020
    
    [GRAPHIC] [TIFF OMITTED] T8765A.021
    
    Mr. Mollohan. Well, thank you for your testimony, Sam.
    Mr. Farr. Thank you.
    Mr. Mollohan. We appreciate it very much and look forward 
to working with you as always.
    Next the Committee would like to welcome Gabrielle Martin. 
Ms. Martin will be testifying on behalf of the National Council 
of EEOC Locals No. 216.
    Welcome to the Committee, Ms. Martin, President Martin.
                              ----------                              --
--------

                                           Thursday, April 2, 2009.

                NATIONAL COUNCIL OF EEOC LOCALS NO. 216


                                WITNESS

GABRIELLE MARTIN, PRESIDENT
    Ms. Martin. Thank you. And thank you for having me, 
Chairman Mollohan, Ranking Member Wolf, other members, Mr. 
Fattah.
    I am the President of the National Council of EEOC Locals 
and we represent the employees that work at the EEOC. This is a 
group of dedicated federal employees who handle employment 
discrimination matters.
    As our economy falters and people struggle for jobs, our 
mission becomes even more important. And you guys live here in 
Washington. I come from the great State of Colorado, but the 
Washington Post has covered our plight, I think, rather 
extensively lately.
    Last year, we had a record high 95,000 plus charges and an 
extremely high backlog of 73 plus thousand charges. Each of 
those backlogged charges represents a person, a person who may 
be in the workplace, continuing to suffer from discrimination, 
and a person who in many ways has to rely on his or her 
colleagues to help establish their case.
    When their cases wait, the employees may suffer additional 
discrimination or retaliation. The witnesses they may need, 
they are chilled because they see that person filed a charge 
and a year later, they are still sitting here under all of 
those pressures.
    So the work that the Commission does is very important and 
it impacts everyone who has a job, wants a job, has a dream for 
their future.
    So we come again asking for additional funding for EEOC. 
Our ask is that we get $378 million which is an increase. This 
Committee last year was gracious enough to grant us an 
additional $15 million. But given our record high backlog, 
something else has to happen.
    We appreciate the money, but as the economy falters, as we 
will be taking on two new laws, we actually started ``The 
Americans With Disabilities Act'' amendments the beginning of 
this year and we will be taking on the GINA, which is ``The 
Genetic Information Nondiscrimination Act,'' so there will be 
additional charges coming in.
    We need at least 500 more employees, so we are asking the 
Subcommittee to raise our ceiling to 3,000. That number 
represents the number of employees EEOC had in about 1994 which 
was the last time we saw this record number of charges. So it 
has been a while. The cases have piled up and it harms the 
working public.
    The EEOC did a survey back in the fall where members of the 
public who use us said they just need more staff. This is not 
just EEOC's employees saying we are overwhelmed, which they are 
and I do not mean to belittle that, but they are also dedicated 
people who serve the public and the public is saying, you know, 
they need more people. I filed my charge ten months ago. I am 
at work. I am being harassed. Can't you do something else for 
us.
    So this convergence of high receipts, taking on new laws, 
low staff, and this record backlog means additional funds will 
be needed.
    What will those funds do? They will help us, one, reduce 
the backlog by hiring additional staff. They will help us 
process those cases more timely so that people who file have a 
sense that EEOC will be there, they will be responsive, and 
they will not be waiting additional time.
    Last summer, EEOC reduced its goal of processing cases 
within six months to saying we are going to only try to process 
48 percent in eight months. To the public that is waiting, that 
is a drastic 60 days. And that money will help us address that.
    There are a couple of other things that EEOC needs and we 
appreciate this Committee and the language which came out of 
the Omnibus bill which said EEOC needs to be reporting back as 
to what they are doing with additional monies. We think the 
priority needs to be hiring and we would ask for continued 
oversight for fiscal year 2010 to make sure that priorities go 
to hiring, raising our budget.
    The EEOC restructured in 2006. They got through part of it. 
They split some states, so you have one state, half the state 
reports to another state because of the way they drew 
jurisdictional line. The other half of the state reports 
somewhere. And to the extent that those were major population 
areas where jobs are concentrated, we think at some point, 
there needs to be oversight in terms of what happens there. Do 
we restore that so that those states are whole and they are not 
reporting in two different jurisdictions?
    And then the other priority for this money in terms of 
hiring is not only investigators, but it is also dealing with 
the agency's ability to get charges in. It currently moved the 
call center in-house because Congress shut down the outside one 
for its failures. They have replicated that failure.
    Last year when we were here, Chairman Mollohan, you talked 
to us about what are these credentialed people, who are they, 
and we said they just hire 60 people and say handle all the 
calls from the country. It is impossible. Those people are 
trying to handle calls. They are trying to handle forms that 
come in on internet as well as e-mail traffic. So you have got 
another group besides investigators who have overwhelming 
caseloads that they cannot get to.
    [Written statement by Gabrielle Martin, National President, 
National Council of EEOC Locals, No. 216 follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.022

[GRAPHIC] [TIFF OMITTED] T8765A.023

[GRAPHIC] [TIFF OMITTED] T8765A.024

[GRAPHIC] [TIFF OMITTED] T8765A.025

[GRAPHIC] [TIFF OMITTED] T8765A.026

    Mr. Mollohan. We will follow-up with you on these issues 
and particularly all of your testimony, but we will follow-up 
on some of these issues. And we very much appreciate your 
testimony here.
    Ms. Martin. Thank you for having me again.
    Mr. Mollohan. Thank you, Madam President.
    Next the Committee would like to welcome Ms. Mary McQueen, 
testifying on behalf of the National Center for State Courts.
    Welcome, Ms. McQueen.
                              ----------                              

                                           Thursday, April 2, 2009.

                    NATIONAL CENTER FOR STATE COURTS


                                WITNESS

MARY McQUEEN, PRESIDENT
    Ms. McQueen. Mr. Chairman, I come before you today to 
request that the House Appropriations Committee fund the threat 
assessment component of ``The Court Security Improvement Act'' 
and also request that we fully fund the State Court System 
grants under the National Instant Criminal Justice Background 
Check System that you heard earlier testified regarding.
    I come representing the Conference of Chief Justices of all 
the Supreme Courts in the state and their Chief Executive 
Officers, the Conference of State Court Administrators, COSCA.
    All of us in the nation's court systems were very gratified 
when Congress approved and the President signed ``The Court 
Security Act of 2007.'' I think all of us will remember that 
year when Federal Judge Lefkow's family was murdered as well as 
the Nichols cases in Atlanta that resulted in judges and court 
staff being killed in the courthouse.
    Over five million people somewhere today will enter a 
courthouse and that is not just judges and court personnel and 
lawyers and public defenders. It is also the public who goes 
there to have their rights enforced, to deal with foreclosure 
issues, family, property, all those types of issues. And we are 
seeing across the country more and more violence against 
courts.
    In Oregon two years ago, there was a disgruntled litigant 
who actually was a federal litigant in a contracts case that 
packed his car full of explosives, drove up to the front of the 
Federal Courthouse, but because federal courts are so 
adequately funded, well, I do not think that they would say 
adequately, but do have a unified security system, there was a 
setback and he could not drive his truck into the courthouse.
    He went around the corner, saw a sign that said courthouse, 
happened to be the local county courthouse, the Superior Court, 
drove his car up the front steps into the foyer, and blew his 
automobile up in the county courthouse.
    There is an integrated justice system in this country. We 
call them federal and state courts, but a judge is a judge and 
a court is a court. And 98 percent of the litigation in this 
country occurs at the State Court level.
    When we came before you to ask for the passage of the 
National Court Security legislation, one of the challenges 
facing state courts was the lack of an integrated way to share 
and to track incident reports.
    It is not as if every state court system has a security 
force similar to the U.S. Marshal Service. In most states, it 
is provided by local law enforcement agency and that could be 
the county Sheriff or it could be the local police department.
    But there is not a unified way of sharing those threat 
assessments to determine whether or not someone that you would 
see in a District Court one day, for instance, in Vancouver, 
Washington, shows up the next day in Portland, Oregon.
    And so by fully funding this Court Security Threat 
Assessment Program, we would be able to identify and have 
already been working with the Chief Justices and the State 
Court Administrators to develop with the Bureau of Justice 
Assistance the minimum reporting requirements for the system. 
So we ask that you consider that.
    Secondly, I would like to just speak very briefly, if I 
could, about the National Instant Criminal Background Checking 
System that you heard about this morning.
    And I served as the Chief Executive Officer for the Supreme 
Court in the State of Washington for 25 years before coming to 
the National Center. And one of the challenges that we continue 
to face and that you continue to hear about background check 
and criminal history reporting is we cannot link arrest to 
dispositions. Courts do not receive arrest information. It is a 
charge. And sometimes every arrest does not result in a charge.
    And so we have to find a way to identify these arrests, 
relate them to the charges because in courts, we do know a 
disposition of every charge. And it is critical that we are 
able to map for each state how that information is identified 
between arrest and charging to get the dispositions.
    Certainly we believe that the state courts play an 
important role because of the disposition information in 
ensuring that the database has reliable information to be able 
to make sure that people that are inappropriate do not receive 
firearms and that includes both the outstanding mental health 
orders as well as the criminal and misdemeanor, domestic 
violence protection orders.
    And so there are two funding sources under the NICS 
improvement grants, one for state systems and one for state 
court systems. And we ask that you would really consider fully 
funding the state court systems grant provisions.
    I guess the way that I would like for you to, if I could 
end my testimony with a visual, is that in the past, courts saw 
cases and so you would have five different cases, but it could 
be one individual. And now we are moving to person databases 
where you can have one person come before the court and the 
court can see that there are a variety of different cases that 
that person is involved in.
    And if you think about an hourglass with sand in the top 
flowing through a very small aperture in the middle and sand in 
the bottom, if we continue to just put money in the top, in law 
enforcement, or in the bottom is in corrections, those cases 
still have to go through that small aperture one at a time 
called state courts.
    So I thank you very much for your time today and would be 
glad to answer any questions.
    [Written statement by Mary McQueen, President, National 
Center for State Courts follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.027

[GRAPHIC] [TIFF OMITTED] T8765A.028

[GRAPHIC] [TIFF OMITTED] T8765A.029

[GRAPHIC] [TIFF OMITTED] T8765A.030

[GRAPHIC] [TIFF OMITTED] T8765A.031

    Mr. Mollohan. Thank you, Ms. McQueen. We appreciate--
President, McQueen, we appreciate your testimony here today and 
look forward to working with you. Thank you.
    Next the Committee would like to welcome Mr. Steve Berg. 
Mr. Berg will testify on behalf of the National Alliance to End 
Homeliness. Did I say that right? Homelessness. Thank you.
    Mr. Berg. Cannot do anything about homeliness. I am sorry.
                              ----------                              

                                           Thursday, April 2, 2009.

                 NATIONAL ALLIANCE TO END HOMELESSNESS


                                WITNESS

STEVE BERG
    Mr. Berg. Good morning, Chairman Mollohan, Ranking Member 
Wolf, Mr. Fattah. Thank you very much for having me here this 
morning.
    I want to talk very briefly about the connection between 
criminal justice and homelessness and how certain key federal 
programs make a big difference there.
    I feel I need to start by saying that people who are 
working on the issue of homelessness around the country over 
the last several years have made some pretty substantial 
progress in actually changing the way we work with that issue. 
We are moving from a system that really is about sort of 
maintaining people in their homelessness and sort of trying to 
manage the problem to one that is really about solving the 
problem of homelessness.
    And I feel compelled to say that because that very much 
builds on work that came out of the Appropriations Committee 
and the HUD Subcommittee during the time, Mr. Mollohan, when 
you were the Ranking Member on that ten and eight years ago.
    We are now facing a situation with the recession where 
rapidly expanding unemployment is threatening to sweep those 
gains away and we are already seeing many communities where the 
number of homeless people is expanding rapidly as joblessness 
expands.
    People working in this field are trying to take the lessons 
that we have learned over the last several years and put those 
to work to try to prevent another sort of run-away homelessness 
situation like we saw in the early 1980s, the last time the 
economy was this bad in terms of unemployment.
    One of the things we feel we have learned over the last 
several years is, as I said, the connection between 
homelessness and the correction system. A very, very particular 
piece of emerging research is about people leaving 
institutional settings, people with difficult backgrounds 
leaving institutional settings, coming into a situation where 
unemployment is very high.
    And many people in that situation, this happened in the 
1980s and we see the beginnings of it happening again, 
basically getting stuck in sort of a dysfunctional relationship 
with both the job market and the housing market. And this is 
very much the case with people leaving prison, leaving juvenile 
justice institutions.
    In general, of course, there is a lot of overlap between 
corrections and homelessness with terrible outcomes for both 
systems.
    But the other thing we have learned is that good reentry 
kinds of programs and good diversion programs can have a very 
positive impact. We know that people who leave prison and go 
directly into homelessness, who do not have a place to live are 
many, many times more likely to commit a new offense, go back 
to prison compared with people who have stable housing when 
they get out.
    And I think some of the programs I am going to talk about 
have started to make a real impact there. I want to focus on 
two sets of programs in particular.
    The first is ``The Second Chance Act'' programs. I think 
everybody is familiar with ``The Second Chance Act.'' It passed 
last year, a remarkable coming together of people from both 
parties, from the whole sort of ideological spectrum, from 
everyone who is involved in the criminal justice system really 
around the idea that reentry, doing something positive about 
reentry is very important. And this statute is what we should 
be doing.
    We are very grateful that the statute passed very late in 
the appropriations process last year and this Subcommittee was 
still able to find some money to do a small appropriation for 
those programs.
    Those grant applications have just been announced by the 
Justice Department. There is a lot of excitement around the 
country, a lot of people calling up, showing very much that 
this is exactly what people need under these circumstances.
    So we are favoring full funding at the appropriated amount 
of 165 million for those programs. I think those can do a lot 
of good.
    The other set of programs that you will see in my written 
testimony is a range of juvenile justice funding lines that we 
know have had the impact of diverting young people whose main 
problems are mental health, substance abuse, diverting them out 
of the criminal justice system and into a system that can help 
deal with those issues before they go down this path of 
homelessness that often turns into long-term homelessness, 
diversion and also reentry from the juvenile justice system.
    We have done a lot of work on young people leaving foster 
care, leaving the state child welfare system and ending up 
homeless. We have not done as much work on the much larger 
group of young people who leave juvenile justice programs. The 
little work we have done has shown really shocking results of 
young people leaving the system, ending up homeless, ending up 
sort of going down a path that keeps them homeless for a long 
time.
    So, again, I would like to thank the members of this 
Subcommittee for their interest in these issues in the past and 
urge good funding for these programs this year.
    [Written Statement by Steven Berg, Vice President of 
Programs and Policy, National Alliance to End Homelessness 
follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.032

[GRAPHIC] [TIFF OMITTED] T8765A.033

[GRAPHIC] [TIFF OMITTED] T8765A.034

[GRAPHIC] [TIFF OMITTED] T8765A.035

[GRAPHIC] [TIFF OMITTED] T8765A.036

    Mr. Mollohan. Well, thank you. And thank you for your good 
work on this issue for a long period of time. We look forward 
to working with you, Mr. Berg.
    Mr. Berg. Thank you.
    Mr. Mollohan. Thank you. And next the Committee, we would 
like to welcome Corryne Deliberto, testifying on behalf of 
World Vision.
    Did I pronounce that correctly or close?
    Ms. Deliberto. You did, you did.
    Mr. Mollohan. Oh, thank you. Welcome.
    Ms. Deliberto. People usually don't get it on the first 
try, so I appreciate it.
    Mr. Mollohan. Thank you. Welcome.
                              ----------                              

                                           Thursday, April 2, 2009.

                              WORLD VISION


                                WITNESS

CORRYNE DELIBERTO, DOMESTIC POLICY ADVISOR, ADVOCACY AND GOVERNMENT 
    RELATIONS, WORLD VISION
    Ms. Deliberto. Good morning, Chairman Mollohan, Ranking 
Member Wolf, and Representative Fattah.
    Thank you for the opportunity to testify this morning 
before the subcommittee regarding fiscal year 2010 
appropriations.
    As you said my name is Corryne Deliberto and I am World 
Vision's domestic policy advisor, and I will be speaking to you 
today regarding juvenile justice and youth violation prevention 
programs.
    World Vision is a Christian humanitarian organization 
working in nearly 100 countries. In the United States we work 
in 11 major urban and rural areas, including the First District 
of West Virginia and the Tenth District of Virginia, and we 
serve over 600,000 children and youth nationwide.
    We provide support through education and youth development 
efforts through which we work to improve academic achievement, 
building positive life skills, and creating opportunities for 
high risk youth.
    As practitioners in the field of youth development we know 
that supporting vulnerable youth with violence and delinquency 
prevention programs helps to steer them away from a life of 
crime and empowers them to make productive choices.
    I am here today to urge you to help us continue to serve 
young people effectively by increasing fiscal year 2010 federal 
funding in four critical programs.
    First we would like to see funding for the Juvenile Justice 
and Delinquency Prevention Act Title 2 State Formula Grants 
Program, restored to its fiscal year '02 level of $89 million.
    Second we would like to see funding for the Juvenile 
Justice and Delinquency and Prevention Act Title 5 Incentive 
Grants for local delinquency prevention restored to its fiscal 
year '02 level of $95 million.
    Third we would like to see funding for the Juvenile 
Accounts Ability Block Grant restored to its fiscal year '02 
level of $250 million.
    And lastly we would like to see continuance of funding for 
the Juvenile Mentoring Program at $80 million.
    As you all are aware, each of these programs is designed to 
reduce the risk of delinquency and enhance prevention efforts 
for youth at risk of entering the juvenile justice system. And 
despite the importance of these programs, they have suffered 
drastic cuts since fiscal year 2002.
    Restoring these funding opportunities to their fiscal year 
'02 levels will enable states and youth development 
organizations like World Vision to increase their impact, serve 
more young people, and build stronger communities.
    World Vision knows that a focus on prevention works. We see 
evidence every day of young people's profound potential and 
willingness to make good choices once given the opportunity.
    So to illustrate this I would like to briefly highlight 
three of our education youth development efforts that are 
changing lives.
    First, with Representative Wolf's support, World Vision was 
able to launch the Community Mobilization Initiative in 
Northern Virginia.
    This project is designed to provide alternatives to draw 
high risk youth away from gang involvement, violence, and 
criminal activity. And our team there works to engage high risk 
youth and violence prevention activities and reduce the risk 
factors that fuel gang membership as well.
    To date, the Community Mobilization Initiative has reached 
over 11,500 young people and their families through mentoring, 
family based activities, and recreational opportunities as 
well.
    Secondly, I wanted to highlight another program that with 
the support of you, Chairman Mollohan, our team in the 
Appalachian region in West Virginia is preparing to launch the 
World Vision Career Builders Program, which will work to 
prevent youth delinquency by building the employment skills of 
young people through technology training.
    And lastly, I just wanted to highlight our youth 
empowerment project, which is a youth leadership and civic 
engagement program, that seeks to strengthen the voice of young 
people in public policy reform. It provides high school age 
youth from World Vision program sites around the country with 
20 weeks of training to study the needs and assets of their 
community and develop policy recommendations that reflect their 
vision for change.
    Participants then present their recommendations and 
findings each summer to their members of Congress at a youth 
summit that we hold here in Washington, D.C.
    So over 200 youth have participated in the program and have 
continued local advocacy efforts in their own communities 
afterwards.
    This year we will welcome a new cohort of 115 young 
participates in D.C. from 12 different areas of the country, 
including both of your districts.
    So through programs like these, World Vision has seen the 
incredible impact of investing in our youth by providing 
opportunities and alternatives to violence.
    So we thank you for consideration of World Vision's request 
today, and we are very grateful for your leadership and support 
of our work.
    Thank you. I am happy to answer any questions.
    [Written statement by Corryne Deliberto, Domestic Policy 
Advisor, Advocacy & Government Relations, World Vision 
follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.037

[GRAPHIC] [TIFF OMITTED] T8765A.038

[GRAPHIC] [TIFF OMITTED] T8765A.039

[GRAPHIC] [TIFF OMITTED] T8765A.040

    Mr. Mollohan. Thank you, Ms. Deliberto.
    Ms. Deliberto. Thank you.
    Mr. Mollohan. We appreciate you and your good work.
    Next the Committee would like to welcome Mr. David Mandel. 
Mr. Mandel is here to testify on behalf of the Ohel Children's 
Home and Family Services.
    Welcome, Mr. Mandel.
                              ----------                              

                                           Thursday, April 2, 2009.

                OHEL CHILDREN'S HOME AND FAMILY SERVICES


                                WITNESS

DAVID MANDEL, CHIEF EXECUTIVE OFFICER, OHEL CHILDREN'S HOME AND FAMILY 
    SERVICES
    Mr. Mandel. Thank you very much. Good morning, Mr. 
Chairman.
    Mr. Mollohan. Good morning.
    Mr. Mandel. Members of the Committee, thank you very much 
for the opportunity.
    I am David Mandel. I am very proud to be the chief 
executive officer of Ohel Children's Home and Family Services, 
an organization that provides services in New York, New Jersey, 
and South Florida.
    Ohel is the Hebrew word for tent, after the patriarch 
Abraham whose tent was open on four sides welcoming all 
individuals.
    Our work with youth is in the area of juvenile delinquency, 
drugs, alcohol, gambling, crime, victims of sexual abuse, child 
molesters, internet predators, domestic violence, and suicide 
risk behaviors.
    Our work focuses on prevention and response. We do many 
community forums, provide short-term crisis intervention, as 
well as long-term treatment; housing, counseling services.
    Ohel is very fortunate to be the recipient of Commerce 
Justice, and Science funding, and we thank you for that.
    Congresswoman Carolyn McCarthy, Congressman Anthony Weiner, 
many other individuals are very supportive of the services.
    Ohel's school based services is an anchor of our work. We 
do a lot of work with fifth grade students through high school 
students speaking about risk behavior. We talk to kids, teacher 
training, many parent training. We are a resource to 
principals. We provide a very strong program of mentoring 
youth.
    Our staff are available to visit homes. Many individuals, 
many parents are not able to connect with their children, and 
so are able to visit a home, meet with the child, meet with 
their parents up to seven visits in the home. It is a very 
important unusual service that we are able to provide going 
into people's homes.
    By illustration, a principal may call us. He may have a 
problem with one of the kids that has already gone through all 
of the efforts with the school social worker, with the guidance 
counselor, and they are not sure what to do with the child, and 
he very much wants to keep the child in the school, not to 
expel them, not to send them along on the path that the 
principal feels will be a problem for him.
    We will work together to develop a contract with the child 
with the family so that the child is obligated to receive 
counseling services, to attend counseling services, often for 
the family, and that contract will stipulate that that is the 
way a child can attend and continue in school.
    It is similar to, but very, very different than in the 
adult system that is called probation, where you are obligated 
to maintain a certain level of involvement. And for a child, 
thankfully he doesn't have to go into that round. Mentoring and 
counseling keeps him in the school.
    But we don't only think about children who present 
problems, we also think about healthy, smart individuals who 
are doing very well.
    Some time ago I spoke to a group of high school seniors in 
Maryland at the invitation of the superintendent, and following 
a very lively discussion with high school seniors, many of whom 
who are going the following year to ivy league universities, I 
asked them as you are leaving your home, as you are leaving the 
community, as you are leaving an area that you are very 
familiar with and you are going to an ivy league, which many 
people would love to be able to do, what are you afraid of? It 
is a question that stopped them for a moment. And I was 
surprised at the answer. I was surprised because of the work 
that we do with such a broad spectrum of children, adolescents, 
young people. Their answer was, we are afraid of drugs that we 
will be introduced to in colleges and ivy league schools. We 
are familiar with drugs, but we are afraid of more new 
information that we will find.
    Mark is a young man who came to Ohel when he was about 12 
years old. Broken family, did not have any connections, did not 
have any relationships. When you walked into Mark's room it was 
hard to find him because he was always laying under all of his 
possessions, and you literally had to pick away at a couple of 
items in order to find Mark. And the next five or six or seven 
years were very difficult. Very difficult to connect with him. 
Did not want to participate in anything. Did not want to go to 
any school. And today we are very, very proud to say--you often 
don't hear the end of the story, you only hear of problems--we 
are very proud to say that Mark graduated, he graduated 
college. I have a beautiful picture of him in my office with 
him. He graduated in finance, and he is absolutely dead set on 
getting a job in finance, and he is just a wonderful, wonderful 
young man to be able to speak to today. And five and six years 
ago you would not think that Mark would be able to accomplish 
this type. And that is the effort and the support of the 
funding that is provided to us.
    Bridges and tunnels create jobs and transport people from 
one location to another. Mentoring and protecting youth also 
create jobs and transport youth from one difficult place in 
life to another place in life. Both are important to the fabric 
and well being of our communities.
    Thank you very much for the opportunity.
    [Written statement by David Mandel, Chief Executive 
Officer, Ohel Children's Home and Family Services follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.041

[GRAPHIC] [TIFF OMITTED] T8765A.042

[GRAPHIC] [TIFF OMITTED] T8765A.043

[GRAPHIC] [TIFF OMITTED] T8765A.044

[GRAPHIC] [TIFF OMITTED] T8765A.045

    Mr. Mollohan. Thank you, Mr. Mandel, for your testimony 
here today and your good work, obviously.
    Next the committee would like to welcome Mr. Gerald P. 
Lynch. Mr. Lynch will testify on behalf of the Regional 
Information sharing systems, RISS. Welcome, Mr. Lynch.
                              ----------                              

                                           Thursday, April 2, 2009.

              REGIONAL INFORMATION SHARING SYSTEMS (RISS)


                                WITNESS

GERALD P. LYNCH, CHIEF EXECUTIVE OFFICER, REGIONAL INFORMATION SHARING 
    SYSTEMS (RISS)
    Mr. Lynch. Good morning. Chairman Mollohan, Ranking Member 
Wolf, Congressman Fattah. I sincerely appreciate the 
opportunity to appear before you today to discuss the Regional 
Information Sharing Systems program know as RISS.
    RISS is a national program that consists of six regional 
intelligence centers that support and serve unique needs of 
their individual regions. We are working together on a national 
scope. They also work to bring the national scope into the 
regional picture.
    Through the support provided by RISS, law enforcement and 
public safety agencies have increased their successes 
expedientially. In many cases these agencies would not be able 
to maximize their efforts without support services that were 
offered by the RISS program. It is because of these resources 
and trust relationships that RISS is a program prized and 
valued by its members and users.
    Through those successes, as well as the remaining needs 
throughout the criminal justice community, RISS has experienced 
increased demand for services. Because of this, RISS 
respectfully requests that Congress appropriate 55 million for 
RISS for fiscal year 2010.
    RISS links thousands of criminal justice agencies through 
secure communications and provides information sharing 
resources and investigative support to combat multi-
jurisdictional crime while promoting officer safety.
    RISS operates in all 50 states, the District of Columbia, 
U.S. territories, Australia, Canada, and England. Currently 
RISS serves more than 8,200 criminal justice agencies from all 
levels of government. More than 90,000 offices directly access 
RISS services.
    Funding is requested to continue current services and to 
further deploy the RISS safe program, develop enhanced gang 
related programs, additional fusion centers to work with them 
to make sure that fusion centers share information and connect 
all of the dots, assist in implementing the national strategy 
from information sharing, expand the pawnshop database, 
increase trusted prudential partners, connect additional 
systems, expand and upgrade hardware and software, and upgrade 
the RISSNET disaster recovery site.
    RISS is federally funded but locally managed by its member 
agencies. RISS operates under the BJA funding and 
administrative guidelines in 28 CFR 23.
    RISS has also adopted a privacy policy and we encourage all 
of our members to adopt their own also and protect the rights 
of the citizens of this country.
    By connecting information sharing systems to the existing 
RISSNET infrastructure rather than funding the build out of new 
stand alone systems, hundreds of millions of dollars can be 
saved, and millions of data records can you easily and quickly 
accessed by users. Almost 100 agency systems are connected or 
pending connection to the RISSNET system. Including 32 HIDAS, 
40 state agency systems, and 27 federal and other systems, such 
as ATF, FBI's Leo online, the FBI National Gang Intelligence 
Center in Virginia, the DEA's National Virtual Pointer Index 
System, and Nlets, among many others.
    One of RISS's newest programs, RISS Safe, is an officer 
safety deconfliction system that stores and maintains planned 
law enforcement activities with the goal of identifying and 
alerting affected law enforcement agencies of potential 
conflicts, and also avoiding blue on blue tragedies.
    RISS is more than just a system, however. It has the full 
compliment of investigative services. These services, coupled 
with the power of RISSNET, set RISS apart from other 
information sharing programs.
    These services include, analytical support, loan of 
specialized investigative equipment, confidential funds, 
training, and publications, investigative support, and field 
services.
    In fiscal year 2008 RISS delivered more than 27,000 
analytical products, trained more than 63,000 criminal justice 
professionals, and conducted over 29,000 on-site visits.
    Number of agency investigations utilizing the RISS services 
resulted in more than 5,000 arrests and 59 million in seizures.
    Without continued funding for RISS, law enforcement and the 
public safety efforts will be severely hampered, and especially 
in this time of economic downturn.
    In this time of economic crisis utilizing RISS as a 
catalyst for stretching local and state dollars is an effective 
method for ensuring continued support for our officers in the 
street.
    Therefore, I thank you for allowing me to testify here 
today, and I open the floor for any questions. If not, I 
appreciate the continued support that this Committee has given 
to us over the years.
    [Written testimony by Gerard P. Lynch, Chief Executive 
Officer of the Regional Information Sharing Systems (RISS) 
Programs follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.046

[GRAPHIC] [TIFF OMITTED] T8765A.047

[GRAPHIC] [TIFF OMITTED] T8765A.048

[GRAPHIC] [TIFF OMITTED] T8765A.049

[GRAPHIC] [TIFF OMITTED] T8765A.050

    Mr. Mollohan. Thank you, Mr. Lynch, we appreciate your 
testimony here today, and look forward to working with you.
    Mr. Lynch. Thank you.
    Mr. Mollohan. Next the Committee would like to welcome Mr. 
Jim Dedes. What is it?
    Mr. Dedes. Dedes.
    Mr. Mollohan. Dedes.
    Mr. Dedes. Yes.
    Mr. Mollohan. Mr. Dedes, welcome.
    Mr. Dedes will testify on behalf of the Fairfax County 
Virginia Juvenile and Domestic Relations District Court.
    Mr. Dedes, welcome.
                              ----------                              

                                           Thursday, April 2, 2009.

  FAIRFAX COUNTY (VA), JUVENILE AND DOMESTIC RELATIONS DISTRICT COURT


                                WITNESS

JIM DEDES, DIRECTOR, FAIRFAX COUNTY JUVENILE AND DOMESTIC RELATIONS 
    DISTRICT COURT SERVICES UNIT
    Mr. Dedes. Thank you, Chairman Mollohan, Ranking Member 
Wolf, and Congressman Fattah.
    As the director of the Juvenile and Domestic Relations 
District Court, Court Service Unit, I am really here today to 
support increased funding for the Juvenile Justice and 
Delinquency Prevention Act, including the accountability funds 
for Block Grant and the Delinquency Prevention Programs. 
Overall federal appropriations for juvenile justice programs 
have decreased almost 60 percent since 2002.
    What I would like to do is tell you a little bit about how 
we in the localities have used these funds.
    Fairfax County is an ethnically diverse suburban 
jurisdiction with a population of over 1 million people. My 
probation department provides tradition juvenile probation and 
parole services to youth who have committed criminal acts and 
status offenses, which are truancies and runaways. We provide a 
24/7 in-take operation. We screen all juvenile complaints filed 
by the police and the public before they come to the court's 
attention.
    Unique to us we also operate 121 bed detention facility, 
two group homes, a shelter care home, and what we call a 
supervised release program.
    We also provide adult in-take services involving custody, 
visitation, non-support issues. We deal with adult supervision 
on adults convicted of basically domestic violence offenses, 
and all criminal acts against juveniles.
    We are a locally operated jurisdiction, and we are the only 
one of three in Virginia. The rest are state operations.
    Since 1974 the Office of Juvenile Justice Delinquency 
Prevention has played a critical role in organizing and 
disseminating the results of years of research in effective 
prevention intervention programs. However, the reduction of 
OJJDP's funding, dating back to 2002, which originally was $547 
million is now $362 million. OJJDP has been a critical ally to 
the localities in the states addressing delinquency prevention 
and administration of juvenile justice.
    What do we do in our court service unit and how we've used 
these funds?
    Right now we are facing a $650 million deficit in our 
jurisdiction, which is quit critical, and we are trying to 
maintain our juvenile justice programs.
    And the juvenile justice programs that we have tapped into 
through federal funding have been seed money for us to go to 
our locality once we've produced the evidence base that these 
actually work.
    Back in 1993 we started with a disproportionate minority 
confinement study, which was our beginning of how we look at 
our youth and what we do with our youth. Out of that we realize 
we are very disproportionate in how we handle our children.
    We ended up developing a program to release our children 
from our juvenile detention center early. That was called the 
Detention Release and Services Program, another program funded 
by OJJDP. We did pick up that program. The county saw the 
wisdom and the decision to provide services and release these 
children, and that program cost us $62 a day to operate, versus 
$239 to incarcerate a youth.
    We also tapped into a young offender program from OJJDP 
funds. That is to work with kids under 14 years of age who are 
incarcerated in our juvenile detention center and provide 
treatment services to have these kids released early and dealt 
with in the community.
    We also developed a Juvenile Sex Offender Enhanced 
Treatment Program, and that also came from federal funds. So 
that allowed us to keep our kids in the community and allowed 
to address our kids coming out of state facilities and 
correctional facilities.
    The cost of this program was--we currently have picked it 
up at $125,000 a year to provide treatment services. The cost 
of placing a juvenile sex offender, even though I put in my 
written testimony is $100,000 per year in a residential 
treatment center, is actually about $150,000 a year to put a 
child. And these kids do get released in the community, they 
all come back, so we need to provide these services. And we 
tapped into OJJDP funding for this.
    We also developed a program called the Maximum Attendance 
Program. That was to deal with our truant children. And that 
worked effectively, even though we did eventually train our 
staff and we took the positions and we deployed them, but we 
trained staff on how to address CHINS offenders.
    We also are currently involved in an evening reporting 
center. It is a program that really deals with us addressing 
how we violate probation, and instead of using incarceration, 
have kids report to a day reporting center and an evening 
reporting center for us, and as also one of our measures to 
decrease disproportion minority confinement.
    We are in the third year funding of this program, and it is 
costing us again for about ten kids we are dealing with about 
$50 a day to address ten kids versus again, the $239 a day, 
where my probation officers would violate probation and 
incarcerate them.
    We have also taken advantage of JABG fundings to deal with 
our more serious offenders, our Intensive Supervision Program, 
which really deals with our serious offenders dealing with--
ranging from murder, robbery, and rape of kids that are 
maintained in the juvenile justice system, and we provide 24/7 
supervision of those kids. Actually they are so serious we have 
actually armed our probation officers.
    We also participate in a Northern Virginia gang task force. 
Sorry Mr. Wolf left on that one, because he has been critical 
in supporting that, and that is a regional program, but we have 
developed a multitude of programs from suppression to 
prevention intervention.
    Mr. Mollohan. Mr. Dedes, we----
    Mr. Dedes. I want to close real quick and just tell you, my 
bottom line is, we really want this Committee to support 
continuation of the funding back to the 2002 level to $546.9 
million.
    [Written statement by James S. Dedes, Director, Fairfax 
County Juvenile and Domestic Relations District Court Services 
Unit follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.051

[GRAPHIC] [TIFF OMITTED] T8765A.052

[GRAPHIC] [TIFF OMITTED] T8765A.053

[GRAPHIC] [TIFF OMITTED] T8765A.054

    Mr. Mollohan. Okay. Thank you, Mr. Dedes very much for your 
appearance here today. We appreciate your testimony, and look 
forward to working with you.
    Next the Committee would like to welcome Mr. Aaron Houston 
who will testify on behalf of the Marijuana Policy Project.
                              ----------                              --
--------

                                           Thursday, April 2, 2009.

                        MARIJUANA POLICY PROJECT


                                WITNESS

AARON HOUSTON, DIRECTOR OF GOVERNMENT RELATIONS, MARIJUANA POLICY 
    PROJECT
    Mr. Houston. Chairman Mollohan, I'm Aaron Houston, Director 
of Government Relations for the Marijuana Policy Project, the 
largest marijuana law reform organization in the United States.
    I am here today to urge the Subcommittee to consider 
possible report language related to the use of drug enforcement 
administration funding for the fiscal year '10 bill in three 
areas I will outline today.
    First, since the passage of California's medical marijuana 
law in November 1996, federal agents have raided more than 200 
medical marijuana locations. And as you may have heard, 
Attorney General Eric Holder, recently indicated that the 
Department of Justice has altered its policy related to raiding 
medical marijuana clinics saying, `` The policy is to go after 
those who violate both federal and state law.''
    While MPP was pleased with the Attorney General's 
pronouncements on this topic, more clarity is needed. Indeed 
merely one week after the Attorney General's most recent 
pronouncement on this topic, the DEA conducted a raid on a 
medical marijuana clinic in San Francisco, that was actually 
licensed by the municipal government there.
    MPP believes that the most recent raid on March 25 not only 
highlights the urgent need for a clearly articulated policy 
surrounding a violation of state law, but also raises the need 
for stricter guidelines related to DOJ efforts to ascertain 
what constitutes a violation of state law, particularly by 
working with state regulators and law enforcement personnel.
    For example, in cases where an entity of the DEA wishes to 
target has been duly licensed by a state or municipal 
government, MPP believes there should be a presumption of 
compliance, and any suspected violations of state law should be 
reported to the state or local law enforcement personnel and 
state or municipal regulators who would then presumably use the 
information received from DEA to either revoke or suspend a 
state issued license or pursue state criminal changes against 
the entities suspected of a violation.
    In cases where state or municipal licensing is not 
available or possible in areas of California, for example, 
where that is still evolving, the DEA should still defer 
responsibility for enforcing state law to state or local law 
enforcement authorities, except in egregious cases.
    In other words, whether or not a license has been issued to 
a medical marijuana selling or growing operation, the DEA 
should not conduct any raids, unless and until it receives 
confirmation from the local or state law enforcement or 
regulatory authorities that state law that has been violated. 
And we respectfully ask the subcommittee to include report 
language to this effect urging the DOJ to abide by this policy.
    Additionally, starting in July of 2007 the DEA began 
issuing letters of notice to landlords leasing space or real 
property to those involved in activities legal under California 
state medical marijuana law, threatening the landlords with 
forfeiture of property and possible criminal prosecution. 
Property owners receiving these threats from DEA merely lease 
space to the medical marijuana collectives and clinics and have 
committed no state level criminal offense in doing so. These 
threats against landlords have fueled speculation that the 
DEA's threats are largely ideological rather than a legitimate 
law enforcement activity with limited resources.
    We ask the Subcommittee to include report language urging 
the administration to immediately halt the issuance of these 
letters and any subsequent action taken to seize the assets of 
the individuals in question.
    Finally, the lack of FDA approval of marijuana as a 
prescription medicine is largely due to the systematic 
hindrance of scientific research by governmental agencies over 
the last several decades.
    The federal government, through NIDA, actually maintains a 
monopoly on the supply of marijuana for research. It is the 
only drug in the pharmacopeia for which that is true.
    In order to facilitate FDA approved studies of marijuana, 
MPP asks the Subcommittee to include report language urging the 
DOJ leadership to direct the DEA administrator to accept DEA 
Administrative Law Judge, Mary Ellen Bittner's recommendation 
to grant an application at the University of Massachusetts 
Amherst to be registered as a bulk manufacturer of marijuana 
and to halt unreasonable delays that have plagued medical 
marijuana research for decades.
    As I stated earlier, DOJ resources could be better spent on 
more serious challenges than misguided raids on medical 
marijuana clinics.
    The most recent estimates indicate that Mexican drug 
cartels are now operating in some form in 230 American cities.
    Moreover, recent testimony before another subcommittee of 
the House Appropriations Committee indicates that federal law 
enforcement authorities are so overwhelmed in one sector of the 
border--as most of you know the Mexico-U.S. border--that 
persons caught crossing the border with up to 500 pounds of 
marijuana in one sector are unlikely to face prosecution.
    Chairman Mollohan, Congressman Fattah, on behalf of medical 
marijuana patients, their care givers, and their family 
members, I urge you to seek greater clarity on these policies 
so that people who are simply following their doctor's orders 
and abiding by state law can sleep better at night knowing the 
government is using scarce resources to protect them and not 
target them. I would be happy to take any questions you may 
have.
    [Written statement by Aaron Houston, Director of Government 
Relations, Marijuana Policy Project follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.055

[GRAPHIC] [TIFF OMITTED] T8765A.056

[GRAPHIC] [TIFF OMITTED] T8765A.057

[GRAPHIC] [TIFF OMITTED] T8765A.058

    Mr. Mollohan. Thank you very much, Mr. Houston for your 
testimony here today.
    Mr. Houston. Thank you.
    Mr. Mollohan. We appreciate it.
    Next the Committee would like to welcome Ms. Mishaela 
Duran. Is that?
    Ms. Duran. Yes, that is correct.
    Mr. Mollohan. Mishaela Duran. Ms. Duran will be testifying 
on behalf of the National Parent Teacher Association. Welcome 
to the Committee, Ms. Duran.
                              ----------                              

                                           Thursday, April 2, 2009.

                  NATIONAL PARENT TEACHER ASSOCIATION


                                WITNESS

MISHAELA DURAN, M.ED., DIRECTOR OF GOVERNMENT AFFAIRS, NATIONAL PARENT 
    TEACHER ASSOCIATION (PTA)
    Ms. Duran. Thank you. Good morning Chairman Mollohan and 
Representative Fattah.
    My name is Mishaela Duran, and I am the Director of 
Government Affairs at the National Parent Teacher Association.
    On behalf of PTAs five million members, I welcome the 
opportunity to appear before you to discuss the fiscal 2010 
appropriations for federal juvenile justice programs.
    PTA urges the Subcommittee to consider the following 
recommendations to improve programs administered by the Office 
of Juvenile Justice and Delinquency Prevention within the 
Department of Justice.
    First, restore the Title 5 Incentive Grants for local 
delinquency prevention to its fiscal year '02 level of $95 
million with few or no earmarks for fiscal year 2010.
    Second, restore funding for the Title 2 State Formula 
Grants to the fiscal year '02 level of $89 million.
    Finally, fund the Juvenile Accountability Block Grant at 
the fiscal year '02 level of $250 million.
    I have worked in the juvenile justice system for over a 
decade, including as a teacher, caseworker, and involved in 
implementing a major reform plan drawn from national best 
practices for the District of Columbia. In each of these roles 
I witnessed firsthand how federal juvenile justice funds can 
support programs that meet the immediate needs of youth and 
families in crisis.
    PTA advocates for youth who engage in non-criminal behavior 
such as truancy, so called status offenders. Critical programs 
funded by Title 5 divert such children from entering the 
juvenile justice system and support programs that produce 
positive outcomes for families, while at the same time 
protecting public safety.
    Between 1985 and 2004 there was a 69 percent increase in 
truancy court cases. Research demonstrates that locking up 
youth for non-criminal acts, such as skipping school, greatly 
increases their risk of future delinquency, victimization, 
abuse, and even suicide.
    Youth are often warehoused in overcrowded, understaffed 
facilities that breed violence and neglect. This is not an 
appropriate option for any youth, but especially for youth who 
have not committed a crime.
    In addition, secure detention is extremely costly. 
According to the National Juvenile Detention Association 
operating a single detention bed costs the public approximately 
$1.5 million over the span of 20 years. With 591 juvenile 
detention facilities located across the country, the cost to 
the public is staggering.
    Community-based interventions funded by Title 5 have proven 
to be more cost effective for youth with status offenses. A 
Florida tax watch study indicates that preventing 10 percent of 
youth from entering the system through community-based 
alternatives like the evening reporting center that you heard 
about in Fairfax County, would yield over $10 million of cost 
savings.
    In my written testimony I included a number of best 
practices across the country. I would like to highlight one 
such best practice in Wood County school district in West 
Virginia.
    The Truancy Diversion and Social Work Program, TDSW, 
delivered by the Children's Home Society of West Virginia in 
Parkersburg places a social worker into a school to assist 
families with truancy problems. Originally funded by federal 
juvenile justice funds, the program has been scaled back due to 
a lack of resources. Even so, it continues to prove effective. 
Ninety-eight percent of the students increased or maintained 
their daily attendance, and 96 percent increased or maintained 
their GPA.
    Title 2 provides essential support for public juvenile 
justice agencies to meet vital protection requirements required 
by federal statute, such as keeping youth who are truant out of 
the correction system.
    The Juvenile Accountability Block Grant, or JABG, supports 
many family focused evidence based programs such as functional 
family therapy, multi-systemic therapy, and multi-dimensional 
treatment foster care; all recognized as model programs by DOJ 
and HHS.
    Mr. Chairman and members of the Subcommittee, the PTA is 
deeply grateful for your leadership and support on safeguarding 
federal delinquency prevention programs. I look forward to 
answering any questions that you might have.
    [Written statement by Mishaela J. Duran, M.Ed., Director of 
Government Affairs, National Parent Teachers Association (PTA) 
follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.059

[GRAPHIC] [TIFF OMITTED] T8765A.060

[GRAPHIC] [TIFF OMITTED] T8765A.061

[GRAPHIC] [TIFF OMITTED] T8765A.062

[GRAPHIC] [TIFF OMITTED] T8765A.063

    Mr. Mollohan. Thank you, Ms. Duran. Appreciate your summary 
of your testimony, and we look forward to working with you.
    Ms. Duran. Thank you.
    Mr. Mollohan. Thank you for appearing here today.
    Next the Committee would like to welcome to the hearing Mr. 
Billy Frank, Jr.
    Chairman Frank will testify on behalf of the Northwest 
Indian Fisheries Commission.
    Chairman Frank, welcome. It is good to see you here this 
year.
                              ----------                              

                                           Thursday, April 2, 2009.

                 NORTHWEST INDIAN FISHERIES COMMISSION


                                WITNESS

BILLY FRANK, JR., CHAIRMAN, THE NORTHWEST INDIAN FISHERIES COMMISSION
    Mr. Frank. Thank you, Mr. Chairman and the Committee and 
Mr. Wolf and Mr. Fattah. I just want to say that how important 
this Committee is.
    I am Billy Frank, Chairman of Northwest Indian Fish 
Commission, I have been chairman for going on 30 years now, and 
we are fish managers in the northwest.
    Mr. Mollohan. They know a good leader when they see one, 
don't they?
    Mr. Frank. Yeah. And I represent the treaty tribes in the 
northwest, 20 treaty tribes along the Pacific coast in the 
State of Washington. And we depend upon this commerce to fund 
our projects out there in the northwest.
    We have not seen the President's fiscal year '10 budget 
yet, so our requests are based on what we anticipate it to 
contain.
    We are seeking funding to address several fisheries 
management initiatives that are critically important to the 
northwest tribes. These fishery resources that are protected by 
treaties with the United States are the basis of your culture 
and economics and our very existence as tribes.
    These fisheries are in trouble as continued population 
growth and the habitat destruction that companies this growth 
are making it increasingly important that recovery efforts are 
adequately funded.
    We request that the Pacific Coastal Salmon Recovery Fund be 
funded at the fiscal year 2002 level at $110 million, with $14 
million allocated for the 20 affected treaty tribes in western 
Washington and Northwest Indian Fish Commission.
    I want to say that you added $80 million to that in 2009, 
so that is great. This fund is----
    Mr. Mollohan. We are listening to you.
    Mr. Frank. Pardon?
    Mr. Mollohan. We are listening to you.
    Mr. Frank. Yeah. It is. I am here every year and I will be 
here next year again.
    Mr. Mollohan. I hope.
    Mr. Frank. This fund is critically important to the states 
and tribes to allow them to pursue the recovery of the Pacific 
salmon throughout the northwest and Alaska by financially 
supporting and leveraging local and regional efforts.
    Since its inception in fiscal year 2000, the Pacific 
Coastal Salmon Recovery Fund has made a significant 
contribution to salmon recovery to address the federal 
responsibility under the Endangered Species Act to recover 
listed species under the treaties with tribes to recover stocks 
that are critically important to meeting the tribes treaty 
reserve fishing rights.
    We have developed water shed based recovery plans in 
collaboration with local communities that have been adapted by 
NOAA under the Endangered Species Act, and these funds are now 
needed for implementation of these plans.
    These funds have been and will continue to be used by the 
tribes for a variety of fish habitat improvement projects, 
including the removal of fish passage barriers and an opening 
of stream access and restoration and protection of stream and 
the estuary habitats.
    We are requesting funding to implement the Ocean Ecosystem 
Initiative in partnership with the State of Washington and 
NOAA. This initiative has two elements.
    First, we are seeking $1.1 million through NOAA's National 
Ocean Service to support the participation by the tribes in the 
state in the recently formed inner governmental policy council, 
which is intended to strengthen management partnership with the 
Olympic National Marine Sanctuary, though this partnership's 
participates hope to maximize resource protection and 
management while respecting existing jurisdictional authority.
    Second, we are seeking $2.7 million that would be used by 
the tribal state and NOAA partnership to begin multi-year 
program to assess rockfish population and to map sea floor 
habitat of the northern Washington coast. This information is 
critical first steps towards the development of an ecosystem 
base management.
    Last year I told the Committee that we had the dead zone 
along the Pacific coast from Florence, Oregon to Kalaoch Beach 
in the State of Washington, and that has been happening for 
five years, and hopefully it don't happen this year. And I hear 
a lot of good things happening as far as the weather and so on.
    We also support the request that the U.S. Pacific salmon 
commission for the $67 million needed for the implementation of 
the 2008 Pacific Salmon Treaty Canuck Annex to the treaty. You 
will hear more about this later as Jeff Koenings from the State 
of Washington, our commissioner, will report.
    We also want to extend our support for the request being 
made by Henry Cagey, the Chairman of the Lummi Tribe at the 
hearing for their funding request on economic fisheries 
disaster relief. One of our largest fishery tribes in the 
northwest. Also the Puyallup Tribe that just testified, and we 
support our court testimony by Judge Coochise.
    And so thank you very much for hearing me. And thank you 
for allowing us to come.
    And last year I stood out there four hours in that hallway. 
This year it is nice and orderly. We sit down. Thank you.
    [Written statement by Billy Frank Jr., Chairman, the 
Northwest Indian Fisheries Commission follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.064

[GRAPHIC] [TIFF OMITTED] T8765A.065

[GRAPHIC] [TIFF OMITTED] T8765A.066

[GRAPHIC] [TIFF OMITTED] T8765A.067

[GRAPHIC] [TIFF OMITTED] T8765A.068

    Mr. Fattah. Well we're getting better as we go, but thank 
you for your more than three decades of service.
    And let me invite Anthony Chatwin, National Fish and 
Wildlife Foundation.
    You see members coming and going. That is because we have a 
series of votes on the floor, and we all have to make it down 
there in time to cast our vote. So it is no disrespect. I am 
sure many of us have reviewed the written testimony, but in 
order to keep this show going rather than have you just sit and 
wait for an hour while these votes go on, this is how we have 
decided to proceed. All right? Please begin.
                              ----------                              

                                           Thursday, April 2, 2009.

                 NATIONAL FISH AND WILDLIFE FOUNDATION


                                WITNESS

ANTHONY CHATWIN, DIRECTOR OF MARINE AND COASTAL CONSERVATION, NATIONAL 
    FISH AND WILDLIFE FOUNDATION
    Mr. Chatwin. Thank you. Good morning Congressman Fattah, 
and thanks for the opportunity to discuss the National Fish and 
Wildlife Foundation's longstanding partnership with NOAA and 
our funding requests for 2010.
    My name is Anthony Chatwin, and I am the Director of Marine 
and Coastal Conservation for the foundation, which we refer to 
as NFWF, and I am here to summarize written testimony from our 
executive director, Jeff Crandall, which was submitted to the 
record.
    NFWF was chartered by Congress in 1984 to conserve fish and 
wildlife and their habitats. And in 1994 Congress expanded our 
mandate to specifically include NOAA's mission to restore and 
protect marine and coastal resources.
    In addition to NOAA, NFWF serves as the foundation for the 
U.S. Fish and Wildlife Service, and has active partnerships 
with a number of other federal agencies, including Forest 
Service, EPA, the USDA, and others. We also have strong 
partnerships with numerous private foundations and 
corporations.
    NFWF helps achieve the conservation missions of our federal 
partners by convening partnerships between the government 
agencies and private sector to support on the ground and in the 
water conservation projects through competitive grant making 
process.
    A unique aspect to NFWF is our ability to pull funds from 
various different public and private sources to cost 
effectively manage grant programs. This model is accomplishing 
results and priority conservation areas of the United States, 
includes the Chesapeake Bay, the Gulf of Mexico coast, and the 
Great Lakes.
    For several years this Subcommittee has supported the NOAA 
NFWF partnership by providing appropriations through NOAA's 
National Marine Fishery Service and NOAA's Ocean Service, 
roughly at a level of two million annually. This funding has 
played an integral role in helping NFWF build bridges between 
NOAA, other federal agencies, and corporate partners to benefit 
marine species and habitats.
    NFWF did not receive NOAA appropriations from the fiscal 
year 2007 through 2009, but we have sustained the cooperative 
agreements with NOAA to continue some of our unique partnership 
programs, for estuaries, coral reefs, sea turtles, and marine 
debris.
    By law, funds appropriated by this Subcommittee to us would 
be matched at least one to one and be fully dedicated to grant 
projects. We do not use any of it for overhead expenses of the 
foundation.
    NOAA funding will help NFWF attract additional funding 
through corporate and foundation partnerships.
    Currently NOAA has--I mean the foundation has active 
partnerships with more than 30 corporations and foundations. 
The number of examples of this are in our written testimony. I 
will refer to one.
    In 2008, even in the current economic climate, we 
established a partnership with Covanta Energy and Schnitzer 
Steel called Fishing for Energy, whereby fishermen dispose of 
their derelict fishing gear free of charge and Covanta converts 
that gear into energy. This successful partnership has 
collected over 100 tons of derelict fishing gear. And often the 
alternative would be that they get dumped at sea, impacting 
wildlife. And this has been going on in ten ports in the 
northeast United States, and we are currently expanding it to 
other places in the country.
    We also have a longstanding partnership with Shell Oil 
through the Shell Marine Habitat Program, where we've created 
partnerships to protect marine habitat along the gulf coast, 
Long Island Sound, and Alaska.
    The 2010 funding would help NFWF continue to build these 
public private partnerships while benefitting some additional 
shed priorities for marine and coastal ecosystems, including 
marine protected areas and sustainable fisheries, which are two 
big mandates--important mandates of NOAA.
    Marine protected areas. Recently NOAA, working with the 
Department of Interior and a number of different federal 
agencies and with stakeholders from 30--well, 30 stakeholders 
from different interests--marine interests, including state 
government and tribal government and marine industries, have 
created a national system of marine protected areas.
    We are requesting as part of the appropriation to support 
the implementation of that system. That will benefit all levels 
of government, including tribal states, federal, and local 
governments.
    We also are seeking funds to support NOAA's strategic plan, 
especially focused on increasing the number of fish stocks or 
fish populations that are managed at sustainable levels, and 
the number of protected species that would stable our 
increasing populations.
    To that end we are expanding investments in development and 
implementation of limited access privilege programs, also 
called, cat shares, these programs are a new management tool 
which NOAA is going to be implementing over at the next few 
years.
    So in conclusion thank you for allowing us to describe our 
valuable partnership with NOAA, and we believe there is great 
potential to expand this work in the future. And I appreciate 
your consideration of our 2010 request.
    [Written statement by Jeff Trandahl, Executive Director, 
National Fish and Wildlife Foundation follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.069

[GRAPHIC] [TIFF OMITTED] T8765A.070

[GRAPHIC] [TIFF OMITTED] T8765A.071

[GRAPHIC] [TIFF OMITTED] T8765A.072

    Mr. Fattah. Well, I thank you for your testimony and for 
your important work.
    I need to call our next witness forward now. Kassandra 
Cerveny from the Marine Conservation Biology Institute.
    Ms. Cerveny. Do you want to sit someone else in before me?
    Mr. Mollohan. Huh?
    Ms. Cerveny. Do you want to sit someone else in before me?
    Mr. Mollohan. No, no, no, go ahead. That is fine.
    Ms. Cerveny. Mr. Chairman----
    Mr. Mollohan. Welcome to the Committee.
                              ----------                              

                                           Thursday, April 2, 2009.

                 MARINE CONSERVATION BIOLOGY INSTITUTE


                                WITNESS

KASSANDRA CERVENY, CONGRESSIONAL RELATIONS MANAGER, MARINE CONSERVATION 
    BIOLOGY INSTITUTE
    Ms. Cerveny. Thank you. Good morning. I wish to thank 
members of the Subcommittee for the opportunity to testify on 
fiscal year 2010 appropriations for the National Oceanic and 
Atmospheric Administration.
    My name is Kassandra Cerveny, and I represent Marine 
Conservation Biology Institute.
    MCBI based in Belleview, Washington, is a national non-
profit environmental organization whose mission it is to 
advance the science of marine conservation biology and secure 
protection for ocean ecosystems. Within this context we 
advocate adequate appropriations for NOAA programs that focus 
on understanding and conserving marine ecosystems, habitats, 
and species.
    There are five programs especially that deserve increased 
funding on which I wish to address today.
    Hawaiian Monk Seal Recovery, the Marine Debris Program, the 
National Marine Sanctuary Program, the Marine Protected Area 
Program, and the Deep Sea Coral and Technology Program.
    For several years Hawaiian monk seal recovery has faltered 
due to lack of funds. The fiscal year 2009 appropriations 
omnibus has created crucial momentum to alter the downward 
spiral of the monk seal population. This spiral has been in 
part due to the programs longstanding low funding levels. FCBI 
is extremely grateful to this Committee for understanding the 
plight of the species and taking necessary steps to begin the 
recovery effort. To rebuild the population the Recovery Plan 
must be implemented assertively and on a continuous basis.
    For fiscal year 2010 MCBI recommends a minimum of 
maintaining the recently appropriated fiscal year 2009 levels 
of no less than $5.734 million, and urges the appropriation of 
a full $7 million as detailed for the implementation of the 
Recovery Plan.
    In many regions marine debris is wreaking havoc on our 
oceans and the species that depend on the ocean for their 
survival. Research has proven that debris has serious effects 
on the marine environment, marine wildlife, the economy, and 
human health and safety.
    Marine debris in the northwestern Hawaiian islands 
contributes to wildlife decline through ingestion and 
entanglement.
    Additional resources are needed to enhance the ability of 
NOAA to assess the amount, sources, and impacts on marine 
debris, maintain support to current removal programs, develop 
management practices, reduce derelict fishing gear, and conduct 
education and outreach measures.
    Presently the National Marine Sanctuary Office is 
responsible for managing the 13 marine sanctuaries and the 
Papahanaumokuakea Marine National Monument in the northwestern 
Hawaiian islands. Collectively, these 14 units cover more area 
than the National Park system.
    Given the crucial need to better protect sanctuary 
resources, MCBI recommends a significant increase in funding of 
$20 million for fiscal year 2010, bringing the overall program 
budget to $80 million.
    An investment of $80 million would enhance and sustain the 
effectiveness of individual sites, as well as the system as a 
whole, while allowing the Office of National Marine Sanctuaries 
to fulfill its responsibilities as a leader in ocean management 
and conservation.
    The funding would support monitoring and enforcement 
responsibilities, education and outreach programs, as well as 
scientific research.
    NOAA is also charged with implementing executive order 
13158, which directs federal agencies to develop a national 
system of marine protected areas. These areas are critical to 
maintain biological diversity in our oceans, protect ocean 
habitats, and effectively manage fish populations.
    Within this program NOAA is also tasked with undertaking a 
gap analysis to identify which additional types of marine 
systems should be protected.
    MCBI recommends an additional $2.1 million for the NPA 
center in fiscal year 2010 so that the NPA center can properly 
carry out the goals of implementing and expanding the national 
system of NPAs, the gap analysis I mentioned previously, as 
well as rendering technical assistance to state level NPA 
programs and maintaining the NPA inventory.
    With the recent discovery of the extensive deep sea coral 
ecosystems within the U.S. waters and understanding their 
importance, scientists are now challenged to learn the extent 
of these systems and how to protect them.
    MCBI was very pleased to see startup funding for the 
program at $1.5 million. With expensive technology and research 
vessel time needed for mapping deep sea coral systems, an 
additional $5.5 million could be used to fund known research 
needs immediately.
    Additionally the program can and should develop a by catch 
workshop. These workshops will cross train fishery observers to 
identify corals brought up by commercial fishers, as well as 
evaluate the continued impacts on sea floor corals.
    In summary, MCBI respectfully requests that the 
Subcommittee augment funding for the National Oceanic and 
Atmospheric Administration.
    Thank you for the opportunity to share our views, and I 
would be happen by to answer any questions you may have.
    [Written testimony by Kassandra Cerveny, Congressional 
Relations Manager, Marine Conservation Biology Institute 
follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.073

[GRAPHIC] [TIFF OMITTED] T8765A.074

[GRAPHIC] [TIFF OMITTED] T8765A.075

[GRAPHIC] [TIFF OMITTED] T8765A.076

    Mr. Mollohan. Thank you very much, Ms. Cerveny. Is that the 
way you pronounce that?
    Ms. Cerveny. Cerveny.
    Mr. Mollohan. Cerveny. Thank you very much for your 
testimony. We look forward to working with you.
    I am going to call a witness out of order, because of my 
time constraints, and this witness is from West Virginia.
    Dr. Brian Noland. Dr. Noland is Chancellor of the West 
Virginia Higher Education Policy Commission.
    Dr. Noland, welcome today. Thank you for your good work in 
West Virginia. You absolutely are doing a wonderful job by all 
accounts. And we appreciate you being here today to testify, 
and look forward to your testimony.
                              ----------                              

                                           Thursday, April 2, 2009.

            WEST VIRGINIA HIGHER EDUCATION POLICY COMMISSION


                                WITNESS

DR. BRIAN NOLAND, PH.D., MEMBER WEST VIRGINIA EPSCOR ADVISORY 
    COUNSELOR; CHANCELLOR, WEST VIRGINIA HIGHER EDUCATION POLICY 
    COMMISSION
    Mr. Noland. Mr. Chairman, thank you. Good morning, and 
thank you for the opportunity to be here. Thank you. And thank 
you as well for your support of programs such as GEAR UP, that 
expand college access opportunities for Americans all across 
the country.
    This morning I would like to testify regarding NSF and 
NASA's EPSCoR programs for fiscal year 2010.
    We respectfully request $147.8 million for the NSF EPSCoR 
and $28 million for the NASA EPSCoR programs.
    The $147.8 million that EPSCoR states are requesting is the 
amount authorized for the program in fiscal year 2010 under the 
America Competes Act.
    Such funding would strengthen the role for 26 EPSCoR states 
plus Puerto Rico and the Virgin Islands play in the national 
research community. It would help these 28 entities expand 
their science and technology expertise in research and 
competitiveness, and would better train our states young talent 
to contribute more directly to meeting the scientific and 
technological challenges facing our nation.
    The EPSCoR program and NSF is already making significant 
contributions to research infrastructure developments through 
its research infrastructure rewards and co-funding. However, 
NSF has expanded the number of states and awards for individual 
states.
    Further, an NSF sponsored EPSCoR 20/20 workshop in June 
2006 identified actions to make the program more effective, 
including increasing the annual awards of the RAI, expanding 
co-funding, and making significant new investments in cyber 
infrastructure.
    To meet the needs posed by this report and the addition of 
states we need increased funding.
    EPSCoR states in particular have emerging cyber 
infrastructure networks and capacities that should be 
significantly upgraded to ensure full participation in NSF and 
other federal research programs.
    Many EPSCoR jurisdictions do not have the current standards 
for Internet2 or NLR connectivity required for the most 
advanced research; for accessing remote equipment, facilities 
and for utilizing and manipulating larger databases; and for 
collaboration with researchers in other states which is 
necessary to create a truly national research community.
    Although EPSCoR states have about 20 percent of our 
nation's population, we only receive about 6 percent of the 
allocations for research. For NASA EPSCoR in 2010 we are 
requesting an appropriation of $25 million. NASA EPSCoR is 
designed to develop the capacity of those states that have 
traditionally had limited amounts of NASA R and D funding.
    Recently, NASA made two key programmatic and administrative 
changes to its EPSCoR program. First, it increased the number 
of eligible jurisdictions from twenty to twenty-eight to be 
considered with the NSF EPSCoR designated states. Second, it 
changed its funding mechanisms for the implementation of 
awards. This policy change is resulting in fewer awards to 
states than in any single year.
    Now let me turn to West Virginia. As one of the five 
original EPSCoR states West Virginia has benefitted greatly 
from its participation in the program. In May 2006 West 
Virginia EPSCoR was awarded a three-year infrastructure grant 
allowing us to build in the capacity established by an earlier 
infrastructure grant. In just six years between 2001 and 2007 
federal awards in West Virginia rose approximately from $36 
million to $93 million. Total research expenditures at our 
colleges and universities rose from just over $79 million to 
more than $167 million over that same time period. The 
successes of the research initiatives seeded by these EPSCoR 
infrastructure grants have persuaded policy makers in our state 
to significantly increase the state's investment in research.
    More than ever, a true state and federal partnership has 
been formed in this regard. Over the past two years our 
governor and the state legislature have worked together to 
provide $60 million in additional funds to assist West Virginia 
University and Marshall University and their efforts to attract 
top scientists to their labs. These appropriations are truly 
momentous developments that will give us opportunities to 
expand our research efforts in ways that we could only have 
imagined just a couple of years ago.
    None of this significant progress in our state would have 
been possible without the support received through the NSF's 
EPSCoR program. In every state students and their citizens have 
important contributions to make to our nation's 
competitiveness. The twenty-six states and two jurisdictions 
that comprise the EPSCoR community represent 20 percent of our 
nation's population, 20 percent of our research and doctoral 
universities, and 18 percent of our nation's scientists and 
engineers. We believe in the value and power of EPSCoR. We 
believe in the power of EPSCoR to serve as a catalyst for 
improvement within our respective states and as a contributor 
to our nation's increased competitiveness in the global 
economy.
    Mr. Chairman, we thank you for your support of our colleges 
and universities across the State of West Virginia and we will 
be happy to address any questions.
    [Written testimony by Brian E. Noland, Ph.D., West Virginia 
EPSCoR Advisory Council follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.077

[GRAPHIC] [TIFF OMITTED] T8765A.078

[GRAPHIC] [TIFF OMITTED] T8765A.079

[GRAPHIC] [TIFF OMITTED] T8765A.080

    Mr. Mollohan. Thank you, Dr. Noland. What is the state's, 
$60 million over what period of time?
    Mr. Noland. Mr. Chairman, the $60 million is in two 
separate funding streams. The first $10 million is to attract 
top flight talent in science and research to WVU and Marshall 
through endowed chairs. The second is a $50 million program 
known as Bucks for Brains. That is a dollar for dollar match 
that will allow us to endow science and research chairs across 
those two institutions.
    Mr. Mollohan. So that is state money to be matched by?
    Mr. Noland. State money to be matched by private funds 
raised externally by the two institutions. So those funds would 
build upon the EPSCoR funds to allow us to diversify our 
infrastructure across the two institutions at WVU and Marshall.
    Mr. Mollohan. So on an annual basis, how much is that 
increased funding for research in West Virginia?
    Mr. Noland. On an annual basis it is $10 million initially. 
The $50 million exists in a trust account. Institutions draw 
down from that trust account as they are able to raise private 
funds. Thus far, WVU and Marshall, the program is about eight 
months in, have been able to draw down approximately $4 million 
combined between the two institutions. That $4 million is then 
matched with $4 million from private sources to give us $8 
million in endowed chairs thus far. They have five years to 
draw down the totality of the funds.
    Mr. Mollohan. So it is drawn down on a project by project 
basis?
    Mr. Noland. Yes, sir. Done in conjunction with our office 
and Vice Chancellor Paul Hill.
    Mr. Mollohan. And is that competed?
    Mr. Noland. It is competitively reviewed. The areas of 
emphasis align with the five areas outlined in our Patel 
report, energy, transportation, nanotechnology. But they are 
areas that align with our overall state vision, our 2015 Master 
Plan for Science and Research.
    Mr. Mollohan. And where do we seem to be going with this 
research?
    Mr. Noland. At this point the initial hires have been in 
the area of energy and biomedical research at WVU. As I said, 
we are still eight months into the program.
    Mr. Mollohan. Mm-hmm.
    Mr. Noland. But we anticipate the majority of the hires to 
be in those two areas.
    Mr. Mollohan. Yes, well, I want to, again, compliment you 
as I did when you came up for your good work in West Virginia. 
By all accounts, consensus, you are doing a great job. And we 
appreciate these initiatives in research, which we all 
understand is fundamental to economic diversification, which we 
are all about. I want to compliment Dr. Hill as well. I note 
that he is here in the audience. You all represent a great team 
for promoting research in West Virginia. And thank you very 
much for taking the time to appear here today.
    Mr. Noland. Thank you, sir, for having us.
    Mr. Mollohan. Thank you, Dr. Noland. Mr. Fattah.
    Mr. Fattah [presiding]. I am going to stand in for the 
Chairman now. And we return to the order. Marion Blakey from 
the Aerospace Industries Association?
                              ----------                              

                                           Thursday, April 2, 2009.

                    AEROSPACE INDUSTRIES ASSOCIATION


                                WITNESS

MARION BLAKEY, AEROSPACE INDUSTRIES ASSOCIATION
    Mr. Fattah. How are you? Welcome.
    Ms. Blakey. I am well. And thank you very much, Congressman 
Fattah, for having us here. We appreciate the Committee's 
attention without a doubt. And I am very pleased to have the 
opportunity to testify here today, because it is an important 
hearing focusing on, in this case, appropriations package for 
NASA and Space Related Agencies.
    I have to take this opportunity, also, to say thank you to 
this Committee. And if you will convey my regards to Chairman 
Mollohan personally for all the work that went into securing 
literally hundreds of millions of dollars in additional NASA 
funding in this last year alone. We are very grateful on that 
front. I would like to recognize that.
    I am here representing the Aerospace Industries Association 
and our almost 300 member companies which contribute $200 
billion to the U.S. economy, and are responsible for 2 million 
jobs. We build the satellites, rockets, manned vehicles, and 
other kinds of hardware that allow the United States to stay in 
the forefront of space exploration.
    However, our leadership in space is no longer assured. 
Today, more than sixty countries have active space programs, 
some of which, as we know, are extremely ambitious. This is why 
we think the task before you is so important. Funding for NASA 
and other agencies involved in space provides the backbone of 
the U.S. response to international challenges.
    NASA funding is going in the right direction. As we note, 
the stimulus package provided a significant amount of money for 
space exploration, science missions, and replacing the aging 
NOAA satellites. The President's proposed NASA budget also set 
a top line funding level as well, including more money, very 
importantly, for aeronautics R and D after years of, honestly, 
neglect. Of particular importance is NASA's environmentally 
responsible aviation initiative, which promises to greatly 
advance the industry's priority of reducing aviation's 
environmental impacts.
    But we have concerns about what happens to the NASA budget 
in the coming years. Budget projections show the funding level 
flattening out, beginning in 2011 through 2013. During this we 
will see a projected five-year gap in U.S. manned space access. 
That is five years of relying on the Soviet Union to provide us 
access to space, a less than ideal situation. NASA will need as 
many resources as possible to speed that introduction of the 
next generation of space vehicles to reduce the gap. NOAA also 
needs more resources to replace satellites that are in danger 
of failing, which will leave us with holes in terms of climate 
information. Dropping the funding ball for these agencies 
during this critical time is not an effective strategy to keep 
U.S. space leadership.
    Another piece to that puzzle, and I would say a final piece 
in my testimony today, is inspiring young people to get under 
the STEM education track, I know of particular important to 
you, Congressman. The space community is concerned there are 
not enough student studying technical disciplines to replace 
the large numbers of our retiring engineers and workers who are 
either now or soon to be eligible to retire. Not a good 
situation at all. As you know, STEM-related projects are 
peppered throughout the budget and we would ask you to give 
them your support.
    We know federal dollars are extremely scarce these days. 
Space programs, however, provide one of the best returns on 
investment. The space industry contributes more than $33 
billion to the U.S. economy each year, and tens of thousands of 
high paying jobs. Congress has already expressed its faith in 
space as an economic engine, including it in the stimulus bill. 
And we believe it is an important incubator of technological 
innovation.
    I would like to close today by mentioning AIA's most 
visible contribution to STEM education, the Team America 
Rocketry Challenge. It is the world's largest rocket contest, 
and we are very proud of it because it involves about 7,000 
middle and high school students each year, giving them 
aerospace experience as they design, hand build, and then fly 
their model rockets. The final fly off is for the hundred best 
qualifying teams. It is set for May 16th. And please convey to 
Congressman Wolf that it is going to be right in his backyard. 
We are doing this at Great Meadow in The Plains, Virginia. And 
we would be delighted, Congressman Fattah, if you and others on 
this Committee would come out and join us welcoming those young 
people. They do a great job. Thank you very much.
    [Written statement by Marian C. Blakey, President and CEO, 
Aerospace Industries Association follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.081

[GRAPHIC] [TIFF OMITTED] T8765A.082

[GRAPHIC] [TIFF OMITTED] T8765A.083

[GRAPHIC] [TIFF OMITTED] T8765A.084

    Mr. Fattah. Well, we would be excited to do that. Thank you 
for your testimony.
    Ms. Blakey. You are welcome.
    Mr. Fattah. I want to call Dr. Jeffrey Koenings, the 
Pacific Salmon Treaty Commission.
                              ----------                              

                                           Thursday, April 2, 2009.

                    PACIFIC SALMON TREATY COMMISSION


                                WITNESS

JEFFREY P. KOENINGS, PACIFIC SALMON COMMISSION
    Mr. Koenings. Good morning, Congressman Fattah. It is a 
pleasure to be here today. Again, I am Dr. Jeff Koenings from 
the State of Washington. And I am pleased to be the Pacific 
Salmon Treaty Commissioner representing the States of 
Washington and Oregon.
    The Pacific Salmon Treaty is an international treaty with 
Canada first ratified by the U.S. Senate in 1985. The treaty is 
implemented through the Pacific Salmon Commission, which 
consists of a U.S. and Canadian section. The U.S. section is 
made up of commissioners appointed by the President to 
represent the State of Alaska, the States of Washington and 
Oregon, the federal government, and the twenty-four treaty 
tribes of Washington and Oregon. Twenty of those tribes are 
represented by Mr. Billy Frank, here. We heard his testimony 
earlier. So we are well acquainted with each other. Excellent 
work and an excellent organization.
    The Pacific Salmon Commission sets upper harvest limits on 
five salmon species in fisheries conducted from Alaska, through 
Canada, and into Washington and Oregon. These harvest limits 
strive to fulfill the fair allocation of harvest while meeting 
the conservation needs of the salmon. In May of 2008, under the 
framework of the treaty, the Salmon Commission concluded 
bilateral negotiations with Canada that developed revised ten-
year salmon fishing regimes to replace regimes that were 
expiring at the end of last year. The provisions of the new 
fisheries agreements will be implemented during the next ten 
years.
    Funding for the operations of the Salmon Commission comes 
through three federal agencies, State, Commerce, and Interior. 
Today I would like to emphasize two budget areas in the 
Commerce Department's budget.
    The U.S. section recommends that Congress fund the Pacific 
Salmon Treaty line item of the National Marine Fisheries 
Services at $8 million for fiscal year 2010. This funding 
provides the technical support for the States of Alaska, 
Washington, Oregon, and Idaho as well as the National Marine 
Fisheries Service to conduct the salmon stock assessment and 
fishery management programs required to implement the treaty 
fishing regimes. Included within the total amount of $8 million 
is $400,000 to continue a joint Transboundary River Enhancement 
Program with Canada as required by the treaty.
    Second, the U.S. section also recommends that Congress fund 
the Pacific Salmon Treaty Chinook Salmon Agreement line item of 
the National Marine Fisheries Service for 2010 at $1,844,000. 
This is level funding from what has been provided by Congress 
in recent years. This funding is necessary to acquire the 
technical information to fully implement the Abundance Based 
Chinook Salmon Management Program provided for under the 
treaty.
    I would like to emphasize that the funding identified above 
is for ongoing annual programs and does not include new funding 
specifically needed for full application of the new ten-year 
agreement that was accepted by the governments of the United 
States and Canada on December 23, 2008. The United States 
Pacific Salmon Commission state and travel commissioners have 
been and will continue to work with federal agency 
representatives and Congress to secure the new funding to 
support the new agreements.
    This concludes the statement of the U.S. Section of the 
Pacific Salmon Commission submitted for consideration by the 
Committee. We wish to thank the Committee for the support that 
it has given us in the past, and I will be pleased to answer 
any questions the Committee member may have. Thank you.
    [Written testimony by Jeffrey P. Koenings, U.S. 
Commissioner, Pacific Salmon Commission follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.085

[GRAPHIC] [TIFF OMITTED] T8765A.086

[GRAPHIC] [TIFF OMITTED] T8765A.087

[GRAPHIC] [TIFF OMITTED] T8765A.088

    Mr. Fattah. Doctor, let me thank you and also your 
colleague for your testimony on this. And we appreciate the 
information. Thank you very much.
    Mr. Koenings. You are very welcome. I understand I was in a 
dangerous spot. I am standing between you and lunch.
    Mr. Fattah. It could be worse than that. Us and votes, you 
know.
    Mr. Koenings. There you go.
    Mr. Fattah. But, Ford Bell.
                              ----------                              

                                           Thursday, April 2, 2009.

                    AMERICAN ASSOCIATION OF MUSEUMS


                                WITNESS

FORD BELL, AMERICAN ASSOCIATION OF MUSEUMS
    Mr. Fattah. How are you, Mr. Bell?
    Mr. Bell. I am good. How are you? Thank you.
    Mr. Fattah. Feel free to proceed.
    Mr. Bell. My name is Ford Bell and I am the President of 
the American Association of Museums, the national organization 
that represents 17,500 museums and the half a million who work 
in those museums.
    Last Thursday at 7:49 in the morning NASA launched its 
latest mission. The American astronaut on the multination team 
is Dr. Michael Barratt, who was inspired to pursue a career in 
science at the Oregon Museum of Science and Industry where he 
built his first telescope as a young man. While in space Dr. 
Barratt will send images that will be incorporated into that 
museum's planetarium shows. As our nation looks to engage the 
next generation in science Dr. Barratt's story offers a clear 
lesson. His path toward a career in science started in a 
museum.
    The American Association of Museums is proud to join other 
national museum service organizations, including the 
Association of Science and Technology Centers and the 
Association of Children's Museums, in representing the informal 
educational institutions where science is brought to life. We 
are proud to support agencies under this Subcommittee's 
jurisdiction that help our nation's science museums, zoos, 
botanic gardens, technology centers, children's museums, and 
aquariums engage whole generations in STEM learning through 
interactive, educational and, yes, fun programming.
    We support at AAM at least $71 million for the National 
Science Foundation's Information Science Education and Math and 
Science Partnership Programs to promote public engagement with 
science, technology, engineering, and math. We support at least 
$10 million for NASA's informal science education, which also 
supports STEM education outside of formal classroom 
environments through media exhibits and community-based 
programming.
    We support at least $40 million for the National Oceanic 
and Atmospheric Administration Education Program, which 
promotes environmental education and helps train the next 
generation for careers in science. NOAA also provides 
competitive education grants to aquariums accredited by the 
Association of Zoos and Aquariums.
    The National Research Council has found that tens of 
millions of Americans learn about science in informal ways, by 
visiting museums or attending after school programs. The report 
notes that informal science education can jump start a long 
term interest in science. And this happens every day in 
museums.
    The Discovery Center in Rockford, Illinois received an NSF 
grant to support Outreach to Space, an after school hands on 
science education program that reaches 500 at risk students 
every single day. Programs are brought to local fairs and 
festivals where countless children in this rural community are 
inspired to pursue science careers.
    The Cincinnati Museum Center was awarded a $100,000 major 
research instrumentation grant from NSF to establish a fully 
functional molecular genetics laboratory in collaboration with 
the Cincinnati Zoo and two local colleges. Local high school 
students are getting an up close view of science.
    The Children's Museum of Houston has received NSF funds to 
develop two bilingual science-based traveling exhibits. One of 
them uses characters from a popular television series to teach 
math. Parents praise the exhibit for translating complicated 
math content into simple, fun exhibits.
    And museums are engaged in unique partnerships across the 
country. The Birmingham Museum of Art in Birmingham, Alabama 
works closely with the Alabama Department of Youth Services to 
help at risk teens through photography and creative writing. 
The Brooklyn Botanic Garden works closely with the New York 
City Department of Sanitation to host environmental education 
programs. And the Brooklyn Children's Museum works with the New 
York City Summer Youth Employment Program to run an after 
school program for at risk children from underserved 
communities.
    I appreciate this opportunity to testify today and urge the 
Subcommittee to fully fund NSF, NASA, and NOAA so that we can 
continue to inspire young and old about science, technology, 
engineering, and mathematics. I would be happy to answer any 
questions.
    [Written statement by Dr. Ford W. Bell, president of the 
American Association of Museums follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.089

[GRAPHIC] [TIFF OMITTED] T8765A.090

[GRAPHIC] [TIFF OMITTED] T8765A.091

[GRAPHIC] [TIFF OMITTED] T8765A.092

[GRAPHIC] [TIFF OMITTED] T8765A.093

    Mr. Fattah. I want to thank you for your testimony. 
Obviously, these are areas that have a great deal of support on 
this Subcommittee, and we thank you. But I need to move on to 
our next witness.
    Mr. Bell. Thank you very much.
    Mr. Fattah. Dr. James Sanders from the National Association 
of Marine Laboratories.
                              ----------                              

                                           Thursday, April 2, 2009.

              NATIONAL ASSOCIATION OF MARINE LABORATORIES


                                WITNESS

JAMES SANDERS, NATIONAL ASSOCIATION OF MARINE LABORATORIES
    Mr. Sanders. Mr. Chairman, members of the Subcommittee. My 
name is Jim Sanders. I am the Director of the Skidaway 
Institute of Oceanography in Savannah, Georgia. I appear before 
you today as the President of the National Association of 
Marine Laboratories, or NAML.
    NAML is an association of over 100 marine labs around the 
country that conduct merit-based research, education and 
outreach in the natural and social sciences. NAML links 
thousands of scientists, educators, engineers, and 
professionals that are helping our nation better understand and 
support and sustain our oceans, coastal regions, and Great 
Lakes. I focus my testimony on the importance of adequate 
support for the research, education, and outreach programs 
funded by the National Science Foundation, the National Oceanic 
and Atmospheric Administration, and the National Aeronautics 
and Space Administration.
    Marine laboratories and research institutions around the 
country provide the federal government with the very best 
scientific knowledge upon which policy can be developed, and 
extramural federal support is the lifeblood of the academic-
based scientific community. Federal programs that fully engage 
the community in competitive, merit-based research programs 
produce an extremely cost effective return on investment and at 
the same time distribute economic benefits over a broad array 
of communities.
    First, we urge this Committee to appropriate $7 billion for 
the National Science Foundation for fiscal year 2010. NSF funds 
basic research that enhances public understanding of the 
nation's oceans and coastal areas and Great Lakes. NAML has 
consistently supported congressional efforts to enhance NSF's 
budget within the budget of the America Competes Act. We urge 
that basic science at NSF continue to be viewed as a wise and 
effective investment in the nation's scientific preeminence.
    Today's science needs require that we maintain and enhance 
infrastructure at all scales, from traditional infrastructure 
like ships and satellites to the next generation technologies 
that enable advanced genomics, for example, or computational 
approaches. NSF is really the only agency that routinely 
provides essential support for basic laboratory facilities, 
instrumentation, and other infrastructure. They do this through 
programs like the Major Research Instrumentation Program and 
the Field Stations and Marine Laboratories Program.
    The Field Stations Program is critically important as it is 
the only source of federal funding specifically dedicated to 
the modernization of marine labs. While funding decisions 
within that program are made by the agency, congressional 
support for a more robust Field Stations Program would be 
helpful as we seek to upgrade aging facilities and rebuild a 
network of 21st century laboratories. The Field Stations 
Program deserves to be double to $5 million for 2010, with 
sustained support in the future.
    Second, we urge the Subcommittee to support a budget of $5 
billion for NOAA for 2010. NOAA is a long time partner with the 
marine laboratory community, as many NOAA labs are linked to 
NAML laboratories. In its efforts to address complex challenges 
associated with climate change, we urge NOAA to continue to 
leverage its internal scientific expertise by effectively and 
extensively engaging the talent of the academic research 
community. NOAA's extramural programs need increased funding. 
Programs such as the National Sea Grant College Program, the 
Ocean Exploration Program, the National Undersea Research 
Program, and others. A fiscal 2010 budget of $5 billion will 
allow NOAA to meaningfully enhance its partnerships with the 
extramural research community.
    Third, we urge the Subcommittee to support NASA at $18.7 
billion for fiscal 2010. Within this amount, $4.7 billion is 
needed to boost NASA's Science Mission Directorate. Support for 
earth science and earth observation within NASA has been 
unsteady in recent years, despite strong support from the 
community. A balanced investment in NASA is critical, 
especially as priorities shift and research must adapt to 
merging issues, like climate change mitigation, and adaptation.
    Finally, I would like to underscore the importance of 
fostering the next generation of ocean literate Americans. 
American students are being eclipsed by peers in other 
industrialized countries. The American public must be 
encouraged to understand natural ocean systems, and the 
linkages between those systems and human welfare, and be 
empowered to make wise decisions. NAML works closely with 
federal partnership programs at NSF and NOAA, for example, to 
address the ocean education needs of this nation. NAML 
recommends that these programs be meaningfully enhanced in 
fiscal year 2010.
    Thank you for the opportunity to speak to you today. I 
would be happy to address any questions.
    [Written statement by Dr. James Sanders, President, 
National Association of Marine Laboratories follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.094

[GRAPHIC] [TIFF OMITTED] T8765A.095

[GRAPHIC] [TIFF OMITTED] T8765A.096

[GRAPHIC] [TIFF OMITTED] T8765A.097

[GRAPHIC] [TIFF OMITTED] T8765A.098

    Mr. Fattah. Thank you for your testimony. We are not going 
to have time, I think, for a lot of questions today as I think, 
obviously, based on the enthusiastic interest in testifying 
before the Committee. So let me thank you for your work.
    Mr. Sanders. Thank you for your time.
    Mr. Fattah. Kristen Fletcher from the Coastal States 
Organization.
                              ----------                              

                                           Thursday, April 2, 2009.

                      COASTAL STATES ORGANIZATION


                                WITNESS

KRISTEN FLETCHER, COASTAL STATES ORGANIZATION
    Ms. Fletcher. Good morning, Mr. Chairman and members of the 
Subcommittee. My name is Kristen Fletcher and I am Executive 
Director of the Coastal States Organization. CSO represents the 
governors of the nation's thirty-five coastal states on the 
sustainable management of U.S. ocean, coastal, and Great Lakes 
resources. Thank you for the opportunity to testify on behalf 
of the states on funding priorities for fiscal year 2010.
    CSO supports the following coastal programs and funding 
levels within NOAA, our essential federal partner in the 
national effort to sustainably manage the coastal zone. $100 
million for the Coastal Zone Management Program; $12.4 million 
for Coastal Zone Management Administration; $60 million for 
Coast and Estuarian Land Protection; and $33 million for Coral 
Reef Conservation. These programs are part of the critical 
framework for our coasts, which we rely upon for commerce, 
recreation, energy, and natural resources. They provide direct 
funding to states and territories. Especially in difficult 
budgetary times this is a good federal investment. These grants 
are matched by the states and leveraged with private and local 
funds.
    Though federal funding does not reflect it, the oceans and 
coasts provide an irreplaceable contribution to our nation's 
economy. Even though the coastal zone makes up only 17 percent 
of the land area of the United States, 53 percent of the 
nation's population lives there. The National Ocean Economics 
Project estimates that the annual contribution of coastal 
counties is in the trillions of dollars. In recent years, 
employment growth along the coasts was nearly three times 
population growth. Our oceans and coasts are not just places we 
enjoy, they are a vital part of our nation's economy.
    But today it is apparent that we are loving our coasts to 
death. The demand on coastal resources combined with an 
increase in natural hazards such as sea level rise and 
hurricanes means that we are in danger of losing these 
resources. Despite the difficult budgetary times we need to 
provide more support for the key programs that make our coastal 
communities sustainable and resilient. Failure to invest now 
means a greater economic investment in the future, likely at a 
point of crisis.
    I want to offer a few examples of the difference that 
federal funding makes to the coastal communities and its 
citizens. Planning in local communities can mean the difference 
between a community that bounces back from a storm and one that 
does not. The Virginia Coastal Management Program has created 
an Internet mapping system known as Coastal Gems. It combines 
data from many sources so that anyone can go online and see 
land and water resources along the entire coastline of the 
state. Today it is used by local governments to plan where 
development should and should not go, by businesses to help 
them avoid sensitive areas, by land trusts to target areas for 
private acquisition, and by the public to better understand 
what resources are in their backyard. That is what management 
is about, knowing what resources need protection and where we 
can develop sustainably. And I have visited the website. It is 
an amazing tool, one that would not have been possible without 
federal funds.
    In this age of flooding and sea level rise coastal 
communities are on the front lines. Maryland's coastal program 
is leading the way in adapting to sea level rise through its 
assistance to local communities. It is at this local level 
where the development decisions are made. Impacts to sea level 
rise in Maryland are apparent now. Maryland communities are 
leveraging federal funds with state and private funds to direct 
future growth away from likely storm surge areas.
    And finally, we cannot forget why we as Americans love the 
coasts, which is recreation. In 2008 the Alabama Coastal 
Program provided funding to the City of Gulf Shores and the 
Town of Dauphin Island for the construction of public access to 
coastal waters. Access to recreation at the coast is a key 
element of the American quality of life and contributes to 
coastal economies.
    CSO greatly appreciates the support the Subcommittee has 
provided in the past to care for the nation's coasts. We 
appreciate your consideration of our request as you move 
forward in the fiscal year 2010 appropriations process. Thank 
you.
    [Written statement by Kristen Fletcher, Executive Director, 
Coastal States Organization follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.099

[GRAPHIC] [TIFF OMITTED] T8765A.100

[GRAPHIC] [TIFF OMITTED] T8765A.101

[GRAPHIC] [TIFF OMITTED] T8765A.102

    Mr. Fattah. Let me thank you for your testimony. I am going 
to have to go vote, and so we are going to take a break. 
Everybody can just stay exactly where you are. Do not move.
    [Recess.]
    Mr. Serrano [presiding]. We will resume our hearing. And 
you will note the quickest promotion ever in the history of the 
Congress. But I am not taking this seriously, it is only for 
the moment. Our next witness is Dr. Jack Fellows for the 
University Corporation for Atmospheric Research.
                              ----------                              

                                           Thursday, April 2, 2009.

            UNIVERSITY CORPORATION FOR ATMOSPHERIC RESEARCH


                                WITNESS

JACK FELLOWS, UNIVERSITY CORPORATION FOR ATMOSPHERIC RESEARCH
    Mr. Serrano. The rules are still the same. Five minutes. 
But we do take this very seriously and we do take a lot of 
notes. And we know what we are doing. The schedule seems like 
we are moving people in and out, but that is because it is only 
hundreds and hundreds. Please proceed.
    Mr. Fellows. Thank you for the opportunity to appear today. 
I am Jack Fellows, Vice President for the Corporation of 
Atmospheric Research. It is a nonprofit consortium of over a 
hundred universities that study the weather and climate.
    All fifty states are battered by billions of dollars in 
weather and climate related damages each year. And it is clear 
that these impacts will change as the climate changes over the 
next few decades, including how we will make water, food, and 
energy supplies reliable and sustainable into the future.
    Over the past fifty years we have made significant progress 
in forecasting severe weather and understanding climate change. 
However, the weather and climate community is concerned that 
our nation is not prepared to adapt to climate change and has 
developed a community document with recommendations on how to 
address this situation. And I discuss this document in my 
written testimony.
    The bottom line is that decision makers need local and 
regional scale information, but our climate models are hampered 
by the lack of research, observations, and computing at this 
kind of scale. Some of the problems are due to flat budgets but 
some of them are due to the lack of policy direction and even 
barriers to focus on these local and regional impact scales.
    My written testimony includes funding recommendations for 
NSF, for NASA, and NOAA. So I would like to focus my comments 
today on leadership and policy issues. First, your Committee 
embraced the recent Earth Science Decadal Survey and provided 
guidance on erosion and weather and climate observing programs 
in this country. And I would like to recommend that you direct 
OSTP to create an integrated ground and space-based national 
observing strategy. You would build satellites differently if 
they were integrated with ground systems. And they do not all 
have to be large, expensive missions. Some of these missions 
can be done on small satellites. And there are groups with 
impressive histories in our country of delivering small 
satellites on schedule and within budget. We cannot continue to 
tolerate enormous satellite cost overruns that devastate other 
critical services to our country.
    Secondly, the U.S. Global Change Research Act requires the 
President to develop a national global change research plan. 
And a recent National Research Council evaluation concluded 
that the climate change predictions have improved 
substantially, but our understanding of the impacts on society 
is relatively immature. I recommend clear guidance to OSTP to 
ensure that these investments deal both with key science 
priorities and help local decision makers deal with climate 
change. And also direct OSTP to examine how they partnered with 
OMB in the 1990s to coordinate these activities. And the 
community document that I mentioned earlier can provide 
guidance on how to do that.
    Thirdly, NOAA is working hard to establish a National 
Climate Service. But this will be very challenging for NOAA 
since it involves over fifteen agencies. So I recommend 
providing strong guidance to OSTP to explore a range of options 
for this National Climate Service, including parts of that 
service that could be done outside of the federal government.
    And lastly, the Committee provided $10 million in 2009 for 
a Climate Change Education Plan at NSF. The country does not 
need to reinvent the wheel, here. We should leverage existing 
programs. For example, the very successful GLOBE Program is 
planning a climate campaign next year involving over 1 million 
students and teachers around the world. So I would recommend 
that OSTP look at an interagency climate change education 
program.
    I want to sincerely thank the Committee for this 
opportunity to testify.
    [Written testimony by Jack D. Fellows, Vice President, 
University Corporation for Atmospheric Research follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.103

[GRAPHIC] [TIFF OMITTED] T8765A.104

[GRAPHIC] [TIFF OMITTED] T8765A.105

[GRAPHIC] [TIFF OMITTED] T8765A.106

[GRAPHIC] [TIFF OMITTED] T8765A.107

    Mr. Serrano. Thank you. A quick question. Does your group 
also include universities from the territories?
    Mr. Fellows. No, it is North American universities, so 
Mexico, U.S., and Canada.
    Mr. Serrano. But Puerto Rico is right next to Florida.
    Mr. Fellows. Yes. We do not actually have a university from 
Puerto Rico.
    Mr. Serrano. Okay. Or Guam? Or Samoa? Okay. Thank you. Dr. 
Caren Chang, American Society of Plant Biologists.
                              ----------                              

                                           Thursday, April 2, 2009.

                  AMERICAN SOCIETY OF PLANT BIOLOGISTS


                                WITNESS

CAREN CHANG, AMERICAN SOCIETY OF PLANT BIOLOGISTS
    Ms. Chang. Mr. Chairman, thank you for inviting me to 
testify on the National Science Foundation's fiscal year 2010 
budget. My name is Caren Chang, and I am an Associate Professor 
at University of Maryland. I appear before you today on behalf 
of the American Society of Plant Biologists, ASPB.
    With respect to my own career, the NSF has had a great 
impact. First by supporting my graduate research on developing 
the plant Arabidopsis as a model system for modern plant 
research, and then providing me with a postdoctoral fellowship 
that helped shape my career.
    ASPB is an organization of more than 5,000 researchers, 
educators, graduate students, and postdoctoral scientists in 
all fifty states and throughout the world. Our mission is to 
promote the growth of plant biology, communicate research in 
plant biology, and promote the interests of plant scientists in 
general. And although many of our members are focused on basic 
plant research we are all keenly aware of the applied 
ramifications of our findings.
    Plants are vital to our very existence by providing food, 
feed, and the oxygen we breathe. And research in plant biology 
is making fundamental contributions in sustainable development 
of better foods, fabrics, and building materials; in fuel 
security and environmental stewardship; and in understanding 
the basic biological principles that underpin improvements in 
the health and nutrition of all Americans. Yet the amount of 
funding invested in basic plant research is relatively small 
when compared with the impact this research has on multibillion 
dollar sectors of the nation's economy, such as energy and 
agriculture.
    The fiscal year 2010 NSF budget overview released in 
February would fund the NSF at $7 billion in fiscal year 2010. 
ASPB enthusiastically supports this request and encourages 
proportional funding increases across all of the science 
disciplines supported by the NSF.
    The NSF Directorate for Biological Sciences, known as BIO, 
is a critical source of funding for nonbiomedical research, 
supporting discoveries ranging from molecules, to cells, to 
ecosystems, to the biosphere. Within BIO the Plant Genome 
Research Program has profoundly influenced our understanding of 
biofuel crops, human nutrition, the impact of climate change on 
agriculture, and the roles of plants in ecosystems. ASPB asks 
that the Plant Genome Research Program continue to be a 
separate funding line within the NSF budget as in years past, 
and that sustained funding growth continues for this program.
    NSF chose to locate this and other groundbreaking programs, 
such as the iPlant Collaborative and the Arabidopsis 2010 
Project in the Plant Biology Community, demonstrating the 
centrality of plant research to the NSF's mission. These 
decisions illustrate the vital role that basic plant research 
plays, and should continue to play, as America confronts the 
serious challenges it faces.
    The NSF is also a major source of funding for the education 
and training of the American scientific workforce. The NSF's 
education portfolio impacts students at all levels in the 
science pipeline, and also offers programs focused on outreach 
to and engagement of underrepresented groups. ASPB encourages 
further development of the NSF's education and training 
programs. We also enthusiastically endorse President Obama's 
statement that the number of graduate student fellowships 
should triple in the coming years. And we support positive 
progress in this direction through the fiscal year 2010 budget 
request.
    To conclude, sustained funding growth for the NSF and its 
BIO Directorate is of critical importance to the plant biology 
community and to ASPB members. The promise of such funding 
growth would lend encouragement to the hardworking 
undergraduate and graduate students in my lab and across the 
country to continue on in science. More importantly, without 
increasing support for the NSF promising discoveries with vital 
applications in energy independence, human health, agriculture, 
and the environment will be postponed and America's ability to 
respond to the pressing problems we face today will be further 
delayed.
    Thank you for hearing our remarks.
    [Written testimony by Dr. Caren Chang, member, American 
Society of Plant Biologists follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.108

[GRAPHIC] [TIFF OMITTED] T8765A.109

[GRAPHIC] [TIFF OMITTED] T8765A.110

[GRAPHIC] [TIFF OMITTED] T8765A.111

    Mr. Serrano. Thank you. Very quickly, you said something 
about keeping it as a separate entity?
    Ms. Chang. For the Plant Genome Research Program.
    Mr. Serrano. Okay. All right. Thank you so much.
    Ms. Chang. Thank you.
    Mr. Serrano. Thank you. Next we have Pam Johnson, National 
Corn Growers Association.
                              ----------                              

                                           Thursday, April 2, 2009.

                   NATIONAL CORN GROWERS ASSOCIATION


                                WITNESS

PAM JOHNSON, NATIONAL CORN GROWERS ASSOCIATION
    Ms. Johnson. I am happy to follow up with Dr. Chang because 
we are on the same page. I am a fifth generation farmer from 
Floyd, Iowa. I am here today because I represent corn growers 
on behalf of the National Corn Growers Association. And I serve 
as Chair of the Research and Business Development Action Team 
there. The National Corn Growers represents 36,000 members, and 
also 300,000 people who contribute to the check off because 
they believe research needs to be done.
    NCGA's top priority in this appropriations bill is 
maintaining the funding of $101 million for the National 
Science Foundation Plant Genome Research Initiative. We believe 
that this program is crucial to agriculture and urge that this 
budget remain intact. The goal as listed in the strategic plan 
is to develop a basic knowledge of the structure and functions 
of plant genomes, and to translate this knowledge to a 
comprehensive understanding of all aspects of economically 
important plants and plant processes. This bridges plant basic 
research to plant performance in the field.
    The initiative will accelerate basic discovery and 
innovation in economically important plants, and it will enable 
management of agriculture, natural resources, and the 
environment to meet societal needs. The initiative is supported 
by the Interagency Working Group on Plant Genomes and has been 
a model of a true public/private partnership, integrating the 
stakeholders across the disciplines and promoting results-
driven research.
    Milestones this last year in 2008 included the release of 
the draft corn genome sequence, and access to this information 
is open to all and in the public domain. We have now reached a 
place where we can put basic research to work, and capitalize 
fully on the investments we have made.
    When the human genome was mapped the researchers could take 
that knowledge from the lab to the patient to improve health. 
Much like this, plant scientists can take genetics and breeding 
and now be able to take this science from the lab to improve 
plants. A complete corn genome sequence and application of its 
information will provide a wide range of benefits. Both public 
and private sectors will be able to expedite their breeding 
programs and increase their knowledge of corn's important 
agronomic traits. For farmers, we will have access to varieties 
of corn that are better suited to the market and the 
environment, such as pest resistance, lower nitrogen and water 
needs, and higher yields, all increasing sustainability. 
Consumers will benefit from a more abundant and sustainable 
food, feed, and fuel supply. Improvements aim at not only 
increasing yield by enhancing the nutritional value to achieve 
an affordable, plentiful, and safe food product.
    Corn is a model system for studying complex genomic 
structure and function for grasses and for other crops. And its 
high quality genetic map will serve as a foundation for studies 
that will lead to improved biomass and bioenergy resources from 
corn and related plant species.
    So in conclusion, maintaining and improving upon the 
resources that have been available for crop systems is now more 
important than ever as agriculture steps up to meet the demands 
of consumers worldwide. We are poised to make a great 
contribution to society, providing a safe and secure supply of 
resources for human and animal nutrition, fiber, bioenergy, and 
industrial feeds. Continued strong governmental support of 
basic ag research is essential to ensure that this innovation 
pipeline remains robust. So NCGA requests that this 
Subcommittee include in the fiscal year 2010 appropriations 
bill language that secures the $101 million Plant Genome 
Research budget, applied exclusively to plants of economic 
importance keeping in line with the original intent of the 
program. Thank you for the opportunity to speak and I will take 
any questions.
    [Written statement by Pam Johnson, Chair, Research and 
Business Development Action Team, National Corn Growers 
Association follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.112

[GRAPHIC] [TIFF OMITTED] T8765A.113

[GRAPHIC] [TIFF OMITTED] T8765A.114

    Mr. Serrano. Thank you. Just a comment. We thank you for 
the work you do, and the important research you do. And we 
certainly know how important that is. And we thank you for your 
testimony.
    Ms. Johnson. Thanks a lot.
    Mr. Serrano. Thank you. Next we will hear from Bruce 
Hoogstraten. I hope I am pronouncing that right.
                              ----------                              --
--------

                                           Thursday, April 2, 2009.

                     NASA AERONAUTICS SUPPORT TEAM


                                WITNESS

BRUCE HOOGSTRATEN, NASA AERONAUTICS SUPPORT TEAM
    Mr. Hoogstraten. Yes, sir.
    Mr. Serrano. That is a miracle.
    Mr. Hoogstraten. That is better than my third grade teacher 
could do.
    Mr. Serrano. I am not going to tell you what they used to 
do with Serrano. NASA Aeronautics Support Team.
    Mr. Hoogstraten. Yes, sir. Good morning. My name is Bruce 
Hoogstraten and I am the Executive Director of the NASA 
Aeronautics Support Team in Hampton, Virginia. I appreciate the 
opportunity to testify before the Subcommittee today on NASA's 
aeronautics enterprise. I am also currently the Governor's 
Chairman for the Virginia Aerospace Advisory Council.
    We, like everyone else today, await the details of the 
fiscal year 2010 NASA budget with bated breath. Hopefully, due 
to the change in the administration it may signal a new 
direction for NASA aeronautics research. Yet at the same time, 
conditioned to accept the worst. The Subcommittee knows the 
gory details year after year. The program is rebaselined lower 
and lower on the out years and proposed for massive cuts for 
the previous year.
    I first, however, want to thank both the Subcommittee and 
full Committee for both the $53.5 million above the requested 
NASA fiscal year 2009 aeronautics program budget contained in 
the omnibus bill targeted at the next generation air traffic 
control system and for green aviation, as well as the $150 
million in the American Recovery and Reinvestment Act for 
research, development, and demonstration to improve aviation 
safety and next generation air traffic control. In taking these 
actions the Congress has at least put the aeronautics program 
on a firm budget footing for 2009 and 2010, which will enable 
the acceleration of the very badly needed research in the 
critical areas of more efficient aircraft, modernized ATC, and 
aviation safety.
    We have engaged a new administration hoping that a fresh 
perspective will reverse the negative budget trends for NASA 
aeronautics. But it is more than reversing a budget trend. 
There is a larger picture that we implore Congress to consider. 
While the exploration and human space flight side of NASA have 
been given a grand vision and goals to develop the hardware 
necessary to reach the moon and then Mars, and space and earth 
sciences have their decadal surveys that drive NASA's mission 
planning well into the future, where is the grand vision for 
NASA aeronautics? There is a desperate need for a major 
challenge with concrete deliverables and time lines rather than 
the ad hoc annual fundamental research that drifts here and 
there as the wind blows. If there is a mission the budget 
resources might logically follow. And we challenge you and the 
administration to challenge the NASA workforces at Langley, 
Glenn, Ames, and Dryden to accomplish a grand vision on behalf 
of the American people and the future of our aviation industry.
    We believe that one grand vision could be the development 
of a radical new, next generation, subsonic air cab that is 
green by its total new design which will use 75 percent less 
fuel and emit a fraction of harmful greenhouse gases. And we 
have developed a white paper for this concept.
    In order to realize such a grand, green aircraft vision, 
the administration and Congress must abandon the 
shortsightedness and nonsensical decision in recent years to 
restrict NASA's aeronautics research program to work on only 
basic or fundamental research. The program has been restricted 
to undertake studies on materials and design, modeling and 
using computers and wind tunnel testing, not actually 
aggressively pushing design limits for flight testing advance. 
Langley's major test aircraft, a Boeing 757, was mothballed due 
to budget constraints over two years ago. How can you flight 
test technologies with no airplanes?
    The emphasis of the entire program must shift back to 
actually doing things relevant to the U.S. aircraft 
manufacturing base and provide the critical initial stages of R 
and D to prove new technologies so they are ready for hand off 
to industry. NASA should be directed to redirect a large 
proportion of its aeronautics resource and development for 
budget activities and achieve a higher level of technology 
readiness.
    In conclusion, I would like to point out that we at NAST 
have written a white paper that can be found on our website, 
NASTUS.org titled The Future of NASA. This paper calls for a 
drastic shift at NASA to return back to innovative research 
that focuses on programs that are vital and important to the 
current needs of our country, and includes details on proposed 
innovation, research projects, such as the Green Aviation 
Initiative. Thank you for your time, and the testimony I am 
returning to the Subcommittee, I should say. And of course I 
would answer any questions.
    [Written statement by Mr. Bruce Hoogstraten, Executive 
Director of the NASA Aeronautics Support Team follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.115

[GRAPHIC] [TIFF OMITTED] T8765A.116

[GRAPHIC] [TIFF OMITTED] T8765A.117

[GRAPHIC] [TIFF OMITTED] T8765A.118

[GRAPHIC] [TIFF OMITTED] T8765A.119

    Mr. Serrano. Thank you. Just one quick one. NASA Support 
Team.
    Mr. Hoogstraten. Yes, sir.
    Mr. Serrano. Is that NASA employees? Or is that a 
separate----
    Mr. Hoogstraten. No. We are made up of mainly retired NASA 
employees, but it is a nonprofit group, community supported 
nonprofit group, back in the Hampton Roads area.
    Mr. Serrano. Thank you so much.
    Mr. Hoogstraten. Thank you.
    Mr. Serrano. Philip Bogden, Southeastern Universities 
Research Association.
                              ----------                              --
--------

                                           Thursday, April 2, 2009.

             SOUTHEASTERN UNIVERSITIES RESEARCH ASSOCIATION


                                WITNESS

PHILIP BOGDEN, SOUTHEASTERN UNIVERSITIES RESEARCH ASSOCIATION
    Mr. Serrano. And in general I apologize for anyone that I 
do not pronounce their name properly.
    Mr. Bogden. No, that was just fine. Thank you. Thank you 
for the opportunity to testify. My name is Philip Bogden and I 
am here representing the Southeastern Universities Research 
Association, also known as SURA. SURA is a consortium of over 
sixty universities from across the U.S. SURA operates the 
Thomas Jefferson Nuclear Accelerator facility for the 
Department of Energy. For the past five years I have been 
directing the SCOOP program at SURA, which is SURA's coastal 
research initiative. During that same period I have also served 
as CEO of the Gulf of Maine Ocean Observing System, GOMOOS.
    GOMOOS is a nonprofit organization that delivers 
information to solve problems, predict events, and better 
understand the Gulf of Maine. GOMOOS was the first stakeholder 
organization of its kind created ten years ago as a pilot 
regional association for the Integrated Coastal and Ocean 
Observing System, ICOOS. The partnership between SURA and 
GOMOOS has been strategic for reasons that I will explain.
    I first want to applaud passage of H.R. 146, which 
authorizes the national ICOOS. After more than a decade, ICOOS 
is finally law. This integrated coastal and ocean observing 
system will serve future generations by helping to assure a 
safe and healthy planet.
    As the Committee knows, NOAA currently has an integrated 
ocean observing system, the NOAA/IOOS. This activity is 
underway. The NOAA/IOOS Data Integration Framework shares many 
features in common with the SCOOP program. This program is now 
two years old at NOAA.
    Our story begins almost a decade ago. While various regions 
along the U.S. coast were deploying ocean observing 
capabilities similar to GMOOS, the SCOOP program at SURA 
focused on information technology needed to connect and 
integrate the disparate and varied regional data providers. To 
help turn those data into environmental predictions and to 
enable the broad array of research and end user applications. 
The focus at SURA has been to demonstrate that information 
technology can provide a foundation for simplifying the 
complexity and assuring maximum benefit from a system that is 
comprised of a wide variety of contributors.
    Clearly, the most cost effective way to predict anything 
and everything, from weather to climate change, is not to 
create a centralized database or a single agency program. In 
fact, it is easy to argue that no centralized system of any 
kind will work. Rather, the solution must be a distributed 
system or a network. In this modern version of an observing 
system, the entire community participates. This type of ICOOS 
will be achieved using the same web technologies that have 
globalized the economy and changed social interactions.
    How will Congress fund the network solution when so many 
agencies must take part? Herein lies the special challenge, if 
not a paradox. The most cost effective solution, the 
multidisciplinary, multiagency, multisector, network solution, 
may be the most difficult to fund from a budgetary perspective. 
Can a single line item in a single agency budget serve this 
purpose?
    A National Academies report earlier this year calls for a 
nationally integrated education research extension model to 
develop a powerful alternative to the current pattern of 
investment in expensive, short term, and disconnected projects. 
At SURA we have found huge benefit from working with open 
standards and within the organizational framework of consensus 
standard organizations such as the Open Geospatial Consortium, 
the OGC. This organizational construct may offer a solution to 
the budgetary problem. All the agencies that must contribute to 
the ICOOS are already members of the OGC, as are many of the 
research institutions, nonprofits, and private companies that 
stand to contribute to and benefit from an ICOOS. We suggest 
that nongovernmental organizations like the OGC may be part of 
that solution.
    Twenty years later, the concept of ICOOS is no longer new 
but it is still timely. And we are well positioned now because 
the last ten years has taught us not to underestimate the power 
of the network. The web has clearly demonstrated that standards 
enable innovation. But the biggest challenges are not technical 
or we would be there by now. The metaphor of an eight-person 
racing shell seems apt. The fastest boat rose in synch and 
there is unspoken magic when everyone works together. But when 
one person tries to go it on their own, even when they are 
twice as strong as everyone else on the boat, their effect on 
the boat is like throwing out an anchor.
    The ICOOS will arrive when we all agree to work together to 
make it happen. Thank you.
    [Written statement by Mr. Philip Bogden, Director of the 
Southeastern Universities Research Association follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.120

[GRAPHIC] [TIFF OMITTED] T8765A.121

[GRAPHIC] [TIFF OMITTED] T8765A.122

[GRAPHIC] [TIFF OMITTED] T8765A.123

    Mr. Serrano. Well, we thank you for your work and we thank 
you for your testimony. Thank you. Dr. Craig M. Schiffries, did 
I do bad there also?
    Mr. Schiffries. You did very well. Better than me.
    Mr. Serrano. That is hard to believe. Geological Society of 
America.
                              ----------                              

                                           Thursday, April 2, 2009.

                     GEOLOGICAL SOCIETY OF AMERICA


                                WITNESS

CRAIG SCHIFFRIES, GEOLOGICAL SOCIETY OF AMERICA
    Mr. Schiffries. Thank you very much Mr. Chairman and 
members of the Committee. My name is Craig Schiffries and I am 
here to represent the Geological Society of America. The 
Geological Society of America urges Congress to appropriate at 
least $7 billion for the National Science Foundation in fiscal 
year 2010. This would be an increase of approximately $500 
million, or 8 percent, compared to the level enacted in the 
omnibus appropriations act for fiscal year 2009. This funding 
level would uphold the President's budget request. However, it 
is substantially below the authorized funding level of $8.1 
billion under the America Competes Act. And we urge you to come 
as close to the authorized funding level as possible.
    Science and technology are the engines of economic 
prosperity, environmental quality, and national security. The 
earth sciences are critical components of the overall science 
and technology enterprise. Growing investments in earth science 
research are needed to stimulate innovations that fuel the 
economy, provide security, and enhance the quality of life. As 
we speak, the United States is experiencing the volcanic 
activity in Alaska and major flooding in North Dakota. The 
National Science Foundation supports basic research that 
provides a scientific foundation for understanding these and 
other natural hazards. An improved scientific understanding 
will reduce future losses through better forecasts of their 
occurrence and magnitude.
    The earth sciences, in fact, play a central role in 
addressing many of the nation's greatest challenges. So in 
addition to natural hazards, energy, climate change, and water 
resources are fundamentally about the geosciences. Energy and 
mineral resources are critical to the functioning of society 
and to national security. These resources are often costly and 
difficult to find, and new generations of geoscientists need 
the tools and expertise to discover them. In addition to 
managing their development, use, and disposal, we need a 
scientific approach that will maximize the derived benefits and 
minimize the negative effects. Improved scientific 
understanding of these resources will allow for their better 
management and utilization while at the same time considering 
economic and environmental issues.
    The availability of fresh water is vital to the well being 
of both society and ecosystems, and a greater scientific 
understanding of these critical resources, and communication of 
new insights by geoscientists to decision makers, is necessary 
to ensure adequate water resources for the future.
    Forecasting the outcomes of human interactions with earth's 
natural systems, including climate change, is limited by an 
incomplete understanding of geologic and environmental 
processes. Improved understanding of these processes in earth 
history can increase confidence in our ability to predict 
future states and enhance the prospects for mitigating or 
reversing adverse impacts to the planet and its inhabitants.
    Research in earth science is also fundamental to training 
and educating the next generation of earth science 
professionals. Increase NSF investments in earth science 
education at all levels is needed because knowledge of the 
earth sciences is essential to scientific literacy and to 
meeting the environmental and resource challenges of the 21st 
century.
    There are a wide range of extraordinary scientific 
opportunities in the solid earth sciences that have been 
summarized by the National Academies and other organizations. 
And while NSF's Earth Sciences Division regularly receives a 
large number of exciting proposals that are highly rated both 
for scientific merit and their broader impacts, only a small 
percentage of these proposals have been funded in recent years 
due to budget constraints. Modest additional investments in 
this research can have significant impacts. For example, earth 
science studies may improve our ability to forecast earthquakes 
and volcanic eruptions. Underinvestment in earth sciences may 
result in not only lost opportunities but lost lives.
    The fiscal year 2010 budget request comes at a critical 
juncture in the history of the National Science Foundation. The 
America Competes Act set the stage to double the NSF budget in 
seven years. Despite overwhelming bipartisan support for the 
American Competes Act, funding for NSF fell short of a doubling 
path in the regular appropriations cycles for fiscal years 
2007, 2008, and 2009. NSF received $3 billion in economic 
stimulus funds under the American Recovery and Reinvestment 
Act. This one-time injection of funding is very helpful but NSF 
needs sustained annual increases in order to achieve the 
objectives of this legislation.
    The Geological Society of American is grateful to the House 
Appropriations Subcommittee on Commerce, Science, Justice and 
Related Agencies for its past leadership in increasing the 
budget for the National Science Foundation and other science 
agencies. We are grateful to the Subcommittee for its 
leadership in providing $3 billion in stimulus funds for the 
NSF. Thank you for your thoughtful consideration of our request 
and we would be happy to answer any questions.
    [Written statement by Geological Society of America Dr. 
Craig M. Schiffries, Director for Geoscience Policy follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.124

[GRAPHIC] [TIFF OMITTED] T8765A.125

[GRAPHIC] [TIFF OMITTED] T8765A.126

[GRAPHIC] [TIFF OMITTED] T8765A.127

    Mr. Serrano. We just thank you for your work, and for your 
testimony. Thank you.
    Mr. Schiffries. Thank you.
    Mr. Serrano. Our next witness is John C. Gregory, Alabama 
Space Grant Consortium.
                              ----------                              

                                           Thursday, April 2, 2009.

                     ALABAMA SPACE GRANT CONSORTIUM


                                WITNESS

JOHN C. GREGORY, ALABAMA SPACE GRANT CONSORTIUM
    Mr. Gregory. Thank you for the opportunity to address the 
Committee and provide testimony. My name is John Gregory. I am 
the Director of the Alabama Space Grant Consortium, and also a 
teaching faculty member in the Department of Chemistry in my 
home university, and a practicing researcher in space science.
    My purpose here today is to speak on behalf of the fifty-
two space grants who are organized together under a corporation 
called the National Space Grant Alliance. And to request you to 
appropriate $44.8 million for Space Grant, which is managed by 
NASA, created by the Congress and managed by NASA, for the next 
year. We ask specifically that the language that is written in 
your written testimony, that the forty-two states or 
jurisdictions should be funded at $900,000 each and ten states 
or jurisdictions at $700,000 each.
    This funding will enable us to provide our space grant 
programs to more students and teachers in all of the fifty 
states, and of course the District of Columbia, and the 
Commonwealth of Puerto Rico.
    You have had over the past months some very distinguished 
speakers here talking about the perilous state of science 
education, so I shall not attempt to compare my prose to 
theirs. I also noted that the Chairman asked the question as to 
where is the stream of U.S. students in science and engineering 
who are going to keep us at the forefront of, in so many ways 
that has been described by other speakers, in the next decades.
    Space Grant, of course, is not large enough to solve all 
those problems, but it is a proven program that addresses those 
problems directly and is proven to be effective. And I think 
many of you, or many of the Committee, know very well in their 
own states quite a lot about the Space Grant Program.
    I have attached on page three some statistics of the 
national program, which I am obviously not going to go over 
here, but thousands of students that we deal with. But I would 
like to say a few things about my own program which is only one 
of fifty-two. But it is duplicated in its own way in all of 
your states and territories.
    Our main mission is to prepare a diverse body of Alabama 
students for careers in aerospace, science, and technology. 
That is an abbreviated version of our mission. What do we do? 
Well, we run programs of scholarships and fellowships. Alabama 
awards sixty scholars and fellows each year. I have seventy 
programs in the state. So what is one that distinguishes Space 
Grant from all others? And that is our program where students 
design, build, and fly space hardware. These are hands on 
projects. We have twelve projects in our state involving 
something like 250 students.
    What do they do? They design a piece of hardware which will 
fly on a rocket. They may design a rocket, too. They design a 
satellite analog which flies on a helium balloon to 100,000 
feet. The important thing is here, this is different from my 
research work where I have a grant to do certain things for 
NASA and my students, you know, do what they are told to help 
that happen. Here the students must design their own project. 
They must set their goals. They are given maybe $1,000. They 
have to do a trade off analysis. They have to make this thing 
work. And they build it, and they fly it.
    And we have seen, it is quite remarkable how students, this 
is the first time they learned to define the problem 
themselves, not just answering the professor's problems. And 
they find their own solution, and they find out that there is 
often more than one solution and it is not in the back of the 
book. So this kind of discovery is a remarkable thing. And I 
think one that distinguishes Space Grant. And we would like to 
convey this to more students in our states. Thank you.
    [Written testimony by John Gregory, Alabama Space Grant 
Director follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.128

[GRAPHIC] [TIFF OMITTED] T8765A.129

[GRAPHIC] [TIFF OMITTED] T8765A.130

    Mr. Serrano. Thank you. Thank you very much. Our next 
witness, Henry M. Cagey.
    Is it the Lummi?
    Mr. Cagey. Lummi.
    Mr. Serrano. Lummi Indian Nation, welcome.
                              ----------                              

                                           Thursday, April 2, 2009.

                          LUMMI INDIAN NATION


                                WITNESS

HENRY M. CAGEY, LUMMI INDIAN NATION
    Mr. Cagey. Okay, well good morning. My name is Henry Cagey, 
Chairman of the Lummi Nation. And the Lummi Nation is 100 miles 
north of Seattle in Washington State. A little bit about the 
tribe is the Lummi Nation is a fishing community. So why we are 
here in Commerce is that we are here to ask some help and some 
relief to what is happening with our salmon populations up in 
the Frasier River. And the Lummi Nation, again, is a fishing 
tribe that depends heavily on the sockeye run that runs through 
the Puget Sound, and we are one of the eight tribes that 
harvest the sockeye salmon in the Northwest.
    What we are here today is to look at the congressional 
research study that is in our testimony that reflects a study 
that declared the sockeye a natural disaster. And so right now 
we have been patiently waiting for the last seven years on this 
declaration that the research center has made. As you look in 
the study, the money has not be appropriated to provide some 
relief to the sockeye disaster. And what the Lummi people are 
asking for, Mr. Chairman, is that we need some relief to our 
fishermen. We need some relief to take a look at some 
sustainability plans that we have in investing our hatcheries. 
And what we want to do is basically get off the declaration of 
disaster cycle and take a look at what we need to do to sustain 
our economy.
    And again, the Lummi people are fishing people. And we are 
not about, you know, welders, or farmers. We are fishermen. And 
what we need your help in, Mr. Chairman, is to recognize the 
study that was done by the congressional research study, the 
declaration that was made by former Secretary Carlos Gutierrez, 
was made in November of 2008. What we need the Committee to do 
is recognize the need to fund the declaration now.
    So the Lummi people are asking in our testimony for $24 
million to take a look at what we need to do to turn our 
economy around. Within our testimony is that we have money to 
invest in our hatcheries. We are looking at investing in the 
NICMRE alignment, with the partnership through NICMRE with our 
Northwest Indian College. And then looking at some relief for 
our fishermen.
    And what our fishermen are going through and our families 
are going through for the last ten years, we have basically 
ruined our way of life. We have lost our boats. We have lost 
our homes. We have lost our automobiles. And the Lummi 
fishermen, at one time we had 800 fishermen. And we are down to 
500 now. And we are just one of eight. So we have all the 
fishermen in the Northwest, you are probably talking about 
2,000 families that are affected by this declaration.
    So Mr. Chairman, we do have a packet for you but I guess 
due to the space that we are limited. Our Director of Natural 
Resources is not here, but we do have a packet for you that 
describes the Lummi Nation. We describe the investment that we 
want to make. Currently, we are producing 1 million a year. We 
would like to increase that production up to maybe 6 million 
Coho, as well as Chum and Chinook.
    The other part of our request is the shellfish hatchery. 
And one of the ways we plan to get out of the disaster 
declaration mode is to invest in a shellfish hatchery which 
will allow us to diversify our fishermen to becoming more 
diversified and to raising shellfish, such as Manila Clams, 
geoduck, and other things that the shellfish hatchery will do.
    So with that, Mr. Chairman, I want to thank you for your 
time. Our testimony is there. I hope you are able to take a 
look at it. And we are here to answer any questions that you 
may have.
    [Written testimony by Honorable Henry M. Cagey, Lummi 
Nation Chairman follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.131

[GRAPHIC] [TIFF OMITTED] T8765A.132

[GRAPHIC] [TIFF OMITTED] T8765A.133

[GRAPHIC] [TIFF OMITTED] T8765A.134

    Mr. Serrano. We will take a look at it. We thank you for 
your testimony. And you had a number of $48 million, you said?
    Mr. Cagey. $24 million.
    Mr. Serrano. $24 million. I just cut it in half.
    Mr. Cagey. That is just the Lummi request. And again, Mr. 
Chairman, there are seven other sockeye tribes that are also 
dependent. We are only representing our interests. The other 
tribes, and the nontreaty fishermen, are also affected by this 
recovery of the sockeye. So we only look at what the Lummi 
need.
    Mr. Serrano. Thank you so much.
    Mr. Cagey. Thank you.
    Mr. Serrano. Madeleine Jacobs, American Chemical Society.
                              ----------                              

                                           Thursday, April 2, 2009.

                       AMERICAN CHEMICAL SOCIETY


                                WITNESS

MADELEINE JACOBS, AMERICAN CHEMICAL SOCIETY
    Ms. Jacobs. Thank you very much. It is a pleasure to be 
here today. I am Madeleine Jacobs, Chief Executive Officer of 
the American Chemical Society. ACS was founded in 1876 and we 
have grown to be the world's largest scientific and 
professional society with more than 154,000 members, including 
8,000 in the State of New York, mostly concentrated in New York 
City, and 400 members in Puerto Rico. ACS also has the 
distinction of operating under a national charter of 
incorporation passed by Congress in 1937 and signed by 
President Franklin Roosevelt.
    From the outset I would like to thank the Subcommittee for 
the wonderful support it has given to the National Science 
Foundation and request that this support be increased for 
fiscal year 2010 and beyond. Also testifying before this 
Committee today are my colleagues from the American 
Mathematical Society, the American Physical Society, and the 
Federation of American Societies for Experimental Biology. 
Together these four organizations represent more than 300,000 
scientists, engineers, and mathematicians in a wide variety of 
fields. We are united in our request for a fiscal year 2010 
budget for the National Science Foundation of $7 billion.
    I have two main messages today. There is a critical need 
for sustained support of NSF foundational research, and for 
support of NSF funding for what is known as STEM education, 
that is education in science, technology, engineering, and 
mathematics, that underpins our economy. First on research. 
Within the science and technology enterprise, chemistry is both 
a central and an enabling science. Chemistry plays a role in 
conquering disease, solving energy problems, providing the 
discoveries that lead to new industries, and developing new 
materials and technologies for national defense and homeland 
security. The chemistry enterprise also drives and sustains the 
American economy. Federal investments in chemistry and chemical 
engineering have had a significant impact on the U.S. economy. 
A study from the Council for Chemical Research shows that each 
$1 billion in federal investment coupled with $2 billion from 
industry has helped to create over 600,000 jobs, increased 
gross domestic product by $40 billion, and contributed $8 
billion in taxes over a twenty-year period.
    Robust and sustained federal investments in NSF's basic 
scientific research will help bolster our country's capacity 
for innovation and global economic competitiveness. NSF 
investments in research have returned exceptional dividends to 
the American people as globalization has accelerated the 
worldwide competition for ideas, science and engineering 
talent, and leadership in turning new technologies into real 
world applications.
    NSF funding has been instrumental in the work of forty-
seven Nobel Laureates in chemistry, thus underscoring the 
critical need to fund our nation's future innovators to help 
chart new discoveries to improve our economy and people's 
lives.
    One final thought on NSF research funding. Continuity of 
funding is just as important as level of funding. Large 
increases in funding followed by stagnating or declining 
budgets can cause long term harm even when it supports short 
term priorities. Irregular funding undermines long term 
research investments and creates real disincentives to young 
people who are considering careers in science and technology.
    Now to STEM education. In addition to research funding the 
American Chemical Society also supports NSF's important 
educational mission. America must improve the way our students 
learn science, math, technology and engineering if we want our 
nation to remain competitive in the global economy and continue 
to be a world leader in scientific and technical breakthroughs. 
We urge you to provide increased support for NSF's innovative 
Math and Science Partnership program which has improved student 
proficiency in math and science in many schools. We also urge 
you to increase the federal investment in the Noyce Scholarship 
Program, which is aimed at preparing high quality teachers and 
was expanded in the America Competes Act to encourage college 
STEM majors to pursue teaching careers in high needs schools. 
We need high quality, well prepared teachers if we hope to 
improve student performance.
    Finally, I urge the Subcommittee to fund the Partnerships 
for Access to Laboratories science pilot program, often known 
as PALs. That will provide research to help our children 
experience high quality, hands on science learning in a safe 
lab setting. We will never spark the imagination of the next 
generation of Einsteins if our students never have the 
experience of the excitement of working in a lab
    Thank you for the opportunity to offer the American 
Chemical Society's strong support for the NSF budget. Thank 
you.
    [Written testimony by Madeleine Jacobs, Ph.D., Chief 
Executive Officer, American Chemical Society follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.135

[GRAPHIC] [TIFF OMITTED] T8765A.136

    Mr. Serrano. We thank you for your testimony. You 
encouraged the Committee by telling us that there will be 
another generation of Einsteins. Thank you.
    Kevin Coyle, National Wildlife Federation.
    Mr. Coyle. Good morning, Mr. Chairman.
    Mr. Serrano. Good afternoon.
                              ----------                              

                                           Thursday, April 2, 2009.

                      NATIONAL WILDLIFE FEDERATION


                                WITNESS

KEVIN COYLE, VICE PRESIDENT FOR EDUCATION AND TRAINING, NATIONAL 
    WILDLIFE FEDERATION
    Mr. Coyle. It is morning for me. My name is Kevin Coyle. 
And I am the Vice President for Education and Training at the 
National Wildlife Federation. The Federation is an organization 
of four million members across the country, and we have 48 
affiliates, including Puerto Rico. And we are an organization 
whose education programs reach about five million students per 
year.
    I am really here to talk about the education budgets of all 
three agencies, NOAA, the National Science Foundation, and 
NASA. And in particular to talk about the need for not only 
increased environmental education, but also increased climate 
education.
    There are two main reasons for this. The first reason being 
that as these agencies operate in, as we have heard certainly 
here today, there is a tremendous amount of expertise in 
research, program applications, scientific application, and so 
forth.
    When we look at that at the National Wildlife Federation 
and when a number of the folks who work in education look at 
those questions, we basically conclude that there is a need for 
taking the tremendous expertise and knowledge of these agencies 
and really translating it into good education programs for 
students.
    There are a couple of good reasons for that. One of those 
reasons obviously being creating a pipeline. There is no doubt 
that a lot of students, even by the age of 12 years old, have 
pretty much opted out of science. And so we are interested in 
trying to create more vital, interesting parts of science for 
young learners.
    The second area is with the 2010 budget. We are really 
looking at two generations of people before mid-century that 
will come out of our school systems. And we are really asking 
them in so many ways to address the issues, the science, and 
the solutions of global warming and climate change. Along those 
lines we feel that taking--increasing the education budgets of 
these various agencies in these areas of environmental 
education and climate could be very helpful.
    So we have really a couple of recommendations here, five 
recommendations altogether. The first is that we would increase 
the--or recommend to you increasing the NOAA education and 
grants budget to $12 million. The second would be to expand the 
Water Resource Education Program at NOAA, which is called the 
B-WET Program, to $15 million and to include the Great Lakes in 
that equation. The third, also with NOAA, is to actually 
establish a new climate education program with $12 million.
    And then the two other recommendations to the Committee are 
to increase the National Science Foundation K-12 Climate 
Education Program, which is now at $10 million, to $20 million. 
And to increase the NASA program, which is now at $10 million 
to $20 million.
    So those are a set of very specific recommendations that we 
feel would be very helpful in bringing not only the expertise 
of these agencies into mainstream American education, but also 
preparing a generation that may or may not become scientists in 
the long run but are just people who need to learn to live in a 
world that is going to be very different.
    And we feel that this investment will also leverage a lot 
of the public education funds that schools have been fairly 
reluctant to get into the climate area. And I think that the 
lead of these agencies with this expertise could be very 
helpful in reforming American education as well.
    So thank you very much for the opportunity to come and talk 
to you today.
    [Written testimony by Kevin Coyle, Vice President for 
Education and Training, National Wildlife Federation follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.137

[GRAPHIC] [TIFF OMITTED] T8765A.138

[GRAPHIC] [TIFF OMITTED] T8765A.139

[GRAPHIC] [TIFF OMITTED] T8765A.140

[GRAPHIC] [TIFF OMITTED] T8765A.141

    Mr. Serrano. Thank you. And thank you for your testimony 
and for your work. Thank you.
    Staff will note that this group of folks here have quickly 
picked up on the fact that of mentioning New York and Puerto 
Rico. It is a good thing. It is a good thing with me. For the 
record, I was born in Puerto Rico and raised in New York, which 
is redundant in a way.
    And as we speak now, there is a ceremony in Puerto Rico 
celebrating the issuing of a quarter, which includes the first 
territory ever on the back. If you recall, there was a quarters 
program that included the 50 states. And I expanded it under a 
law last year to include the territories and D.C. D.C. went 
first. Puerto Rico goes second today.
    And I think Lou Dobbs is going to have a heart attack, 
because it is a territory, and they are Spanish on the back of 
it. He says he is not going to come to the island of 
enchantment. That will upset somebody in this society. And that 
is what I do. Well. So thank you.
    James Glimm, Ph.D., American Mathematical Society.
                              ----------                              --
--------

                                           Thursday, April 2, 2009.

                     AMERICAN MATHEMATICAL SOCIETY


                                WITNESS

JAMES GLIMM, PH.D., PAST PRESIDENT, AMERICAN MATHEMATICAL SOCIETY
    Mr. Glimm. Thank you, Mr. Chairman. I am James Glimm, past 
president of the American Mathematical Society. Also testifying 
today are representatives of the American Chemical Society, 
American Physical Society, and the Federation of American 
Societies for Experimental Biology. Together these 
organizations represent more than 300,000 scientists, 
engineers, and mathematicians in a diversity of fields. We are 
united in our request for the fiscal year 2010 budget for the 
National Science Foundation of $7 billion.
    This investment will allow the NSF to continue innovative 
and transformational scientific research to fuel the American 
economy, uphold national security, and maintain global 
competitiveness.
    I would like to begin by thanking you for recent 
investments in NSF. These investments will increase the ability 
of NSF to support highly rated proposals that have heretofore 
gone unfunded because of inadequate budgets. And they will 
allow the NSF to concentrate on funding young investigators who 
will be key to building research infrastructure facing critical 
problems such as climate, energy conservation, environment, and 
so on.
    The fiscal 2009 Omnibus Bill provided strong increases for 
NSF. We were grateful for the $3 billion investment in NSF 
through the American Recovery and Reinvestment Act, in 
combination this gives a NSF fiscal 2009 budget of 
approximately $9.5 billion.
    This level is consistent with previous authorization bills, 
but is a short increase relative to actual appropriations, 
which from the years 2004 to 2008 were in fact in decrease in 
constant budgets.
    But given that the funding for the ARRA is temporary, we 
have an issue with the future NSF budgets, which we urge to 
continue to grow at rates that sustain research and innovation 
enterprise and allow the United States to maintain its 
scientific leadership and technological competitiveness.
    And I would say that there is a--it seems to me there is a 
kind of Moore's law, which you may have heard of in connection 
with computing. It is a kind of Moore's law for the role of 
science in American life. And if we do not increase the level 
of science funding, we are simply underinvesting in the proper 
role, the true role, of science in our own lives.
    So if the NSF budgets do not grow adequately in the future, 
all of this--was gained from this new funding will be lost. And 
we will have a debilitating effect on our science enterprise, 
causing future generations of scientists to look at other 
career paths.
    So I want to emphasize as a main message today the 
necessity of adequate yearly investments in NSF. NSF is very 
important to the mathematical sciences. It accounts for 60 
percent of the federally-funded mathematical research in 
colleges and universities and the only agency that funds 
mathematics research broadly across all of the subfields.
    Many NSF-supported mathematical science projects have 
benefitted society. I mentioned, for example, a study at the 
University of Houston to design prosthetic devices called 
stents, which are inserted in the artery in the case of an 
aneurysm. And they strengthen the arteries and the veins and 
prevent coronary artery disease.
    The idea there was the combination and collaboration 
between the mathematicians doing the fluid dynamics research 
and the medical biologists and doctors who were dealing with 
the patients and providing the expertise on the medical side.
    Another project involving mathematical modeling and new 
experimental data took place at the University of Maryland 
designing individual doses for the drug therapy for Chronic 
Myelogenous Leukemia.
    And a third item I would cite is a University of Utah 
mathematician's work on polar sea ice, which will improve 
forecasts of global warming and how it effects the ice packs 
and the polar ecosystems.
    These are just a few of the contributions of the 
mathematical sciences. With sustained NSF funding, there will 
be many more.
    So I want to thank you for the opportunity to offer my 
support for the NSF. And I would be delighted to answer any 
questions you might have.
    [Written testimony by James Glimm, Ph.D., Past President, 
American Mathematical Society follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.142

[GRAPHIC] [TIFF OMITTED] T8765A.143

    Mr. Serrano. Well, we want to thank you for your testimony. 
And at the risk of making an editorial comment, which I am not 
supposed to do in this temporary position that I hold here, the 
minute the quarter is issued in Puerto Rico I am out of here, I 
am told.
    But the good news is that I think the folks that are in 
charge of this government in our country now understand the 
value of research and the value of looking forward. And a real, 
real personal editorial comment. I think it is good to have a 
President who has got little children in the White House, 
because there is a look towards the future.
    The bad news is that it couldn't have come at a harder 
time, as most of us in this room know. But I think you are 
going to see a balance and attempt to attack the big problem 
while maintaining the need for research and for moving forward.
    Mr. Glimm. Thank you very much for your comments.
    Mr. Serrano. And we thank you for the work you do. Thank 
you.
    Mr. Richard B. Marchase. Oh, I am sorry, I apologize. And I 
don't have to worry about that until later. Judy Franz, Ph.D., 
American Physical Society. And I apologize for that.
    Ms. Franz. Thank you. And thank you for your editorial 
comments, which we all appreciate.
    Mr. Serrano. Thank you.
                              ----------                              --
--------

                                           Thursday, April 2, 2009.

                       AMERICAN PHYSICAL SOCIETY


                                WITNESS

JUDY FRANZ, PH.D., AMERICAN PHYSICAL SOCIETY
    Ms. Franz. Mr. Chairman, thank you for the opportunity to 
testify today. I too wish to add my appreciation on behalf of 
the American Physical Society and its members for the much 
needed science funding included in the American Recovery and 
Reinvestment Act of 2009 and the fiscal year 2009 
Appropriations Act.
    Despite these significant increases, I would like to 
identify two related issues that should be taken into account. 
The out-year shortage created by the use of $2 billion in the 
ARRA for new grants and the impact of state budget strictures 
and steeply declining university endowments on new faculty 
hires.
    According to information provided by the Administration, 
ARRA funding must be obligated this year with outlays not 
extending beyond fiscal year 2011. However, NSF director, Dr. 
Ardent Bement, has said that all grants issued with the ARRA 
funding will be standard grants with durations of up to five 
years. In this case, even if the NSF budget continues to grow 
at the rate recommended by President Obama, covering those 
stimulus-funded grants will cause a budget shortfall in 2012. 
The exact size of the shortfall will depend on the funding 
schedule for new grants. But we expect it to be several hundred 
million dollars.
    It is important that we avoid the ``boom and bust'' cycle 
for science funding that has been seen in the past, one in 
which science funds rise abruptly and then fall short of the 
needs several years later. This kind of funding pattern has 
been well documented as evidenced by the physical sciences in 
the 1970s and the biomedical sciences most recently. Such 
disruptions in the academic community tend to fall 
disproportionately on the most vulnerable, students and young 
faculty members.
    To alleviate the out-year shortages, I recommend that the 
Committee consider appropriating an aggregate of $150 to $200 
million in fiscal year 2010 and fiscal year 2011 for one shots 
in the form of one-year startup funds for new, young, non-
tenured faculty members. Young faculty members may be facing a 
perfect storm as three separate threats caused by the bad 
economy merge.
    First, senior faculty members will retire more slowly and 
thus fewer new positions will become available. Second, some 
universities are instituting hiring freezes, also decreasing 
new positions. Third, for young experimental scientists to be 
successful and do great science, they must purchase new 
equipment for their labs. Universities usually provide startup 
funds for this, amounting to about $500,000 per hire. But many 
universities can't make such commitments today due to declining 
endowments and in the case of public universities, sharp 
reduction in state support. Thus they are even less able to 
hire young faculty members.
    As a result of these factors, many worthy, young 
investigators coming through the academic pipeline may be 
unable to gain employment in their fields. If this is the case, 
they will either leave science entirely or look for employment 
in other countries. Five years from now the academic science 
pipeline could be remarkably damaged. Providing universities 
with startup funding for young researchers could help alleviate 
this, while also helping decrease the fiscal year 2012 
shortfall.
    Without sustained funding for NSF to support researchers at 
universities across the nation, the academic pipeline for young 
investigators and the future of the scientific enterprise will 
suffer.
    Thank you very much.
    [Written testimony by Judy Franz, Ph.D., Executive Officer, 
American Physical Society follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.144

    Mr. Serrano. Thank you. Thank you so much for your 
testimony.
    Ms. Franz. I have slightly revised my testimony. Would it 
be possible to submit this?
    Mr. Serrano. Sure, absolutely.
    Ms. Franz. Is that okay?
    Mr. Serrano. Absolutely.
    Ms. Franz. Thank you.
    Mr. Serrano. Richard B. Marchase, Ph.D., Federation of 
American Societies for Experimental Biology.
                              ----------                              

                                           Thursday, April 2, 2009.

       FEDERATION OF AMERICAN SOCIETIES FOR EXPERIMENTAL BIOLOGY


                                WITNESS

RICHARD B. MARCHASE, PH.D., PRESIDENT, FEDERATION OF AMERICAN SOCIETIES 
    FOR EXPERIMENTAL BIOLOGY
    Mr. Marchase. Well, again, I thank you for the opportunity 
to testify before you today and for your ongoing commitment to 
science.
    I am the President of the Federation of American Societies 
for Experimental Biology. And as you have heard, we are here 
today in tandem with the physicists, the chemists, and the 
mathematicians to make a unified plea for a budget of $7 
billion for the National Science Foundation. Together we 
represent over 300,000 scientists, engineers, and 
mathematicians. And I think it is an important event that we 
are all here together speaking as a unified voice.
    NSF is the only federal research agency dedicated to 
supporting all fields of fundamental science. And it is the 
principal source of federal research support in fields such as 
mathematics, computer science, plant science, and social 
science.
    I am also personally grateful to this Subcommittee 
responsible for NSF funding. Over the years I have received 
support to attend a high school Adventures in Physics Program, 
a graduate fellowship, a Presidential Young Investigator Award, 
research grants, and training grants all supported by the NSF.
    NSF plays an especially important role at the interface of 
different disciplines, signified sort of by our being here 
together today. One example is the interface between physical 
sciences and biological sciences that is currently the subject 
of a new study by the National Academy. This study highlights 
the importance of biological research through issues such as 
energy, climate change, and environmental science.
    NSF also plays a significant role in improving health by 
advancing medical research, often at the earliest stages and 
often in the work that first might seems unrelated to medicine. 
Forty one Nobel Prizes have been awarded to NSF- funded 
scientists for contributions in physiology or medicine, 
including the groundbreaking work at the interface of physics, 
math, and medicine that lead to the development of magnetic 
resonance imaging or MRI.
    A more recent example involves the area of organ transplant 
technology. NSF-funded research discovered that certain frogs 
produce an anti-freeze that prevents their cells from being 
damaged by the stresses that occur at low temperature. As a 
result, these frogs can survive for months in freezing weather 
even though their major organ systems have come almost 
completely to a halt. Research in this area may lead to 
technologies that will enable human organs to be preserved 
longer, resulting in improved transplantation success rates.
    Of course, NSF's mission is not limited to advancing 
scientific research alone. The agency is also committed to 
achieving excellence in science, technology, engineering, and 
math education at all levels.
    NSF supports a wide variety of initiatives aimed at 
preparing science teachers, developing innovative curricula, 
and engaging students in the process of scientific discovery. 
Each year, NSF funds more than 200,000 scientists, teachers, 
and students engaged in cutting-edge projects at thousands of 
institutions across the country.
    Harking back to my first experience with NSF, I too was 
raised in New York but in a very small town, 500 people in 
upstate New York. As a high school junior I was chosen for a 
six week exposure to world-class physicists at Cornell 
University. It was a life changing opportunity for me, and is 
one of the really important reasons why I have been in science 
for the last however many years it has been.
    But since its creation in 1950, NSF support for research 
projects across the country has fueled innovation, energized 
the economy, and improved health and quality of life for all. 
In the years ahead, funding for NSF will allow the agency to 
enhance support that scientists need to advance discovery, 
promote transformational, interdisciplinary research projects, 
and foster innovative approaches to science education and 
training at all levels.
    So I thank you for the opportunity to, with my colleagues, 
offer our support for NSF.
    Mr. Serrano. Well it is good to have you all here as a 
group. It is also good to know that frogs continue to amaze me. 
It is an anti-freeze. Now they can also survive in very hot 
weather, right?
    Mr. Marchase. They can do it both. Understanding those 
stresses that allow--or the ways the adaptations that allow 
them to make those adaptations are--is going to be applicable 
to an improved health I am sure.
    [Written testimony by Richard B. Marchase, Ph.D., 
President, Federation of American Societies for Experimental 
Biology follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.145

[GRAPHIC] [TIFF OMITTED] T8765A.146

    Mr. Serrano. That is wonderful. Thank you so much.
    Karl Glasener, American Society of Agronomy, Crop Science 
Society of America, Soil Science Society of America.
    Mr. Glasener. Yeah. That is a mouthful.
    Mr. Serrano. All of the above?
    Mr. Glasener. Yes, sir. Good afternoon.
    Mr. Serrano. Good afternoon.
    Mr. Glasener. I am not from Puerto Rico or New York. But I 
will tell you my wife is from Guatemala.
    Mr. Serrano. There you go.
    Mr. Glasener. We have a coffee bar. And we sell our coffee 
here in the United States. And we went to Puerto Rico last 
spring for our 20th anniversary. And for the first time we had 
coffee of equal quality to what we expect from our own farms.
    Mr. Serrano. That is wonderful.
    Mr. Glasener. So I was really impressed. And I didn't know 
that until I went to Puerto Rico.
                              ----------                              

                                           Thursday, April 2, 2009.

                      AMERICAN SOCIETY OF AGRONOMY


                    CROP SCIENCE SOCIETY OF AMERICA


                    SOIL SCIENCE SOCIETY OF AMERICA


                                WITNESS

KARL GLASENER, SCIENCE POLICY DIRECTOR, AMERICAN SOCIETY OF AGRONOMY, 
    CROP SCIENCE SOCIETY OF AMERICA, SOIL SCIENCE SOCIETY OF AMERICA
    Mr. Glasener. Thank you again for having us here today to 
testify. I am the Science Policy Director for the Agronomy, 
Crop, and Soil Science Societies. And we are basically the 
largest life science professional societies in the U.S. 
dedicated to agronomic crop and soil sciences. We produce food, 
feed, fiber, fuel, and antibiotics, and other important issues 
for America.
    Our membership has 25,000 academics, federal government and 
industry scientists, graduate and undergraduate students, and 
practicing professionals in all our sciences through our more 
than 14,000 certified professionals who work daily on the land 
with farmers impact over 70 percent of the managed agronomy 
systems in the U.S.
    As a lot have done before me, I would just like to first 
express a heartfelt thank you for the tremendous support you 
have provided in the economic stimulus. That will allow a lot 
of highly-rated NSF grants that were not going to be funded to 
actually be funded. And it will make a lot of improvements in 
our innovation and technologies.
    Our Societies would recommend a $7 billion funding level 
for 2010. We believe that, in concert with the $3 billion 
provided through the economic stimulus, it will allow NSF to 
continue to fund worthy projects that promote transformational 
and multi-disciplinary research, provide needed scientific 
infrastructure, and contribute to preparing a globally-engaged 
science, technology, engineering, and mathematics society.
    In the couple of minutes I have left I would like to focus 
on three majors areas: agro-ecosystems, climate change, and 
renewable energy and basically NSF's role in them.
    Regarding agro-ecosystem research, after 30 years, almost 
30 years, the National Science Foundation has had the 
visionary, long-term, ecological research network program in 
place. It is a coordinated network of 26 field sites 
representing diverse natural ecosystems that supports 
fundamental ecological research that requires long time periods 
and large spacial scales.
    Though the Agronomy, Crop, and Soil Science Societies 
applaud those efforts, but think it is time we moved on to the 
nation's agricultural lands. Right now the LTER focus is almost 
exclusively on our pristine natural lands, which is great. But 
if you consider that over 900 million acres of the land area of 
the United States is an agro-ecosystems or managed ecosystems, 
which is 41 percent of the land area, we think it is time that 
we expanded the LTER concept into the agro-ecosystems.
    And if you think about it, we have 400 million acres of 
intensively managed crop lands. And they are going to have a 
large impact on our nation's water, air, and soil resources. So 
we need to understand them thoroughly. So understanding the 
ecological phenomena associated with these agro- ecosystems, 
over these long temporal and spacial, especially watershed 
scale, huge areas, is critical for land managers to achieve 
sustainable yields while minimizing the environmental impacts.
    On to climate change. We applaud NSF support for the 
Climate Change Science Program, which in 2008 they tell us 
accounted for $205 million, with the GEO directorate 
contributing $157 million, and the BIO directorate $15 million. 
Research supported by BIO and GEO will help us achieve a more 
complete understanding of the capacity of the agricultural 
lands and natural lands to sequester carbon or myth carbon. A 
misunderstanding is critical if the nation's managed lands are 
to serve as offsets for emissions under cap-and-trade 
legislation, which seems to be the topic du jour these days in 
Congress.
    The National Science Foundation also has a key role to play 
in renewable energy production. The Agronomy, Crop, and Soil 
Science Societies had two other witnesses before me recommend 
that the Plan Genome Research Program be expanded to support 
science to bridge this gap between the fundamental biological 
discoveries, which occur in the laboratory and the greenhouses, 
into the field where you get the reliable expression of 
nutrates. Basically these plants, these cultivars that are 
created, aren't field tested often. And you can't just throw 
them out in a farmer's field in Minnesota and expect them to 
grow and thrive.
    So basically, Mr. Chairman, that is all I have to say. I 
want to thank you again for this opportunity. And look forward 
to interacting more with the Committee.
    [Written testimony by Karl Glasener, Director of Science 
Policy, American Society of Agronomy follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.147

[GRAPHIC] [TIFF OMITTED] T8765A.148

    Mr. Serrano. Thank you so much for your testimony. Just a 
quick question. Your suggestions are for Congress to tell the 
agency to move into these areas, or you think that if they had 
the proper funding or more funding they would move into them 
anyway?
    Mr. Glasener. I think it is a combination of both. Mr. 
Chairman, I believe that for some reason historically NSF has 
been a little bit resistant to doing agricultural research. And 
yet recently they just did a joint deal with the Gates 
Foundation on this bread proposal. So I believe it is time.
    When you think about it, you know, 41 percent of the land 
area is agriculturally managed. And that has a huge impact on 
the natural areas.
    Mr. Serrano. Right.
    Mr. Glasener. So you get to understand them.
    Mr. Serrano. Thank you so much.
    Mr. Glasener. Thank you.
    Mr. Serrano. Thank you.
    Jacqueline Johnson Pata. It says here Director of National 
Congress of American Indians.
                              ----------                              

                                           Thursday, April 2, 2009.

                 NATIONAL CONGRESS OF AMERICAN INDIANS


                                WITNESS

JACQUELINE JOHNSON PATA, DIRECTOR, NATIONAL CONGRESS OF AMERICAN 
    INDIANS
    Ms. Johnson Pata. Thank you very much. I would like to 
thank you also for inviting us here to present our testimony.
    The National Congress of American Indians is the largest 
and the oldest national organization representing American 
tribal governments, American-Indian tribal governments. And in 
my time today what I want to do is just a short overview on 
criminal justice in Indian reservations, and Indian country as 
we call it, in order to better place our requesting context. 
And my written testimony has more detail about our requests 
having to deal with economic development for Indian country and 
Department of Commerce requests.
    Criminal justice is complicated enough. And is often a very 
frustrating issue for Native Americans. And we need your help. 
Public safety is the tribal leader's number one top priority. 
Constitutionally tribes are sovereign entities. And as you 
know, they are not subsidiaries of state governments. Our 
relationship is directly with the federal government.
    Tribal governments have the same responsibilities for 
healthcare, welfare, and for the safety of the people as any 
other government. And, unfortunately, we don't always have the 
same tools to address particularly public safety.
    Like other communities within the United States, the 
federal government has assumed the responsibility of much of 
the day-to-day--excuse me, unlike much of the day-to-day, law 
enforcement services in Indian reservations under the Major 
Crimes Act and other federal laws, many Indian communities are 
dependent upon the federal government for investigation and 
prosecution authority of felony and other crimes committed on 
Indian reservations.
    In practice that means that in cases of felony crime we 
depend on the U.S. Attorneys Office to serve as our local 
prosecutors and the FBI or the BIA to serve as our local police 
investigators, roles in which neither one excel. In fact, a 
recent study found that between 1997 and 2006, the U.S. 
Attorneys declined to prosecute in Indian country cases more 
than two thirds of the time at a rate more than double that of 
the average of federally-prosecuted crime.
    This dysfunctional criminal justice system has led to the 
suffering of the highest crime rates in America. Natives are 
victims of violent crime at rates more than double those of any 
other community in the U.S. One out of three of our women will 
be raped in their lifetime. Crime rates have been rapidly 
increasing in Indian country while crime rates in--has been 
following in similarity low-income communities throughout the 
United States.
    I recognize, however, that the conversation--Congress needs 
to restore the ability of our communities to protect 
themselves. And I recognize this conversation is beyond the 
scope of this Appropriations hearing. But in the interim, 
Congress needs to take two steps, both of which are within the 
purview of the Committee.
    First, we want to make sure that you fund the federal 
agencies at a level that they can protect and oversee us. And 
that the money is actually being spent by those agencies in 
Indian country. And second, adequately fund the tribal criminal 
justice system so that we can continue to build our own 
infrastructure to protect our own communities.
    For the COPS grant tribal set-aside, we are requesting $30 
million. More than 200 tribal police departments ranging from 
small departments with only two officers to those with more 
than 200 officers, help to maintain the public safety in Indian 
country. A good example of that is in the Cheyenne River Sioux 
Reservation, which is about the size of Connecticut. There is 
only ten police officers for the entire reservation. If three 
officers were on time--were on duty at any time, it would still 
take two hours for them to get to an emergency situation.
    In the economic stimulus COPS money, it didn't provide for 
a set-aside that CGS usually--normally applies, puts in there. 
So we are asking for about $30 million.
    The tribal correctional facilities, we are asking for 
staffing at $50 million. Seventy nine percent of the correction 
facilities fall between the minimum staffing levels in Indian 
country. We have new facilities in Indian country that can't 
open, because we don't have the staffing. And then with the 
economic stimulus, we also got more correctional facilities, 
which we desperately needed. The Department of Interior 
estimates that we have about $100 million in staffing need. And 
so we are asking for at least the minimum of $50 million for 
staffing.
    And then tribal correctional facilities. We have deplorable 
conditions. Reports have documented--detention facilities has 
been well documented. In fact in 2008, there was a Department 
of Interior report that said that a number of our offenders are 
being released in informal practices just because the 
facilities aren't able to address them given the severe 
overcrowding. And in that report it made a--it said that $8.4 
billion was needed in the next ten years to address the need. 
This would mean that in the next ten years we would be having 
to appropriate about $840 million to address that need.
    In my testimony I also address the tribal courts situation 
where we are requesting $25 million, and for programs such as 
alcohol and substance abuse and youth programs to be able to 
deal with prevention and issues that bring up the public safety 
concerns in Indian country.
    I thank you very much for our being able to present this 
testimony. And would love to follow up with any other questions 
that you may have. Thank you.
    [Written testimony by National Congress of American Indians 
follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.149

[GRAPHIC] [TIFF OMITTED] T8765A.150

[GRAPHIC] [TIFF OMITTED] T8765A.151

[GRAPHIC] [TIFF OMITTED] T8765A.152

[GRAPHIC] [TIFF OMITTED] T8765A.153

    Mr. Serrano. The National Congress is composed of how many 
groups?
    Ms. Johnson Pata. The National Congress represents the 
interests of all tribes. And our members at any given time are 
over 250 tribes, including those in New York.
    Mr. Serrano. Okay. That is important. Thank you so much.
    Ms. Johnson Pata. Thank you.
    Mr. Serrano. Thank you.
    We are going now to Dr. Steven Breckler, American 
Psychological Association.
                              ----------                              

                                           Thursday, April 2, 2009.

                   AMERICAN PSYCHOLOGICAL ASSOCIATION


                                WITNESS

STEVEN BRECKLER, PH.D., EXECUTIVE DIRECTOR FOR SCIENCE, AMERICAN 
    PSYCHOLOGICAL ASSOCIATION
    Mr. Breckler. Thank you, Mr. Chairman. Good afternoon. I am 
Steve Breckler, Executive Director for Science at the American 
Psychological Association.
    APA is a scientific and professional organization of more 
than 150,000 psychologists and affiliates, many of whom play 
vital roles in the National Science Foundation and in the 
National Aeronautics and Space Administration.
    I would like to address the proposed fiscal year 2010 
research just for these two agencies. But first I want to thank 
you and the Committee on behalf of our scientific and research 
community for increases in research supported at NSF in both 
the fiscal year 2009 Omnibus Appropriations Bill and in the 
American Recovery and Reinvestment Act. And the small but 
really critical boost in research support at NASA as part of 
the Reinvestment Bill.
    For fiscal year 2010, EPA, like others you have heard 
today, urges this Subcommittee to support the President's 
request of $7 billion for NSF and to implement plans for 
doubling the NSF budget over the next ten years.
    As you know, NSF is the only federal agency whose primary 
mission is to support basic research and education in 
mathematics, engineering, and science, including the behavioral 
and social sciences. NSF's investment in basic research across 
these disciplines has created extraordinary scientific and 
technological progress, ensuring contributed economic growth, 
improvements in the design implementation and evaluation of 
public education, strength in the national security, and the 
generation of cutting-edge, new knowledge.
    But here's my point. Many critical national challenges have 
at their core the need to better understand human behavior. 
That is why APA supports a strong investment in psychological 
research throughout the NSF portfolio and including all of the 
research and education programs of the foundation. The America 
Competes Act specifically noted the importance of funding the 
social sciences. This must be reflected in an increase for 
NSF's behavioral and social science research portfolio that is 
comparable to proposed increases for other sciences supported 
by NSF.
    In terms of NASA, the APA recommends funding NASA at the 
President's fiscal year 2010 request of $18.7 billion to allow 
for substantial increases in NASA advanced capabilities, which 
houses the human research program and in NASA aeronautics 
research.
    Over the last 20 years, the NASA research budget has gone 
down steadily. Yet support for space exploration has been 
expanding at the same rate. The result is an increasing gap in 
life sciences and human factors knowledge. Knowledge that is 
critical for successful NASA missions and for improving both 
the safety and efficiency of our current and future aerospace 
systems.
    Longer space missions place increasing demands on 
psychological health and performance in space. Psychological 
scientists are meeting these challenges head on to improve 
human decision making and to allow humans to function in 
extremely challenging environments such as space flight. The 
need for science-based practical principles to enhance systems, 
interfaces, team dynamics, decision making, training, and 
psychological health continues to grow. But with a diminishing 
research budget, NASA behavioral scientists are ill-equipped to 
take on this crucial task.
    Thank you for hearing me.
    [Written testimony by Steven Breckler, Ph.D., Executive 
Director for Science, American Psychological Association 
follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.154

[GRAPHIC] [TIFF OMITTED] T8765A.155

[GRAPHIC] [TIFF OMITTED] T8765A.156

[GRAPHIC] [TIFF OMITTED] T8765A.157

    Mr. Serrano. Well, we thank you. We thank you for your 
testimony, for your work. And I must tell you that I don't 
think of it much. But there must be psychological issues to 
deal with in those space flights. I mean, I have a problem just 
being in the elevator going down. So I can't imagine what 
that's like.
    Mr. Breckler. It is hard to imagine.
    Mr. Serrano. Thank you so much.
    Our Chairman has arrived. And with that in mind, I turn it 
over to you.
    Mr. Mollohan [presiding]. I understand we have gone through 
the witnesses. And we are down to the last witness?
    Mr. Serrano. Yes, one last witness.
    Mr. Mollohan. Please take the stand. The Committee would 
like to welcome Chief Michael S. Miller. Chief Miller is from 
my Congressional District and welcome from Ridgeley.
    Mr. Miller. Thank you, Chairman.
    Mr. Mollohan. Yeah. Pleased you are here. And he's going to 
testify on behalf of Fight Crime: Invest in Kids. It doesn't 
get much better than that. Welcome to the hearing.
                              ----------                              

                                           Thursday, April 2, 2009.

                       RIDGELEY POLICE DEPARTMENT


                                WITNESS

MICHAEL MILLER, CHIEF OF RIDGELEY POLICE DEPARTMENT AND FIGHT CRIME: 
    INVEST IN KIDS
    Mr. Miller. Thank you again. Thank you for the opportunity 
to testify. As has been stated, I am Michael Miller. I am the 
Police Chief of Ridgeley, West Virginia. I am also a member of 
Fight Crime: Invest in Kids. It is a national anti-crime group 
of 5,000 police chiefs, sheriffs, prosecutors, and victims of 
violence who look at what really works to keep kids from 
becoming criminals.
    Now as a Police Chief, I know there is no substitute for 
tough law enforcement. Across the United States, my law 
enforcement brethren everywhere are busy arresting, 
prosecuting, and holding in custody offending juveniles.
    Research shows, however, that punishment alone is often not 
going to be enough. Repeat offense rates, particularly among 
juvenile offenders who have committed two or more offenses, is 
high. That means America's failing its young people and 
endangering its communities.
    Fortunately, research and our experiences are showing that 
targeted investments to help keep kids away from crime and that 
intervene effectively to redirect offending juveniles onto a 
different path, can make our communities safer.
    Quality after-school programs can transform the prime time 
for juvenile crime, 3 p.m.-6 p.m., into hours of academic 
enrichment and constructive activities. An example would be a 
study of a boys and girls club showed that comparable housing 
projects without boys and girls clubs had 50 percent more 
vandalism. And scored 37 percent worse on drug activity than 
those with clubs.
    One source of funding for the after-school efforts is Title 
V of the Federal Juvenile Justice and Delinquency Prevention 
Act, JJDPA. Of course because of a lack of funding, more than 
14 million children and teens are going home from school to an 
empty house each week.
    Juvenile mentoring has also been shown to cut crime. A 
study of Big Brothers/Big Sisters has found that young people 
with a mentor were about half as likely to begin illegal drug 
use and nearly one third less likely to hit someone compared to 
those without a mentor.
    There are also effective interventions that reduce 
recidivism. Functional family therapy has been shown to cut 
rates of rearrest in half by intervening with families to teach 
them how to better control their children's behavior and save 
the public an average of $32,000 per youth treated.
    Juvenile accountability block grants and JGDPA Title II 
state formula grant funds have been used to support these 
efforts. Evidence-based programs that use effective reentry 
approaches such as multidimensional treatment, foster care are 
also working. The MTSC approach cuts the average number of 
repeat arrests for seriously delinquent juveniles in half. And 
saves the public an average of over $77,000 for every juvenile 
treated.
    The Second Chance Act can support programs like the MTSC. 
The President has requested $75 million for the Second Chance 
Act. I urge you to fully fund these programs, including the 
Adult and Juvenile Reentry Demonstration Projects authorized to 
receive $55 million for fiscal year 2010.
    Effective prevention and intervention activities such as 
those supported by Title V, Juvenile Mentoring Grants. Title II 
and JABG remains so woefully underfunded that they only reach a 
fraction of the kids who could benefit from them.
    I have seen the consequences of these myself locally. I 
actually arrested a juvenile who burglarized the local 
business. He served his time in a juvenile facility. Shortly 
after his release he committed another burglary, but now he was 
an adult. At 18, he went to an adult facility to serve his 
time.
    I will not out of respect for the sensibilities of people 
here explain what happened to him. But a traumatic event 
occurred. I have seen him since he has gotten out. He walks 
along the street. He can't hold his head up. He can't hold a 
job. He can't do anything. The system broke him. As a Chief, I 
think he should have been punished for what he did. But I can't 
help but wonder if things might have turned out differently. 
Perhaps his life wouldn't have been destroyed if he had had 
access to some of the programs that I have discussed today.
    I urge at a minimum that the Committee restore funding to 
the 2002 levels for Title II, Title V, and JABG, and to fund 
juvenile mentoring at $80 million as a first step towards fully 
addressing the needs of our youth and access to these effective 
approaches.
    I believe if we as a nation continue to refuse to 
adequately invest in proven crime prevention strategies, we not 
only fail to give a better chance for a better future to 
millions of kids, but we are permitting the further cultivation 
of criminals. And I think that we are jeopardizing the safety 
of all Americans for years to come.
    I thank you all again for the opportunity to testify. And I 
would be happy to answer any questions that I can.
    Mr. Mollohan. Sometimes with you being the last witness 
that we do have an opportunity maybe for you to elaborate a 
bit. Tell us about what programs you are involved in. And how 
these programs impact your community.
    Mr. Miller. Well presently as it pertains to juveniles, I 
just recently became a member of Fight Crime: Invest in Kids.
    Chairman, as I am sure you are well aware, West Virginia, 
particularly our area of West Virginia, is not abundant with a 
large number of programs to help youth offenders. So presently 
I am not involved in anything other than this organization. And 
sadly being a police chief in my department, means about 40 
hours as a regular patrolman and another 40 as a chief. And it 
tends to take up the majority of my time. However, I am 
constantly looking for anything to become involved in to help 
with the community.
    Presently, our community is rather small, even though we 
have just taken on the law enforcement activities of another 
community as well.
    Mr. Mollohan. What community is that?
    Mr. Miller. Carpendale, sir. We don't have any grassroots 
programs in play at the moment. We presently just work as best 
we can as individual officers to promote these ideals with our 
youth. Of course, we practice effective community policing and 
try to employ help from the underfunded Child Protective 
Services Agencies whenever we can.
    Mr. Mollohan. How many officers do you have on your force?
    Mr. Miller. We have five officers now. We are looking to 
hire. If you all know of any qualified candidates, please send 
them our way.
    Mr. Mollohan. There is reputed to be a lot of them out 
there who are looking for jobs.
    Well, Chief, thank you very much for your testimony today. 
We look forward to working with you, and we will follow up on 
some of these programs with you. And see if some of them might 
not be something that could implemented in Mineral County or in 
your community.
    Mr. Miller. Well, I thank the Committee for their time. 
And, Chairman, I think all of West Virginia thanks you for what 
you've done for us.
    Mr. Mollohan. Thank you, Chief. Thank you.
    [Written testimony by Ridgeley Police Department Chief 
Michael Miller follows:]

[GRAPHIC] [TIFF OMITTED] T8765A.158

[GRAPHIC] [TIFF OMITTED] T8765A.159

[GRAPHIC] [TIFF OMITTED] T8765A.160

[GRAPHIC] [TIFF OMITTED] T8765A.161

[GRAPHIC] [TIFF OMITTED] T8765A.162

[GRAPHIC] [TIFF OMITTED] T8765A.163

[GRAPHIC] [TIFF OMITTED] T8765A.164

[GRAPHIC] [TIFF OMITTED] T8765A.165

[GRAPHIC] [TIFF OMITTED] T8765A.166

[GRAPHIC] [TIFF OMITTED] T8765A.167

[GRAPHIC] [TIFF OMITTED] T8765A.168

[GRAPHIC] [TIFF OMITTED] T8765A.169

[GRAPHIC] [TIFF OMITTED] T8765A.170

[GRAPHIC] [TIFF OMITTED] T8765A.171

[GRAPHIC] [TIFF OMITTED] T8765A.172

[GRAPHIC] [TIFF OMITTED] T8765A.173

[GRAPHIC] [TIFF OMITTED] T8765A.174

[GRAPHIC] [TIFF OMITTED] T8765A.175

[GRAPHIC] [TIFF OMITTED] T8765A.176

[GRAPHIC] [TIFF OMITTED] T8765A.177

[GRAPHIC] [TIFF OMITTED] T8765A.178

[GRAPHIC] [TIFF OMITTED] T8765A.179

[GRAPHIC] [TIFF OMITTED] T8765A.180

[GRAPHIC] [TIFF OMITTED] T8765A.181

[GRAPHIC] [TIFF OMITTED] T8765A.182

[GRAPHIC] [TIFF OMITTED] T8765A.183

[GRAPHIC] [TIFF OMITTED] T8765A.184

[GRAPHIC] [TIFF OMITTED] T8765A.185

[GRAPHIC] [TIFF OMITTED] T8765A.186

[GRAPHIC] [TIFF OMITTED] T8765A.187

[GRAPHIC] [TIFF OMITTED] T8765A.188

[GRAPHIC] [TIFF OMITTED] T8765A.189

[GRAPHIC] [TIFF OMITTED] T8765A.190

[GRAPHIC] [TIFF OMITTED] T8765A.191

[GRAPHIC] [TIFF OMITTED] T8765A.192

[GRAPHIC] [TIFF OMITTED] T8765A.193

[GRAPHIC] [TIFF OMITTED] T8765A.194

[GRAPHIC] [TIFF OMITTED] T8765A.195

[GRAPHIC] [TIFF OMITTED] T8765A.196

[GRAPHIC] [TIFF OMITTED] T8765A.197

[GRAPHIC] [TIFF OMITTED] T8765A.198

[GRAPHIC] [TIFF OMITTED] T8765A.199

[GRAPHIC] [TIFF OMITTED] T8765A.200

[GRAPHIC] [TIFF OMITTED] T8765A.201

[GRAPHIC] [TIFF OMITTED] T8765A.202

[GRAPHIC] [TIFF OMITTED] T8765A.203

[GRAPHIC] [TIFF OMITTED] T8765A.204

[GRAPHIC] [TIFF OMITTED] T8765A.205

[GRAPHIC] [TIFF OMITTED] T8765A.206

[GRAPHIC] [TIFF OMITTED] T8765A.207

[GRAPHIC] [TIFF OMITTED] T8765A.208

[GRAPHIC] [TIFF OMITTED] T8765A.209

[GRAPHIC] [TIFF OMITTED] T8765A.210

[GRAPHIC] [TIFF OMITTED] T8765A.211

[GRAPHIC] [TIFF OMITTED] T8765A.212

[GRAPHIC] [TIFF OMITTED] T8765A.213

[GRAPHIC] [TIFF OMITTED] T8765A.214

[GRAPHIC] [TIFF OMITTED] T8765A.215

[GRAPHIC] [TIFF OMITTED] T8765A.216

[GRAPHIC] [TIFF OMITTED] T8765A.217

[GRAPHIC] [TIFF OMITTED] T8765A.218

[GRAPHIC] [TIFF OMITTED] T8765A.219

[GRAPHIC] [TIFF OMITTED] T8765A.220

[GRAPHIC] [TIFF OMITTED] T8765A.221

[GRAPHIC] [TIFF OMITTED] T8765A.222

[GRAPHIC] [TIFF OMITTED] T8765A.223

[GRAPHIC] [TIFF OMITTED] T8765A.224

[GRAPHIC] [TIFF OMITTED] T8765A.225

[GRAPHIC] [TIFF OMITTED] T8765A.226

[GRAPHIC] [TIFF OMITTED] T8765A.227

[GRAPHIC] [TIFF OMITTED] T8765A.228

[GRAPHIC] [TIFF OMITTED] T8765A.229

[GRAPHIC] [TIFF OMITTED] T8765A.230

[GRAPHIC] [TIFF OMITTED] T8765A.231

[GRAPHIC] [TIFF OMITTED] T8765A.232

[GRAPHIC] [TIFF OMITTED] T8765A.233

[GRAPHIC] [TIFF OMITTED] T8765A.234

[GRAPHIC] [TIFF OMITTED] T8765A.235

[GRAPHIC] [TIFF OMITTED] T8765A.236

[GRAPHIC] [TIFF OMITTED] T8765A.237

[GRAPHIC] [TIFF OMITTED] T8765A.238

[GRAPHIC] [TIFF OMITTED] T8765A.239

[GRAPHIC] [TIFF OMITTED] T8765A.240

[GRAPHIC] [TIFF OMITTED] T8765A.241

[GRAPHIC] [TIFF OMITTED] T8765A.242

[GRAPHIC] [TIFF OMITTED] T8765A.243

[GRAPHIC] [TIFF OMITTED] T8765A.244

[GRAPHIC] [TIFF OMITTED] T8765A.245

[GRAPHIC] [TIFF OMITTED] T8765A.246

[GRAPHIC] [TIFF OMITTED] T8765A.247

[GRAPHIC] [TIFF OMITTED] T8765A.248

[GRAPHIC] [TIFF OMITTED] T8765A.249

[GRAPHIC] [TIFF OMITTED] T8765A.250

[GRAPHIC] [TIFF OMITTED] T8765A.251

[GRAPHIC] [TIFF OMITTED] T8765A.252

[GRAPHIC] [TIFF OMITTED] T8765A.253

[GRAPHIC] [TIFF OMITTED] T8765A.254

[GRAPHIC] [TIFF OMITTED] T8765A.255

[GRAPHIC] [TIFF OMITTED] T8765A.256

[GRAPHIC] [TIFF OMITTED] T8765A.257

[GRAPHIC] [TIFF OMITTED] T8765A.258

[GRAPHIC] [TIFF OMITTED] T8765A.259

[GRAPHIC] [TIFF OMITTED] T8765A.260

[GRAPHIC] [TIFF OMITTED] T8765A.261

[GRAPHIC] [TIFF OMITTED] T8765A.262

[GRAPHIC] [TIFF OMITTED] T8765A.263

[GRAPHIC] [TIFF OMITTED] T8765A.264

[GRAPHIC] [TIFF OMITTED] T8765A.265

[GRAPHIC] [TIFF OMITTED] T8765A.266

[GRAPHIC] [TIFF OMITTED] T8765A.267

[GRAPHIC] [TIFF OMITTED] T8765A.268

[GRAPHIC] [TIFF OMITTED] T8765A.269

[GRAPHIC] [TIFF OMITTED] T8765A.270

[GRAPHIC] [TIFF OMITTED] T8765A.271

[GRAPHIC] [TIFF OMITTED] T8765A.272

[GRAPHIC] [TIFF OMITTED] T8765A.273

[GRAPHIC] [TIFF OMITTED] T8765A.274

[GRAPHIC] [TIFF OMITTED] T8765A.275

[GRAPHIC] [TIFF OMITTED] T8765A.276

[GRAPHIC] [TIFF OMITTED] T8765A.277

[GRAPHIC] [TIFF OMITTED] T8765A.278

[GRAPHIC] [TIFF OMITTED] T8765A.279

[GRAPHIC] [TIFF OMITTED] T8765A.280

[GRAPHIC] [TIFF OMITTED] T8765A.281

[GRAPHIC] [TIFF OMITTED] T8765A.282

[GRAPHIC] [TIFF OMITTED] T8765A.283

[GRAPHIC] [TIFF OMITTED] T8765A.284

[GRAPHIC] [TIFF OMITTED] T8765A.285

[GRAPHIC] [TIFF OMITTED] T8765A.286

[GRAPHIC] [TIFF OMITTED] T8765A.287

[GRAPHIC] [TIFF OMITTED] T8765A.288

[GRAPHIC] [TIFF OMITTED] T8765A.289

[GRAPHIC] [TIFF OMITTED] T8765A.290

[GRAPHIC] [TIFF OMITTED] T8765A.291

[GRAPHIC] [TIFF OMITTED] T8765A.292

[GRAPHIC] [TIFF OMITTED] T8765A.293

[GRAPHIC] [TIFF OMITTED] T8765A.294

[GRAPHIC] [TIFF OMITTED] T8765A.295

[GRAPHIC] [TIFF OMITTED] T8765A.296

[GRAPHIC] [TIFF OMITTED] T8765A.297

[GRAPHIC] [TIFF OMITTED] T8765A.298

[GRAPHIC] [TIFF OMITTED] T8765A.299

[GRAPHIC] [TIFF OMITTED] T8765A.300

[GRAPHIC] [TIFF OMITTED] T8765A.301

[GRAPHIC] [TIFF OMITTED] T8765A.302

[GRAPHIC] [TIFF OMITTED] T8765A.303

[GRAPHIC] [TIFF OMITTED] T8765A.304

[GRAPHIC] [TIFF OMITTED] T8765A.305

[GRAPHIC] [TIFF OMITTED] T8765A.306

[GRAPHIC] [TIFF OMITTED] T8765A.307

[GRAPHIC] [TIFF OMITTED] T8765A.308

[GRAPHIC] [TIFF OMITTED] T8765A.309

[GRAPHIC] [TIFF OMITTED] T8765A.310

[GRAPHIC] [TIFF OMITTED] T8765A.311

[GRAPHIC] [TIFF OMITTED] T8765A.312

[GRAPHIC] [TIFF OMITTED] T8765A.313

[GRAPHIC] [TIFF OMITTED] T8765A.314

[GRAPHIC] [TIFF OMITTED] T8765A.315

[GRAPHIC] [TIFF OMITTED] T8765A.316

[GRAPHIC] [TIFF OMITTED] T8765A.317

[GRAPHIC] [TIFF OMITTED] T8765A.318

[GRAPHIC] [TIFF OMITTED] T8765A.319

[GRAPHIC] [TIFF OMITTED] T8765A.320

[GRAPHIC] [TIFF OMITTED] T8765A.321

[GRAPHIC] [TIFF OMITTED] T8765A.322

[GRAPHIC] [TIFF OMITTED] T8765A.323

[GRAPHIC] [TIFF OMITTED] T8765A.324

[GRAPHIC] [TIFF OMITTED] T8765A.325



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Arnold, Douglas..................................................   393
Assmann, Dr. S. M................................................   171
Bean, David......................................................    14
Bell, Ford.......................................................   142
Bennett, Dr. K. A................................................   258
Berg, Steve......................................................    53
Blakey, Marion...................................................   130
Bogden, Philip...................................................   187
Breckler, Steven.................................................   244
Thigham, N. K....................................................   301
Cagey, H. M......................................................   204
Carew, T. J......................................................   398
Casper, Dr. Lynne................................................   385
Cerveny, Kassandra...............................................   115
Chang, Caren.....................................................   169
Chatwin, Anthony.................................................   109
Chatwin, R. M....................................................   346
Coochise, Elbridge...............................................     8
Copp, Steven.....................................................   416
Cosgrove, Sean...................................................   305
Coyle, Kevin.....................................................   214
Dangemond, Jack..................................................   324
Dedes, Jim.......................................................    81
Deliberto, Corryne...............................................    60
Duran, Mishaela..................................................    95
Eberle, Dr. Francis..............................................   375
Ehlers, Hon. V. J................................................    29
Ellin, Rebecca...................................................   362
Erwin, Mike......................................................   405
Fairbairn, William...............................................   296
Farr, Hon. Sam...................................................    34
Fellows, Jack....................................................   162
Fletcher, Kristen................................................   156
Frank, Billy, Jr.................................................   102
Franz, Judy......................................................   225
Front, Alan......................................................   411
Glasener, Karl...................................................   232
Glimm, James.....................................................   221
Gregory, J. C....................................................   199
Harris, Dr. K. M.................................................   385
Hawley, Ron......................................................    21
Hilton, Cynthia..................................................   338
Hoogstraten, Bruce...............................................   180
Houston, Aaron...................................................    88
Huchra, John.....................................................   260
Isbister, Mary...................................................   329
Jacobs, Madeleine................................................   210
Jadin, Jenna.....................................................   267
Jim, R. L........................................................   380
Johnson, Pam.....................................................   175
Koenings, J. P...................................................   136
Kohler, Jeff.....................................................   417
Liss, Cathy......................................................   285
Lohrenz, Dr. S. E................................................   288
Lynch, G. P......................................................    74
Mandel, David....................................................    67
Marchase, R. B...................................................   228
Martin, Gabrielle...............................................38, 357
McCarthy, Hon. Carolyn...........................................     1
McClure, Thomas..................................................   320
McCormack, Karen.................................................   315
McQueen, Mary....................................................    45
Menashes, Matt...................................................   362
Miller, Michael..................................................   250
Monroe, Leila....................................................   377
Noland, Dr. Brian................................................   122
Noorda, Clyde....................................................   319
O'Rear, Jack.....................................................   334
Olsen, J. C......................................................   353
Osthus, Rebecca..................................................   275
Paskins, Corey...................................................   318
Pata, J. J.......................................................   236
Pierson, Carol...................................................   366
Pietrafesa, Dr. Len..............................................   288
Popovich, Belinda................................................   403
Quandt, Steven...................................................   304
Riksen, Michael..................................................   370
Rowan, Linda.....................................................   263
Sanders, Dr. J. G..............................................149, 392
Schiffries, Craig................................................   193
Silver, Howard...................................................   310
Smith, Kyle......................................................   293
Stedman, B. J....................................................   348
Struttman, Ted...................................................   355
Thompson, G. K...................................................   347
Trandahl, Jeff...................................................   111
Valek, John......................................................   389
Vance, D. C......................................................   337
Velazquez, Tracy.................................................   343
Webster, Chuck...................................................   317
Williams, Della..................................................   418
Wilson, Kent.....................................................   390
Woglom, Emily....................................................   406
Wychulis, Steve..................................................   294
Zorn, J. E.......................................................   330
</pre></body></html>
